APPENDIX A.

UNITED STATES COURT
OF APPEALS
FOR THE SIXTH
CIRCUIT OPINION

Shalash v. Gray, 2020 U.S. App. LEXIS 38800
Copy Citation
United States Court of Appeals for the Sixth Circuit
December 10, 2020, Filed
No. 20-3772
Reporter
2020 U.S. Ann. LEXIS 38800 *
AHMAD SHALASH, Petitioner-Appellant, v. DAVID W. GRAY, Warden, Belmont
Correctional Institution, Respondent-Appellee.

Core Terms
post-conviction, robberies, trial court, convictions, firearm, jurists, district court, specifications,
beyond a reasonable doubt, appellate court, habeas relief, state court, fair trial, instructions,
comments, vouching, default
Counsel: f*U For Ahmad Shalash, Petitioner - Appellant: Stephenie Lape Wolfinbarger, Law
Office, Cincinnati, OH.
For DAVID W. GRAY, Warden, Belmont Correctional Institution, Respondent - Appellee:
William H. Lamb, Assistant Attorney General, Office of the Attorney General, Cincinnati, OH.
Judges: Before: KETHLEDGE, Circuit Judge.

Opinion
ORDER
Ahmad Shalash, an Ohio prisoner proceeding pro se, appeals a district court judgment denying
his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. He now moves for a
certificate of appealability (COA). See 28 U.S.C. § 2253(c); Fed. R. App. P. 22(b)(2).
A jury convicted Shalash of four counts of robbery, two counts of aggravated robbery, and two
firearm specifications for each of the aggravated-robbery counts. See State v. Shalash, Nos. C130748/749. 2014-0hio-5006. 2014 WL 5840147. at *1 (Ohio Ct. App. Nov. 12, 2014). The trial
court merged two of the robbery convictions with the aggravated-robbery convictions, merged
the firearm specifications for each aggravated-robbery conviction, and sentenced Shalash to an
2

aggregate term of 44 years in prison. 2014-0hio-5006, [WL1 at *8. The Ohio Court of Appeals
affirmed his convictions and sentence, 2014-0hio-5006, [WL1 at *12, and the Ohio Supreme
Court denied review, State v. Shalash, 142 Ohio St. 3d 1517, 2015- Ohio 2341, 33 N.E.3d 65
(Ohio 2015) (table). Shalash then filed a petition to vacate his judgment and sentence pursuant
to Ohio Revised Code § 2953.21. The trial court denied the petition,J^2L and the court of
appeals affirmed. Shalash was represented by counsel throughout his state criminal and post­
conviction proceedings.
In December 2017, Shalash, still represented, filed his § 2254 petition raising four grounds: (1)
the evidence was insufficient to support his convictions, and the manifest weight of the evidence
did not support them; (2) the prosecutor committed misconduct by making inflammatory
statements during his closing argument and by vouching for a witness; (3) he was denied a fair
trial because the trial court did not instruct the jury that the firearm specifications must be proven
beyond a reasonable doubt; and (4) he was denied effective assistance of counsel and due
process when the trial court denied his state post-conviction petition without a hearing.
The district court denied the petition and declined to grant a COA. The court first concluded that
the "manifest weight of the evidence" portion of Shalash's first claim was not a federal
constitutional claim over which the court had jurisdiction. It then concluded that Shalash had
procedurally defaulted his first three claims and failed to show cause and prejudice or actual
innocence to excuse the default and, alternatively. 1*31 that the claims were without merit.
Finally, the district court concluded that Shalash's fourth claim was not cognizable on habeas
review.
Shalash now moves for a COA on each of his claims, arguing that the district court erred in
concluding that the first three grounds were procedurally defaulted and meritless and that the
fourth ground did not include a claim of ineffective assistance of counsel.
A COA may issue "only if the applicant has made a substantial showing of the denial of a
constitutional right." 28 IJ.S.C. § 2253(c)(2). A petitioner may meet this standard by showing
that reasonable jurists could debate whether the petition should have been resolved in a different
manner or that the issues presented were "adequate to deserve encouragement to proceed
further." Slack v. McDaniel. 529 U.S. 473. 484, 120 S. Ct. 1595. 146 L. Ed. 2d 542
120001 (quoting Barefoot v. Estelle. 463 U.S. 880. 893 n.4, 103 S. Ct. 3383, 77 L. Ed. 2d 1090
(T983V). Under the Antiterrorism and Effective Death Penalty Act, if a state court adjudicated a
petitioner's claim on the merits, a district court may not grant habeas relief unless the state court’s
adjudication of the claim resulted in "a decision that was contrary to, or involved an
unreasonable application of, clearly established Federal law, as determined by the Supreme
Court of the United States" or "a decision that was based on 1*41 an unreasonable determination
of the facts in light of the evidence presented in the State court proceeding." 28 U.S.C. §
2254(d); see Harrington v. Richter. 562 U.S. 86, 100, 131 S. Ct. 770, 1?8 L. Ed. 2d 624 (2011).
In the COA context, this court must evaluate the district court's application of § 2254(d) to
determine "whether that resolution was debatable amongst jurists of reason." Miller-El v
Cockrell. 537 U.S. 322. 336. 123 S. Ct. 1029, 154 L. Ed. 2d 931 (2003).

3

The district court devoted much of its analysis to the issues of procedural default, cause and
prejudice, and actual innocence. But because the district court also determined that Shalash s
claims failed on the merits or were not cognizable in habeas review, and because, for the reasons
set forth below, reasonable jurists would not debate those determinations, the court need not
address the procedural default issues. See Arias v. Hudson, 589 F.3d 315, 316 (6th Cir. 2009).
Shalash first challenges the sufficiency of the evidence to support his convictions. Sufficient
evidence supports a conviction if, "after viewing the evidence in the light most favorable to the
prosecution, anyrational trier of fact could have found the essential elements of the crime beyond
a reasonable doubt." Jackson v. Virginia, 443 U.S. 307, 319, 99 S. Ct. 2781. 61 L. Ed. 2d 560
(1979). Moreover, in habeas proceedings, a court may "set aside the jury's verdict on the ground
of insufficient evidence only if no rational trier of fact could have agreed with the
jury"__1*51 i.e., "only if the state court decision was 'objectively unreasonable.'" Colemanv
Johnson, 566 U.S. 650. 651. 132 S. Ct. 2060. 182 L. Ed. 2d 978 (2012) (per curiam)
(quoting Cavazos v. Smith. 565 U.S. 1,2, 132 S. Ct. 2. 181 L. Ed. 2d 311 (2011)).
On direct appeal, the state court found that the evidence was sufficient to support the
convictions, pointing to the testimony of Shalash's wife Jennifer Neitz and his friend Jake Pfalz,
who confessed to their participation in the robberies and described in detail Shalash's
involvement in the crimes. Shalash. 2014-0hio-5006. 2014 WL 5840147, at *5-8. In addition to
these witnesses, several bank employees identified Neitz and Pfalz as participants in the
robberies, surveillance videos supported that testimony, and other evidence placed Shalash in a
white van that Neitz and Pfalz were seen to use in the robberies. See 2014-0hip-5006, [WL] at
*9. On the basis of this evidence, the state court of appeals determined that Shalash did not meet
his burden of showing that "no rational trier of fact could have found the essential elements of
the crime proven beyond a reasonable doubt." 2014-0hio-5006. TWL1 at *8. Reasonable jurists
could not debate the district court's conclusion that this determination was not an unreasonable
application of Jackson.

Prosecutorial Misconduct
Shalash claims that he was denied a fair trial by the prosecution's allegedly inflammatory
comments and vouching for a witness. 1*61 To be entitled to habeas relief on a prosecutorial
misconduct claim, the petitioner must show that the prosecutor's conduct so infected the trial so
as to render the conviction fundamentally unfair. See Parker v. Matthews, 567 U.S. 37, 45, 132
S. Ct. 2148. 183 L. Ed. 2d 32 (2012)fper curiam). In his COA application, Shalash points to the
prosecutor's references to his Muslim religion during his closing argument and argues that the
prosecutor's purported appeal to racial or religious prejudice deprived him of a fair trial.
At one point, the prosecutor referred to the marriage of Shalash and Neitz in a mosque. He also
referred to Shalash's "Muslim wife" in the getaway vehicle, and mentioned the Muslim culture
relating to Shalash's wife participating in the robbery with her children and another male. The
state appellate court determined that, while the comments were "arguably inappropriate," they
were not so "prejudicial or outcome determinative as to ... deny Shalash a fair trial in light of
4

the overwhelming evidence of Shalash's guilt. Shalash, 2014-0hio-5006, 2014 WL 584.0147, at
*11. Reasonable jurists could not debate the district court's conclusion that this determination
was not an unreasonable application of Matthews. The comments presented an argument based
on the evidence; they were not gratuitous 1*71 references to Shalash's religion that were likely to
inflame passion or prejudice. And, as the state court noted, the evidence against Shalash was
strong.
In support of his witness-vouching claim, Shalash points to the prosecution's comment that a
witness was "obviously . . . not going to lie" to the jurors. The state appellate court determined
that this single statement was not vouching, but merely an argument that one witness—a school
nurse who observed James in the vicinity of the bank on the day of the robbery—was probably
reliable and had no motive to lie. Id. Impermissible vouching occurs when the prosecutor
"supports the credibility of a witness by indicating a personal belief in the witness's credibility
thereby placing the prestige of the [prosecutor's] office .. . behind that witness. United States v.
Francis. 170 F.3d 546. 550 (6th Cir. 1999) .Improper vouching generally "involves either blunt
comments, or comments that imply that the prosecutor has special knowledge of facts not in
front of the jury[.]" Id. (citations omitted). The prosecutor's statement in this case did neither of
these things. Thus, no reasonable jurist could debate the district court's conclusion that the state
court's rejection of this claim was not contrary 1*81 to or an unreasonable application of clearly
established federal law or based on an unreasonable determination of the facts.

Jury Instructions for Firearms Specifications
Shalash claims that he was denied a fair trial by the trial court's failure to instruct the jury, in a
separate instruction, that it must find the elements of the firearm specifications beyond a
reasonable doubt. As the state appellate court explained, the trial court instructed the jury on the
reasonable-doubt standard "at multiple times during the jury charge," and it reminded the jurors
after reading each count of the indictment that the State's burden was to prove each element of
each count beyond a reasonable doubt. Shalash, 2014-Qhio-5006, 2014 WL 5840147, at *12.
The trial court also instructed the jury on the elements required for the firearm
convictions. Id. The state court concluded that, "[w]hen taken together, these jury instructions
satisfied the requirement that the firearm specifications had to be proven beyond a reasonable
doubt." Id.
The Constitution requires that each element of a crime be proved to a jury beyond a reasonable
doubt. See Sullivan v. Louisiana. 508 U.S. 275. 277-78, 113 S. Ct. 2078, 124 L. Ed. 2dJ82
(19933. Shalash argues in his COA application that there was a "complete omission of the
reasonable doubt standard of 1*91 proof in the instruction for a firearm specification" and that
the state court's determination was thus an "unreasonable application of Sullivan." But Shalash
failed to show that the jurors did not apply the reasonable-doubt standard when they convicted
him of the firearm specifications. "[A reviewing court] must presume that juries follow their
instructions." Washington v. Hofbauer„ 228 F.3d 689, 706 f6th Cir. 2000).

5

A habeas petitioner bears a heavy burden when seeking habeas relief on the basis of allegedly
improper jury instructions. Henderson v. Kibbe, 431 U.S. 145, 154, 97 S. Ct. 1730, 52 L. Ed. 2d
203 (1977V An allegedly improper jury instruction warrants habeas relief only if the instruction
so infected the entire trial that the resulting conviction violates due process. Estelle v. McGuire,
502 U.S. 62. 72. 112 S. Ct. 475. 116 L. Ed. 2d 385 0991) (citing Henderson, 431 U.S. at 154).
Given this precedent, and the trial court's repeated reasonable-doubt instructions, no reasonable
jurist could debate the district court's determination that the state court's rejection of this claim
was not unreasonable.

Denial of Hearing for State Post-Conviction Petition
In his fourth ground for habeas relief, Shalash alleged that he "was denied his right to effective
assistance of counsel and due process when the trial court denied his Petition for Post-Conviction
Relief without a hearing." In support of his state post-conviction [*10] petition, Shalash
presented recanting affidavits of Neitz and Pfalz and argued that counsel failed to investigate
possible alibi witnesses and information about the weapons used in the robberies. The trial court
denied the post-conviction petition without a hearing, reasoning that: (1) Shalash's ineffectiveassistance claim was barred by res judicata because he had the opportunity to raise the claim on
appeal; and (2) the affidavits he presented were "viewed with grave suspicion" because of Neitz's
relationship to Shalash and the significant amount of evidence that corroborated the witnesses'
testimony about the participants' roles in the robberies. The state appellate court affirmed, noting
that Shalash presented "a single assignment of error, challenging the postconviction petition
without a hearing." Citing the Ohio Revised Code and state case law, the appellate court
determined that a hearing was not required because Shalash failed to present evidence
demonstrating "substantive grounds for relief."
No reasonable jurist could debate the district court's rejection of Shalash's claim because it
alleges an error in state post-conviction proceedings that is not cognizable on
federal 1*111 habeas review. See Kirbv v. Dutton„ 794 F.2d 245, 247-48 (6th Cir.
19861 ("declin[ing] to allow the scope of the writ to reach... complaints about deficiencies in
state post-conviction proceedings"). Shalash argues that this ground for relief included an
independent substantive claim of ineffective assistance of trial counsel, but the district court
concluded otherwise. As the court noted, Shalash's claim to have been denied effective assistance
of counsel "when the trial court denied his post-conviction petition without a hearing" is
naturally read as a challenge to the trial court's failure to hold an evidentiary hearing on his
claim, not as an independent substantive claim. Thus, reasonable jurists could not debate the
district court's rejection of Shalash's ineffective-assistance claim.
Accordingly, the court DENIES the application for a COA.

6

APPENDIX B.

UNITED STATES
DISTRICT COURT
JUDGE OPINION

Shalash v. Warden, Belmont Corr. Inst., 2020 U.S. Dist.
LEXIS 104372
Copy Citation
United States District Court for the Southern District of Ohio, Western Division
June 15, 2020, Decided; June 15, 2020, Filed
Case No. l:18-cv-333

Opinion
DECISION AND ENTRY ADOPTING THE REPORTS AND RECOMMENDATIONS
OF THE UNITED STATES MAGISTRATE JUDGE (Docs. 18, 23, 28) AS MODIFIED
HERE
This case is before the Court pursuant to the Order of General Reference to United States
Magistrate Judge Michael R. Merz. Pursuant to such reference, the Magistrate Judge, on April
24, 2019, submitted a Report and Recommendation recommending that Petitioner's habeas
petition brought under 28 IJ.S.C. S 2254 be dismissed (Doc. 18). Petitioner filed objections on
June 5, 2019 (Doc. 21), which the Magistrate Judge addressed in a supplemental Report and
Recommendation (Doc. 23). Petitioner filed objections to the supplemental Report and
Recommendation (Doc. 26), which were followed by a second supplemental Report and
Recommendation (Doc. 28). Petitioner submitted a final set of objections on August 6, 2019
(Doc. 29).

I. BACKGROUND
Petitioner Ahmad Shalash was charged 1*21 with four counts of robbery and two counts of
aggravated robbery for participating in the robbery of four banks in the fall of 2012 with his
wife, Jennifer Neitz, and their friend, Jake Pfalz. State v. Shalash, 2014-0hio-5006, 2014 WL
5840147. at *1. *4 (Ohio Ct. Ant). Nov. 12. 2014). Neitz and Pfalz testified against Shalash at
trial, and he was convicted of all charges by a jury in Hamilton County, Ohio and sentenced to an
aggregate term of imprisonment of forty-four years. 2014-0hio-5006, Id. at *5-8. Shalash
appealed his convictions to the First District Court of Appeals, which affirmed. 2014-Ohioz
5006. Id. at *12. Shalash also filed a petition for post-conviction relief pursuant to Ohio Revised
Code'r'R.C'Ts"2953.21. State v. Shalash. No. C-l50614, 2016 Ohio Ann. LEXIS 4105, atJH
(Ohio Ct. Ann. Oct. 7. 2016). His petition was denied by the state trial court, and the First
District affirmed the denial. 2014-0hio-5006. Id. at *3.
On December 11, 2017, Shalash filed the instant habeas petition under 28 U.S.Cj
2254 asserting four separate grounds for relief. For the reasons stated below, the Court adopts the
Magistrate Judge's recommendation and denies Shalash's petition for habeas relief.
8

II. ANALYSIS
A. Ground One
Petitioner's first ground for relief in his § 2254 habeas petition asserts that "[t]he evidence was
insufficient to convict Mr. Shalash, and the manifest weight of the evidence did not support the
trial court's conviction 1*31 in violation of the due process clause of the Fourteenth
Amendment." (Doc. 1 at 5). The Magistrate Judge found that Petitioner's manifest-weight-of-theevidence claim is not a federal constitutional claim, and therefore is not a cognizable habeas
claim. (Doc. 18 at 7); see Schwarzman v. Gray. No. 17-3859. 2018 U.S. App. LEXIS 27193.,
2018 WL 994352. at *3 t6th Cir. Jan. 30. 2018). Petitioner does not object to this finding, and
the Court agrees with and adopts the Magistrate Judge's recommendation that the manifestweight-of-the-evidence claim be dismissed.
The Report and Recommendation further found Petitioner's sufficiency-of-the-evidence claim to
be cognizable, but that Petitioner did not adequately raise the claim in state court, resulting in
procedural default. (Id. at 8-9). The Magistrate Judge also found that Shalash did not adequately
demonstrate actual innocence to excuse the default. (Id. at 10).
Petitioner objects to the Magistrate Judge's finding of procedural default, asserting that he
adequately raised the sufficiency-of-the-evidence claim on direct appeal to the state supreme
court based on factual arguments made in his brief, including that there was no physical evidence
linking him to the charged robberies. (Doc. 21 at 5-6) (citing Clinkscale v. Carter, 375 F.3d 430,
427 f6th Cir. 20041 (noting that whether a petitioner "alleg[es] facts well within the mainstream
of constitutional law" is "significant 1*41 to the determination as to whether a claim has been
fairly presented")). Petitioner also relies on Peterson v. Miller, in which the court found that
a pro se petitioner had adequately raised a sufficiency-of-the-evidence claim based on the
assertion of factual arguments including a lack of physical evidence linking him to the
crimes. (Id. at 5) (citing Peterson v. Miller, No. l:16-cv-509, 2017 U.S. Dist. LEXIS 215391.,
2017 WL 6987994. at *15-16 fN.D. Ohio Dec. 7. 2017)).
Petitioner's memorandum to the Supreme Court of Ohio on direct appeal raised three
"propositions of law," none of which involved a sufficiency-of-the-evidence claim. (See Doc. 10
at 109). Nevertheless, Shalash argues that like the petitioner in Peterson, he fairly presented the
claim based on factual arguments, including that there was a lack of physical evidence linking
him to the crimes. (Doc. 21 at 6). For example, the introductory paragraphs of his memorandum
stated generally that the state had "decidedly little evidence" that Petitioner was involved in the
bank robberies. (Doc. 10 at 110). Shortly after this statement, Shalash's memorandum goes on to
state that because "the State knew it had 'slim pickings' to work with" the prosecutor made
inflammatory statements concerning Petitioner's Muslim faith. 1*51 (Id.). In the very next
paragraph, Petitioner stated that "[f]or its part, the trial court was no help" in that it erroneously
instructed the jury on the firearm specification. (Id.). Thus, in context, Petitioners statements
concerning the lack of evidence were made in support of his express propositions of law

9

regarding prosecutorial misconduct and erroneous jury instructions and were not made in support
of a separate sufficiency-of-the-evidence claim.
The Court agrees with the Magistrate Judge that Petitioner's reliance on Peterson is not
persuasive. In that case, the pro se petitioner raised two propositions of law on appeal to the state
supreme court, yet neither proposition "clearly identified] the nature of the claims
asserted." 2017 U.S. Dist. LEXIS 215391. 2017 WL 6987994, at *15. Liberally construed, the
court found that both propositions appeared to challenge the sufficiency of the evidence based
upon factual assertions concerning a lack of evidence linking the petitioner to the crime. 2017
IJ.S. Dist. LEXIS 215391. TWL1 at *44-45. By contrast, Petitioner's propositions of law
presented to the Supreme Court of Ohio were not vague, and rather, clearly articulated arguments
unrelated to a sufficiency-of-the-evidence claim. Accordingly, Peterson is distinguishable for
two 1*61 reasons. First, the court liberally construed the petition because the petitioner was pro
se, and second, the petitioner in Peterson asked the court to consider factual arguments which
supported the propositions of law actually raised.
Moreover, Petitioner expressly raised a sufficiency-of-the-evidence claim as an "assignment of
error" on direct appeal to the First District Court of Appeals stating, "[t]he evidence was
insufficient to convict Mr. Shalash ...." (Doc. 10 at 40). This shows that Shalash knew how to
raise such a claim and suggests that he intentionally abandoned the claim on his appeal to the
Supreme Court of Ohio. 1.____ See, e.g., Bailum v. Warden. Lebanon Corr. Inst., 832 F. Supp.
2d 893.900 (S.D. Ohio 201U (finding failure to exhaust $ 2254 habeas claim when petitioner
raised claim on appeal to the state court of appeals but abandoned the claim on appeal to the
Supreme Court of Ohio), report and recommendation adopted, 832 F. Supp. 2d_8_93 (S.D. Ohio
201 n.
Next, the Court will address Petitioner's objection to the Magistrate Judge's finding that
Petitioner's failure to exhaust his default is not excused by the "actual innocence' exception.
Petitioner supports his claim of innocence with affidavits of his co-defendants recanting their
testimony. (Doc. 21 at 6).
The actual innocence exception 1*71 to default is "not itself a constitutional claim, but
HN1
instead a gateway through which a habeas petitioner must pass to have his otherwise barred
constitutional claim considered on the merits." Davis v. Bradshaw, 900 F.3d 315, 326 (6th Cm
2018) (citing Schlup v. Delo, 513 U.S. 298. 315. 115 S. Ct. 851, 130 L- Ed. 2d 808 (1995)). Yet,
"this innocence gateway is a narrow one" and "should open only when a petition presents
evidence of innocence so strong that a court cannot have confidence in the outcome of the trial
unless the court is also satisfied that the trial was free of nonharmless constitutional
error." Id. (quoting McOuiggin v. Perkins. 569 U.S. 383, 401, 133 S. Ct. 1924, 185 L. Ed. 2d
1019 (2013)). "The exception 'applies to a severely confined category: cases in which new
evidence shows it is more likely than not that no reasonable juror would have convicted [the
petitioner]."' Id. (quoting McOuiesin. 569 U.S. at 395).

10

To make this assessment, courts "must consider all the evidence, old and new,
HN2
incriminating and exculpatory, without regard to whether it would necessarily be admitted under
the rules of admissibility that would govern at trial." Id. (quoting House v. Bell, 547 U.S. 518,
538. 126 S. Ct. 2064. 165 T. Ed. 2d 1 (7006)). Courts must also "consider how the timing of the
submission and the likely credibility of the affiants bear on the probable reliability of the [new]
evidence." Id. (quoting House. 547 U.S. at 537). A claim of actual innocence must be supported
with "new, reliable evidence. 1*81 such as exculpatory scientific evidence, trustworthy
eyewitness accounts, or critical physical evidence, that was not presented at
trial." Id. (citing House, 547 U.S. at 537).
For example, in Davis, the petitioner claimed actual innocence when an eyewitness recanted his
trial testimony connecting the defendant to the murder. 900 F.3d at 317-18. Before the
defendant's trial, the witness had previously recanted, testifying during the trial of a co-defendant
that he had lied to the police about witnessing the murder in order to receive the offered reward
money. Id. at 318-19. Yet, after being incarcerated for perjury, the witness backtracked and
ultimately provided more details about what he had seen, going on to testify at the defendant s
trial to having witnessed the assault and murder. Id. at 319-20. Years later, the witness again
recanted, asserting that his father had pressured him to come forward and testify in order to get
the reward money. Id. at 320.
The Sixth Circuit found that the witness's most recent recantation did not make it "more likely
than not that no reasonable juror would have found [the defendant] guilty beyond a reasonable
doubt." Id. at 329 (citing Schluv. 513 U.S. at 3273. While acknowledging that the witness's
testimony was "the primary evidence linking [the defendant! 1*91 to [the] murder," the court
noted that the jury had found the witness's testimony credible despite having been aware of his
earlier recantation, opportunistic behavior, and drug-related history. Id. The court further
reasoned that a reasonable juror would likely find the new recantation unreliable because it
"amounted] to another change in his story," and because his testimony implicating the defendant
was corroborated by other evidence. Id. at 330-31. Finally, the court considered the
circumstances surrounding the recantation, noting that the witness would not face adverse
consequences for recanting. Id. at 333 (citing Allen v. Yukins, 366 F.3d 396, 405-06 (6th Cir,
2004)) (affirming district court's finding that an "affidavit was inherently suspect because [the
affiant] could have signed the affidavit in order to help his codefendant.. . without endangering
his own interests").
In the instant case, the Magistrate Judge concluded that the affidavits of Petitioner's co­
defendants were unreliable (Doc. 18 at 10) and bolstered this finding in the supplemental Reports
and Recommendations, noting that recanted testimony is inherently suspect (Doc. 23 at 4; Doc.
28 at 5). Petitioner persists in objecting to the Magistrate Judge's conclusion that the actual
innocence 1*101 exception does not apply. Petitioner specifically asserts that "the testimony of
his coerced co-defendants was the only evidence placing him at the scene of any of the alleged
crimes" and that "there was no physical evidence or any other testimonial evidence implicating
him in the alleged crimes." (Doc. 21 at 7).

11

Upon revjew of the record, the Court reaches the same conclusion as the Magistrate
Judge. Although Petitioner asserts that without his co-defendants' testimony, "Mr. Shalash could
not have been convicted on sufficient evidence" (id. at 7), that is not the pertinent question. The
question is whether, in light of the evidence presented at trial, including the co-defendants'
testimony implicating Shalash in the robberies plus the new evidence the co-defendants
affidavits recanting their trial testimony—it is more likely than not that "no reasonable juror
would have convicted" the petitioner. Davis. 900 F.3d at 326. In order to assess this likelihood,
the Court must consider whether a hypothetical jury would find the recantations reliable
considering the circumstances under which they were made and the extent to which the
testimony is corroborated by the other evidence presented at trial. Id. at 330.
Like in Davis, in 1*111 the instant case, there was evidence presented at trial that the witness
previously made contradictory statements concerning the defendant's involvement in the
crimes. Here, one of Shalash's co-defendants—his wife, Jennifer Neitz testified at trial that she
wrote Shalash numerous letters while in prison stating that Shalash was not involved in the
robberies and that "he was going to be going home." (Doc. 10-3 at 123-128). Thus, a jury may
consider Neitz's latest recantation to be just another change in her story. Also like in Davis, the
jury was made aware of the co-defendants' potential ulterior motives for testifying. In this case,
both co-defendants testified that the prosecution offered them reduced sentences in exchange for
their testimony implicating Shalash. (Id. at 130-131, 183-184). Nevertheless, the jury credited
the co-defendants' testimony, convicting Shalash.
In addition, the co-defendants' testimony that Shalash was involved in the robberies as the
getaway driver of a white van was corroborated by other eyewitness testimony and surveillance
camera footage placing him driving a white van near the robbed banks around the time they were
robbed. For example, co-defendant Jake Pfalz testified that 1*121 Pfalz, Shalash, and Neitz, were
together in the van when they drove to St. James Elementary school to scope out a nearby credit
union. (Id. at 161-162). He testified that while they decided not to rob the credit union,
approximately three to four hours later, they robbed a different bank—the Cheviot Savings
Bank—with Shalash acting as the getaway driver. (Id. 163-169). Neitz similarly testified that the
three defendants parked at the credit union by the school, that she entered the credit union to case
it out, and that she later got in the van with Shalash and Pfalz after they decided not to rob the
credit union; later robbing the Cheviot Savings Bank that afternoon with Shalash driving. (Id. at
86-91).
An eyewitness, Constance Lanter, the St. James school nurse, testified that she followed Pfalz,
who had been acting suspiciously, from the school to the credit union where she saw "a woman .
walking back and forth behind the credit union." (Doc. 10-2 at 144-145). She then saw Pfalz
get into the passenger side of a white van. (Id. at 145-146). Lanter walked alongside the van and
saw the driver who waved at her. (Id. at 146-147). Lanter then identified the driver as Shalash
and testified that the woman also got into the van. (Id. at 147). Further,
surveillance 1*131 footage and additional eyewitness testimony placed Shalash and Pfalz with
the white van at a Dairy Mart in front of the First Financial Bank approximately an hour and a
half before the bank was robbed (Doc. 10-3 at 19-24, 27-28), with another camera showing
Shalash at a gas station a mile away from the bank a half hour before the robbery. (Id. at 32-36).

12

Approximately six months after Shalash's conviction, Pfalz and Neitz submitted handwritten
affidavits recanting their trial testimony and averring that Shalash was not aware of or involved
in the robberies. (Doc. 10 at 20-22, 179-180). Pfalz's statement simply states that he and Neitz
agreed to testify against Shalash in order to get reduced sentences and that Shalash had no
knowledge of or involvement in the bank robberies. (Id. at 180). Neitz's affidavit also states that
Shalash had no knowledge of the robberies, and further states that Pfalz and Neitz agreed to
testify against Shalash because they believed he would be perceived as the leader because he is
of Arab descent; whereas they would be perceived as manipulated by him, resulting in reduced
sentences. (Id. at 179). Neitz later submitted a supplement explaining that she initially told the
police that Shalash 1*141 was involved in the robberies because she was upset with him for
being separated from their children following the couple's arrest on unrelated charges. (Id. at
188). She further explains that she was heavily medicated during her testimony at trial, resulting
in her testifying inaccurately. (Id. at 189). Neitz also submitted a transcript of her trial testimony
indicating in the margins where her testimony was untrue—essentially stating that her husband
was not there, that they dropped Shalash off before the robberies were planned and executed, and
that she drove the van. (Id. at 191-291).
The jury that convicted Shalash was aware that Neitz previously wrote letters to her husband
stating that he was not involved in the robberies and was also aware that the co-defendants
agreed to testify against Shalash in exchange for reduced sentences. In addition, the co­
defendants' testimony was corroborated by other eye-witness accounts and surveillance
footage. Consequently, the Court agrees with the Magistrate Judge's conclusion that the
statements recanting that testimony are inherently unreliable. Moreover, the circumstances of the
recanted testimony are not compelling—they came several months after Shalash s conviction,
and 1*151 while Neitz's statements provide some level of detail (unlike Pfalz's affidavit), Neitz
has an obvious interest in now speaking in support of Shalash—her husband. Yancey v. Haas,
742 Fed. Aonx. 980. 984 (6th Cir. 20181 (explaining that "family members' credibility may be
discounted because they 'have a personal stake in exonerating' the defendant") (quoting McCray
v. Vasbinder. 499 F.3d 568. 573 (6th Cir. 2007V). Thus, the Court does not find that it is more
likely than not that no reasonable juror would be convinced of Shalash's guilt beyond a
reasonable doubt.
In the first supplemental Report and Recommendation, the Magistrate Judge alternatively found
that Shalash's sufficiency-of-the-evidence claim fails on the merits. (Doc. 23 at 4-6). Shalash
objects to this conclusion and asserts that he was convicted "based solely on the now recanted
testimony of his co-defendants which was inconsistent and unreliable," noting a lack of direct
evidence implicating him. (Doc. 26 at 6-7).
a habeas petitioner alleging a sufficiency-ofAs the Magistrate Judge properly stated, HN3
the-evidence claim must pass through two levels of deference. (Doc.23 at 5). First, the Court
must review the trial court's conviction, asking whether "viewing the trial testimony and exhibits
in the light most favorable to the prosecution. 1*161 any reasonable trier of fact could have
found the essential elements of the crime beyond a reasonable doubt." (Id.) (quoting Brown v.
Konteh. 567 F.3d 191. 205 (6th Cir. 2009ft. In doing so, courts may not "reweigh the evidence,
re-evaluate the credibility of witnesses, or substitute our judgment for that of the jury." (Id.).
13

Thus, although Shalash asserts that the co-defendants' testimony was not credible, the Court's
task is not to independently assess the co-defendants' credibility in place of the jury. And while
"a court may sustain a conviction based
Shalash objects to a lack of direct evidence, HN4
upon nothing more than circumstantial evidence." (Id.) (quoting Stewart v. Wolfenbarger, 595
F.3d 647. 656 t6th Cir. 2010')').
the Court must "defer to the state appellate court's sufficiency determination
Second, HNS
as long as it is not unreasonable." Brown. 567 F.3d at 205 (emphasis in original). Petitioner
objects on the basis that "the jury could not have convicted without making inferences and such
inferences are improper if they are ’so unsupportable as to fall below the threshold of bare
rationality.'" (Doc. 26 at 7) (quoting Coleman v. Johnson, 566 U.S. 650, 656, 132 S. Ct. 206(1,
182 L. Ed. 2d 978 (2012)). The First District Court of Appeals denied Shalash's claim based on
Neitz's and Pfalz's testimony, which the court found to be corroborated by eye-witness testimony
and video surveillance footage. 1*171 (Doc. 10 at 94-97). Accordingly, upon review of the state
appellate court's reasoning, the Court agrees with the Magistrate Judge that the state court s
opinion was not objectively unreasonable. (See Doc. 10 at 94-97).
For the reasons stated above, Petitioner's objections are overruled, and Petitioner's request for
relief based on Ground One is denied.

B. Ground Two
Petitioner's second ground for habeas relief is based on "repeated instances of prosecutorial
misconduct during his trial" in the form of statements the prosecutor made during closing
arguments, including statements concerning Shalash's Muslim faith, a comment that the
robberies were committed in a "heroin induced frenzy," and statement allegedly vouching for the
credibility of one of the eyewitnesses. (Doc. 1 at 7, 18-19).
The Magistrate Judge found the prosecutorial misconduct claim procedurally defaulted, as
Petitioner did not object to the statements during trial. (Doc. 18 at 13-15). Petitioner asserted the
prosecutorial misconduct claim in his direct appeal to the First District. However, because he
failed to object to the prosecutor's statements at trial, the state court of appeals reviewed the
claim only for plain error. 1*181 (Doc. 10 at 98). The Sixth Circuit has found that HN6
when a state court enforces the "firmly-established Ohio contemporaneous objection rule"
to find waiver, the claim is considered procedurally defaulted based on an independent and
adequate state ground, even when the court goes on to consider the claim under plain error
review. Woeenstahl v. Mitchell. 668 F.3d 307, 335-37 (6th Cir. 2012). As the Magistrate Judge
properly found, that is precisely what occurred in this case. (Doc. 18 at 15).
The Petitioner does not object to this initial finding of default, but rather, objects to the
Magistrate Judge's conclusion that his default cannot be excused by his trial attorney's ineffective
14

A petitioner may show "cause and prejudice" excusing the
assistance. (Doc. 21 at 7-8). HN7
default by showing that the default resulted from ineffective assistance of counsel. Yet the
petitioner is required to have raised his ineffective assistance claim in state court. See Stokes v._
Scutt. 527 F. App'x 358. 367 (6th Cir. 2013). In other words, "[a] claim of ineffective assistance .
must be presented to the state courts as an independent claim before it may be used to
establish cause for a procedural default." Conley v. Warden Chillicothe Corr. Inst., 505 F. Appx
501. 507 (6th Cir. 2012) (citing Edwards v. Carpenter, 529 U.S. 446. 453, 120 S. Ct. 1587, 146
L. Ed. 2d 518 12000)); see also Burroughs v. Makowski. 411 F.3d 665. 668 (6th Cir. 2005) ("To
constitute cause, that ineffectiveness must itself amount to a violation of the Sixth Amendment,
and 1*191 therefore must be both exhausted and not procedurally defaulted.").
The Magistrate Judge found Petitioner's ineffective assistance claim itself procedurally defaulted
In order
because Shalash did not fairly present the claim in state court. (Doc. 18 at 16). HN8
for a claim to be "fairly presented" to the state court, "a petitioner must assert both the legal and
factual basis for his or her claim." Williams v. Anderson. 460 F.3d 789, 806 (6th Cir,
2006) (emphasis omitted) (citing McMeans v. Brigano, 228 F.3d 674. 681 (6th Cir. 2000)). Thus,
the claim must be presented "as a federal constitutional issue—not merely as an issue arising
under state law." Id (quoting Koontzv. Glossa. 731 F.2d 365. 368 (6th Cir. 1984)). "A petitioner
can take four actions in his brief which are significant to the determination as to whether a claim
has been fairly presented as a federal constitutional claim: '(1) reliance upon federal cases
employing constitutional analysis; (2) reliance upon state cases employing federal constitutional
analysis; (3) phrasing the claim in terms of constitutional law or in terms sufficiently particular
to allege a denial of a specific constitutional right; or (4) alleging facts well within the
mainstream of constitutional law.'" Id. (emphasis added) (quoting Newton v. Million, 349 F.3d
873. 877 f6th Cir. 2003)).
In his brief on direct appeal to the First District Court of Appeals under 1*201 an "assignment of
error" alleging prosecutorial misconduct, Shalash stated that "he received ineffective assistance
of counsel when his trial counsel failed to object to these clearly prejudicial instances of
prosecutorial misconduct." (Doc. 10 at 53). Shalash further stated that the "obvious impropriety"
of the prosecutor's remarks warranted a finding that his attorney's conduct fell below the
deferential standard afforded trial counsel's decisions and that he was prejudiced by his counsel's
failure to object because his prosecutorial misconduct claim was only entitled to plain error
review. (Id. at 53-54). Shalash concluded the section by stating that his conviction should be
reversed "whether based on the clear misconduct of the prosecutor during his closing remarks, or
based on the ineffectiveness of his counsel in failing to object to them." (Id. at 54). On direct
appeal to the Supreme Court of Ohio, Shalash repeated the argument, albeit largely in a footnote,
that his trial counsel was ineffective for failing to object to the prosecutor s statement. (Id. at
120-121, 121 n.5).
Based on these statements, the Court respectfully disagrees with the Magistrate Judge and finds
that the ineffective assistance of trial counsel claim 1*211 was fairly presented. Petitioner did not
invoke the Sixth Amendment or reference the Strickland test for constitutional ineffective
assistance claims, but Shalash did cite to a state case employing federal constitutional
analysis, State v. Carpenter, in which an Ohio court applied Strickland, to assess whether an
15

attorney's failure to object to a prosecutor's comments amounted to ineffective assistance of
counsel. (Doc. 10 at 53, 121 n.5) (citing State v. Carpenter, 116 Ohio App. 3d 615, 688 N.E,2d
1090. 1097 (Ohio Ct. Ann. 1996V). In addition, although Shalash raised this argument within his
assignment of error concerning prosecutorial misconduct, he phrases the ineffective assistance
claim as an alternative and independent ground for relief stating, "Mr. Shalash's conviction
should be reversed and remanded for a new trial whether based on the clear misconduct of the
prosecutor during his closing remarks, or based on the ineffectiveness of his counsel in failing to
object to them." (Doc. 10 at 54, 121). Further, he addressed both prongs of the Strickland test:
objectively unreasonable performance and prejudice. (Doc. 10 at 53-54, 121 n.5); see Strickland
v. Washington, 466 U.S. 668. 688. 694. 104 S. Ct. 2052. 80 L. Ed. 2d 674 (1984).
Yet, finding that Shalash's ineffective assistance claim was not defaulted does not automatically
excuse his defaulted prosecutorial misconduct 1*221 claim. Shalash still has to show that his trial
counsel was in fact constitutionally ineffective for failing to object to the prosecutor s
comments. See Buell v. Mitchell. 274 F.3d 337, 351-52 (6th Cir. 2001), see also Erkins y._
ineffective
Chuvalas. 684 F. Ann'x 493. 499-500 (6th Cir. 2017). As noted above, HN9
assistance of counsel claims are governed by the two-pronged Strickland test, which requires
defendants to show: (1) that counsel's representation fell below an objective level of
reasonableness and (2) that there is a reasonable probability that, but for counsel's unprofessional
errors, the result of the proceeding would have been different. 466 U.S. at 688, 694; see Hale y,
Burt. 645 F. Apo'x 409. 415 (6th Cir. 20161 ("A court need not assess counsel's deficient
performance before considering prejudice, where the latter inquiry is an easier one.")
_____
(quoting Altman v. Winn, 644 Fed. Annx. 637. 2016 WL 1254049. at *4 (6th Cir. 2016)). 2.___
Petitioner argued in state court and in his federal habeas brief that he was prejudiced by his trial
counsel's failure to object because his procedural misconduct claim was afforded only plain error
the proper inquiry is
review. (Doc. 10 at 53, 121 n.5; Doc. 15 at 12-13). However, HN11
whether there is a reasonable probability that, had counsel objected to the prosecutor s
statements, the outcome of his trial would have been different. See Erkins, 684 F. App'xat
500: Hale. 645 F. Ann'x at 415-16. Petitioner has not met his burden of showing prejudice, and
as 1*231 a result, he has also failed to show "cause" to excuse default of his prosecutorial
misconduct claim.
Moreover, the Court agrees with the Magistrate Judge's conclusion that regardless of the default,
Petitioner's prosecutorial misconduct claim fails on the merits. (Doc. 23 at 9-13). The Magistrate
Judge properly found that although the state court of appeals applied plain error review, the
claim is subject to deferential review under AEDPA. (Id. at 9); Stewart v. Trierweiler, 867 F,3d
633. 638 16th Cir, 20171 (citing Fleming v. Metrish, 556 F.3d 520. 531 (6th Cir.
2Q17V). Although the First District cited to only Ohio case law, there is, nevertheless, a rebuttable
presumption the federal claim was adjudicated on the merits. See Lamar v. Houk, 798 F.3d 405^
427 (6th Cir. 20151 (finding rebuttable presumption that a claim was adjudicated on the merits
when state court only addressed state-law aspect of claim) (citing Johnson v. Williams, 568 U.S.,

16

289. 133 S. Ct. 1088. 1091. 1094. 1096. 185 L. Ed. 2d 105 (2013)). Shalash does not attempt to
rebut this presumption.
In order to demonstrate prosecutorial misconduct, a petitioner "must show that the
HN12
prosecutor's conduct so infected the trial so as to render the conviction fundamentally
unfair." Hardaway v. Burt. 846 F.3d 191 t6th Cir. 20171 (citing Parker v. Matthews, 567 U..S,
37. 45. 132 S. Ct. 2148. 183 L. Ed. 2d 32 (2012V). Thus, the Court must consider the fairness of
the trial—the "touchstone of due process analysis in cases of alleged prosecutorial
misconduct." Richardson v. Palmer. 941 F.3d 838, 848 (6th Cir. 2019)(quoting Smith v. Phillips*
455 U.S. 209. 219. 102 S. Ct. 940. 71 L. Rd. 2d 78 (T982T). The standard is of course higher
under AEDPA 1*241 review, under which the Court merely examines whether the state court's
opinion was an unreasonable application of clearly established law as established by Supreme
Court precedent. Id. at 847.
The state court of appeals considered the prosecutor's three statements concerning Shalash's
religion made in his closing argument. (Doc. 10 at 98-99). The court found that the prosecutor's
first statement that Shalash and Neitz had been married in a mosque did not "serve to inflame the
jury's passions." (Id.). The second statement, made in the context of a discussion about Neitz's
and Pfalz's credibility stated:
Is it common sense? Is it believable? Do you believe that a Muslim wife is going to somehow be
driving around town with an outsider, Pfalz, a stranger to the family, robbing banks, and the
husband has been with him just moments before and somehow he leaves the picture with the kids
in the van?
(Id. at 99). In a third statement, the prosecutor said in rebuttal:
Are you kidding me? Give me a break. And a Muslim wife on top of that. In that culture the
women aren't even supposed to be out without a male relative and we got her robbing banks with
a non-male relative with the kids in the truck. Give me a break. 1*251 Give me a break.
(Id.). The court of appeals found these statement "arguably improper" but "not so inflammatory
that we can conclude that Shalash's convictions resulted from passion and prejudice instead of
the state's proof of his guilt." (Id. at 99). The court further noted that the state provided
"overwhelming evidence of Shalash's guilt" and held that "none of the comments were so
prejudicial or outcome determinative as to . . . deny Shalash a fair trial." (Id.). Upon review, the
Magistrate Judge concluded that this analysis did not constitute an unreasonable application of
standards adopted by the Supreme Court. (Doc. 23 at 13).
Petitioner objects to this conclusion, citing to several circuit court opinions in support of his
assertion of prosecutorial misconduct.[3____ (Doc. 26 at 8-9). However, Petitioner cites no
Supreme Court cases in his objections, and "[t]he Supreme Court has reminded us countless
times that 'circuit precedent does not constitute clearly established Federal law' and 'therefore
cannot form the basis for habeas relief under AEDPA.'" Stewart, 867 F.3d at
17

641 (quoting Parker. 567 U.S. at 48-49 1201211. Accordingly, Petitioner's objection is overruled,
and the Court adopts the Report and Recommendation's finding that Petitioner's
second 1*261 ground for habeas relief is procedurally defaulted, and, alternatively, that it fails on
the merits.

C. Ground Three
Petitioner's third ground for habeas relief asserts that he was denied a fair trial because the jury
was not instructed that the firearm specifications must be proven beyond a reasonable doubt.
(Doc. 1 at 8). The Report and Recommendation found this claim to be procedurally defaulted.
(Doc. 18 at 18-19). Like with Ground Two, Shalash raised the jury instruction issue on direct
appeal, but the state court of appeals reviewed the claim for plain error only because Shalash had
not objected to the issue during his trial. (Id.). The state court of appeals relied on this
independent and adequate state ground to reject the claim. (Id; Doc. 10 at 100-102). Shalash
concedes that the claim is procedurally defaulted, yet argues that his default should be excused
because "he will suffer a miscarriage of justice if he is unable to bring this claim on the merits as
the defective jury instruction created a structural error ... of a constitutional nature [ajffecting
the fairness of the entire trial.. .." (Doc. 15 at 16) (emphasis added).
The Court agrees with and adopts the Report 1*271 and Recommendation's analysis finding that
Ground Three is procedurally defaulted.^

(Doc. 18 at 19-20; Doc. 23 at 13-14). As the

Magistrate Judge explained, HN13
procedural default may be excused in order to avoid a
"miscarriage of justice," but that exception applies only upon the presentation of new, reliable
evidence showing the petitioner is actually innocent. Dufresne v. Palmer, 876 F.3d 248, 256 (6th
Cir. 20171 (citing Schluv. 513 IJ.S. at 321. 324). As discussed above, Petitioner has failed to
make that showing. See Part II.A, supra.
In any case, Petitioner does not appear to be asserting actual innocence to excuse the default of
his jury instruction error claim. Rather, Petitioner seems to be arguing that the default should be
excused because the error alleged is a "structural error." However, the Sixth Circuit has rejected
the argument that a claim involving structural error is not subject to procedural
default. Carruthers v Mays. 889 F.3d 273. 289 16th Cir. 2018); see also Ambrose v. Booker, 684
a petitioner "must show actual prejudice
F.3d 638. 649 t6th Cir. 20121 (holding that HN14
to excuse their default, even if the error is structural"). Accordingly, even assuming the error was
structural, such a finding would not, in and of itself, excuse the default.
In his first set of objections, Petitioner makes a slightly different argument, asserting that "Ohio's
contemporaneous objection 1*281 rule is excused where there is structural error .... (Doc. 21
at 9). The Court understands this argument to be that the claim was not procedurally defaulted,
because the state court of appeals improperly applied the Ohio contemporaneous objection rule

18

This relates to the first step of
in the face of this allegedly structural error. HN15
the Mauvin test, which is used by courts to assess whether a claim has been procedurally
defaulted. Maunin v. Smith. 785 F.2d 135. 138 (6th Cir. 1986). The first step of this four-part test
asks whether "there is a state procedural rule that applies and petitioner failed to comply with
that rule[.]" When a state court has misapplied its own procedural rule, the claim is not barred
from habeas review. Post v. Bradshaw. 621 F.3d 406, 423 (6th Cir. 2010) (citing Hill v. Mitchell^
400 F.3d 308. 314 t6th Cir. 2005V).
This argument fails for two reasons. First, Petitioner has conceded in his reply brief that Ground
Three is procedurally defaulted, which could be considered a judicial admission. (Doc. 15 at
16); See Reaslev v. Wells Farm Bank. N.A.. 744 F. App'x 906, 914 (6th Cir. 2018) (finding that a
statement made in a brief may be binding on the district court and court of appeals). Second, the
Court finds that the Ohio court of appeals did not err in applying the Ohio contemporaneous
objection rule. The First District Court of Appeals specifically analyzed whether
Shalash’s 1*291 assertion that the failure to instruct the jury that the gun specifications had to be
proven beyond a reasonable doubt amounted to a structural error requiring automatic reversal as
opposed to plain error review. (Doc. 10 at 100-101). The court cited multiple state-court
decisions applying plain error review under similar factual circumstances where the defendant
failed to object to the fact that the jury instructions did not specifically state that a gun
specification had to be proven beyond a reasonable doubt. (Id. at 101) (citing State s
Blankenship, 102 Ohio Arm. 3d 534. 657 N.E.2d 559 (Ohio Ct. App. 1995); State v. Norman,
No. C-920202. 1993 Ohio Anp. LEXIS 133. at *8-9 (Ohio Ct. App. Jan. 20, 1993)).
The state court of appeals also distinguished Sullivan v. Louisiana, in which the Supreme Court
found that jury instructions misstating the reasonable doubt standard warranted reversal. 508
TJ.S. 275. 281-82. 113 S. Ct. 2078. 124 L. Ed. 2d 182 (19931. The court noted that in the instant
case, the court instructed the jury multiple times of the correct reasonable doubt standard and
further instructed the jury that the state had to prove the elements of each offense listed in that
count beyond a reasonable doubt. (Doc. 10 at 100-101). In short, Petitioner acknowledges he
failed to object to the jury instructions, implicating Ohio's contemporaneous objection rule.
Finding no structural error, the court properly applied this independent 1*301 and adequate
ground to deny review of Petitioner's claim.
The Magistrate Judge reviewed the substance of Ground Three in the alternative, finding the
claim to be without merit. (Doc. 18 at 20-23). The Magistrate Judge correctly afforded the First
District Court of Appeals' decision deferential review under AEDPA. See Stewart, 867 F.3d at
638 (citing Fleming. 556 F.3d at 521). The Court agrees with and adopts the Magistrate Judge's
finding that the state court of appeals reasonably applied Supreme Court precedent concerning
erroneous jury instructions. As discussed above, the court of appeals distinguished Sullivan v.
Louisiana. 508 TJ.S. 275. 113 S. Ct. 2078, 124 L. Ed. 2d 182 (1993), which found that jury
instructions misstating the reasonable doubt standard (lowering the state s burden of proof)
essentially resulted in "no jury verdict within the meaning of the Sixth Amendment amounting
to a "structural error." (Doc. 10 at 100-101); 508 U.S. at 280-82. The court noted that unlike
in Sullivan. the jury in the instant case was given accurate beyond-a-reasonable-doubt
instructions multiple times. (Doc. 10 at 100). In addition, the court considered the fact that the
19

instruction was repeated at the end of each count in the indictment, with the jury informed that
the state must prove each element of the listed offenses beyond a reasonable doubt. [*31] (Doc.
10 at 100-101).
Petitioner objects to the Report and Recommendation's analysis of the merits, asserting that
because the beyond-a-reasonable-doubt instruction was not given in conjunction with the firearm
specification, this "omission of the standard is certainly at least as offensive as misstating the
burden of proof." (Doc. 21 at 10). Yet, the Court agrees with the Magistrate Judge that the state
court of appeals' application of Sullivan was objectively reasonable for the reasons
stated infra. Therefore, Petitioner's third ground for habeas relief is denied as procedurally
defaulted, and, alternatively, as meritless.

D. Ground Four
Shalash's fourth ground for relief states that he "was denied his right to effective assistance of
counsel and due process when the trial court denied his Petition for Post-Conviction Relief
without a hearing." (Doc. 1 at 10). Petitioner filed a petition for post-conviction relief pursuant
to R.C. § 2953.21 asserting that Shalash's conviction should be vacated because his co­
defendants recanted their trial testimony. (Doc. 10 at 176). Shalash also filed a supplement to his
initial petition for post-conviction relief, adding a Sixth Amendment ineffective assistance of
counsel claim 1*321 on the basis that his trial counsel failed to investigate possible alibi
witnesses. {Id. at 310). Shalash also asserted in the supplemental petition that his trial counsel did
not follow up on information Shalash provided that would allegedly show that the gun used in
the robberies had been confiscated prior to the charges against Shalash. {Id.). Shalash submitted
affidavits of his co-defendants to support the first claim and submitted his own affidavit in
support of his ineffective assistance claim. The trial court denied the petition, finding both claims
to be barred by res judicata, reasoning that Petitioner could have raised both claims on direct
appeal. {Id.). The court alternatively found that the claims failed on the merits, holding, with
respect to the ineffective assistance claim, that even accepting Shalash's statements as true, he
failed to demonstrate his counsel was ineffective under Strickland. {Id.).
Shalash then appealed this decision to the state court of appeals, asserting one assignment of
error: "[t]he trial court abused its discretion to the prejudice of Mr. Shalash when it denied his
post-conviction motion without holding a hearing." {Id. at 341). The court of appeals affirmed
the 1*331 trial court's denial without an evidentiary hearing, finding that Shalash had not
demonstrated substantive grounds for postconviction relief—the standard for a post-conviction
hearing pursuant to R.C. § 2953.21(D)(formerly codified at R.C. § 2953.21(C)). {Id. at 373-375).
Petitioner's federal habeas petition asserts that Shalash was "denied his right to effective
assistance of counsel and due process when the trial court denied his [petition] without a
hearing." (Doc. 1 at 10) (emphasis added). The Court agrees with the Magistrate Judge that, to
the extent Petitioner seeks relief based on the trial court's denial of an evidentiary hearing, that
claim is outside the scope of federal habeas review. See Cornwell v. Bradshaw, 559 F.3d 398,
412 f6th Cir. 2009) (finding petitioner's claim that state and district court improperly denied
20

evidentiary hearing "not cognizable in habeas corpus proceedings, which cannot be used to
challenge errors or deficiencies in state court post-conviction proceedings ) (citing Kirby v.
Dutton. 794 F.2d 245. 247 f6th Cir. 1986V). Petitioner objects to the Report and
Recommendation's alternate findings that the claim was procedurally defaulted and fails on the
merits. (Doc. 21 at 10-11). These objections are overruled, as Petitioner's claim fails on the basis
that it is not cognizable under habeas.
Petitioner 1*341 also states in one set of objections that he has alleged a claim of ineffective
assistance of counsel, asserting that the lower court unreasonably applied Strickland. (Doc. 21 at
12). However, the Court does not find that Petitioner has alleged ineffective assistance of counsel
as a basis for habeas relief. While it is unclear what Shalash meant by his statement under
Ground Four that he was denied effective assistance of counsel because the trial court denied
him a post-conviction hearing-, in context, the most natural reading is that Shalash believes he
was denied his right to fully present his ineffective assistance claim because he did not receive a
hearing in state court.
The facts supporting Shalash's fourth ground for relief indicate that Shalash had presented
evidence outside of the record to the state court, in the form of affidavits. (Doc. 1 at 18-19). That
Shalash had presented affidavits to the state court supports his assertion under Ground Four that
an evidentiary hearing was appropriate. Shalash's federal habeas petition summarizes the
contents of his affidavit in support of his ineffective assistance claim. (Id. at 19). Yet, the petition
does not assert that his attorney's alleged 1*351 conduct violated Shalash's Sixth
Amendment right to effective assistance, nor does the petition allege prejudice in any way (i.e.,
that but for his attorney's missteps the outcome of his trial would have likely been different).
Shalash does discuss the merits of his ineffective assistance claim in his reply brief or "traverse."
(Doc. 15 at 19-21). However, even there, Shalash concludes the section by stating that Shalash
"presented grounds to support his claim of ineffective assistance of counsel in violation of
his Sixth Amendment right to counsel" but that he "was never given the opportunity to fully
present his claims for post-conviction relief in the trial court despite the[ir] likely meritorious
nature." (Doc. 15 at 21). Thus, it is apparent that to the extent Shalash addresses the merits of his
ineffective assistance claim, he does so in order to bolster his assertion under Ground Four that a
hearing on the issue was warranted.
Moreover, the fact that Shalash addresses the merits of his ineffective assistance claim in his
reply brief does not excuse his failure to do so in his § 2254 petition. That is because HNlj6
an issue raised for the first time in a reply brief or traverse is not properly before the
court. See Tvler v. Mitchell. 416 F.3d 500. 504 (6th Cir. 2005) (finding 1*36] penalty-phase as
opposed to guilt-phase insufficiency argument waived because it was raised for the first time in
petitioner's traverse). Accordingly, the Court need not separately address an ineffective
assistance claim, as Shalash has either not presented such a claim or has forfeited the claim by
addressing it for the first time in his traverse. For the foregoing reasons, habeas relief based on
Ground Four is denied.

21

III. CONCLUSION
As required hv 28 IJ.S.C. § 636(b) and Fed. R. Civ. P. 72(b), the Court has reviewed the
comprehensive findings of the Magistrate Judge and considered de novo all of the filings in this
matter. Upon consideration of the foregoing, the Court does determine that the Reports and
Recommendations (Docs. 18, 23, 28) should be and are hereby ADOPTED as modified herein.
Accordingly:
1) Petitioner's petition for writ of habeas corpus pursuant to 28 U.S.C. § 2 (Doc. 1)
is DISMISSED with prejudice;
2) Petitioner's objections (Docs. 21, 26, 29) are OVERRULED;
3) A certificate of appealability shall not issue, because reasonable jurists would not disagree
with this conclusion; and
4) The Clerk shall enter judgment accordingly, whereupon this case is TERMINATED on the
docket of this Court.
IT IS SO ORDERED.
Date: June 15, 2020 1*371
/s/ Timothy S. Black
Timothy S. Black
United States District Judge

22

APPENDIX C.

UNITED STATES DISTICT
COURT MAGISTRATE
OPINION
2nd SUPPLEMENTAL

Shalash v. Gray, 2019 U.S. Dist. LEXIS 122139
Copy Citation
United States District Court for the Southern District of Ohio, Western Division
July 22, 2019, Decided; July 23, 2019, Filed
Case No. l:18-cv-333

Opinion
SECOND SUPPLEMENTAL REPORT AND RECOMMENDATIONS
This habeas corpus case is before the Court on Petitioner's Objections (ECF No. 26) to the
Magistrate Judge's Supplemental Report and Recommendations which recommended dismissal
(the "Supplemental Report," ECF No. 23). The Supplemental Report reiterated the
recommendations made in the original Report and Recommendations (the Report, ECF No.
18). Judge Black has recommitted the case to the Magistrate Judge for reconsideration in light of
the Objections (Recommittal Order, ECF No. 27).
The Petition pleads four grounds for relief:
Ground One: The evidence was insufficient to convict Mr. Shalash, and the manifest weight of
the evidence did not support the trial court's conviction in violation of the due process clause of
the Fourteenth Amendment.
Supporting Fact(s): 1. The State presented exhaustive evidence regarding a series of robberies
that had 1*21 occurred from early September to late October, 2012, yet provided no direct
evidence that Mr. Shalash was involved other than the suspect testimony of his two co­
defendants.
Ground Two: Mr. Shalash was denied a fair trial when he was subjected to repeated instances of
prosecutorial misconduct during his trial.
Supporting Fact(s): 1. After giving an extensive presentation of undisputed evidence none of
which pointed to Mr. Shalash's involvement in the robberies, outside of the testimony of his
codefendants, the State, in closing argument, resorted to inflammatory tactics vilifying Mr.
Shalash, inciting fear, referencing Mr. Shalash's religion, and vouching for the credibility of
witnesses.
Ground Three: Mr. Shalash was denied a fair trial when the trial court failed to instruct the jury
that the firearm specifications must have been proven "beyond a reasonable doubt.

24

Supporting Fact(s): Trial court failed to instruct jury on the standard of proof for the firearm
specifications in Mr. Shalash's indictment. The trial court did not instruct the jury that Mr.
Shalash must be found guilty of the specifications beyond a reasonable doubt.
Ground Four: Mr. Shalash was denied his right to effective 1*3] assistance of counsel and due
process when the trial court denied his Petition for Post-Conviction Relief without a hearing
where he submitted evidence outside the trial record which supported his claims of ineffective
assistance of counsel and affidavits of his codefendants recanting their trial testimony.
Supporting Fact(s): Mr. Shalash's conviction was based on little to no direct evidence of his
involvement in a series of robberies except for the suspect testimony of his co-defendants who
both submitted affidavits recanting their testimony.
Mr. Shalash's post-conviction petition was supported by two affidavits from Jennifer Nietz, his
wife and co-defendant, and one affidavit from Jake Pfalz, his other co-defendant wherein they
both recanted their trial testimony.
(Petition, ECF No. 1, PagelD 5, 7-8, 10, 16-19.)

Analysis
Ground One: Sufficiency and Weight of the Evidence
In his First Ground for Relief, Shalash asserts his conviction is not supported by sufficient
evidence and is against the manifest weight of the evidence. The Report recommended
dismissing the manifest weight claim as not cognizable in habeas corpus (ECF No. 18, PagelD
1200). Petitioner does not object to that conclusion. 1*41
The Report concluded the sufficiency of the evidence claim was procedurally defaulted because,
although it was argued unsuccessfully in the Ohio First District Court of Appeals, it was not
fairly presented thereafter to the Supreme Court of Ohio (ECF No. 18, PagelD 1201). In his
Reply, Petitioner conceded he did not present insufficiency of the evidence as a proposition of
law on his Supreme Court appeal, but noted his comment on how little evidence there was in his
general argument for discretionary review (ECF No. 15, PagelD 1171). The question, then, is
whether a general argument of the sort Shalash made in his Memorandum in Support of
Jurisdiction is sufficient to fairly present an issue, particularly when an appellant is represented
by counsel.[l____
The Report concludes the sufficiency issues was not fairly presented. In the Memorandum in
Support of Jurisdiction, Shalash's counsel never made the explicit claim the evidence was
insufficient, never asserted the First District was in error for rejecting this assignment, and never
cited any of the relevant Supreme Court precedent, Jackson v. Virginia, 443 U.S. 307, 99 S. Ct
2781, 61 T.-F,d. 2d 56011979). and its progeny.

25

To show the general argument was enough, Petitioner relied on Peterson v. Miller. No. l:16-cv509. 2017 U.S. Dist. LEXIS 215391 (N.D. Ohio Dec. 7, 2017).[^5]_ The Report
distinguishes Peterson in that the Northern District was construing a pro se pleading which is
entitled to liberal construction under Supreme Court precedent (Report, ECF No. 18, PagelD
1202, citing Estelle v. Gamble. 429 U.S. 97, 106. 97 S. Ct. 285, 50 L. Ed. 2d 251 (1976). Even
in Peterson the court refused to find a liberally construed proposition of law raised a federal
constitutional question.
The first set of Objections disagreed with the Report's reading of Peterson (ECF No. 21, PagelD
1226). Having re-examined Peterson, the Magistrate Judge agreed in the Supplemental Report
that it can be read as finding Peterson preserved a sufficiency of the evidence claim in the Ohio
Supreme Court by the words he used,pro se, in the relevant propositions of law. Magistrate
Judge Greenberg wrote:
Aside from a few references to "Fair Trial," "Due Process," and "Equal Protection, (Doc. No.
13-1, Exh. 17 at 242), Peterson did not couch the legal arguments he made in his jurisdictional
memorandum to the Ohio Supreme Court in constitutional terms. Nor did he cite to any
provision of the Constitution or any federal or state-court case applying federal constitutional
law to support them. On the other hand, again liberally construing his state-court
pleading. 1*61 Peterson did present factual arguments that would advance a federal sufficiencyof-the-evidence claim, such as alleging a lack of physical evidence linking him to the crimes.
The Court finds, therefore, that Peterson fairly presented this claim to Ohio courts, and it is
preserved for federal habeas review.
2017 U.S. Dist. LEXIS 215391 at *46. Shalash's counsel says Peterson is not limited to pro
se litigants. But it is only pro se litigants who are entitled to the liberal construction
the Peterson court said it was giving to the pro se Memorandum in Support of Jurisdiction.
Pleadings prepared by licensed attorneys are not entitled to that "liberal construction.
Putting these distinctions aside, the Magistrate Judge also noted in the Supplemental Report that
the Peterson decision is not controlling authority, but rather the decision of a sister court,
considered only for its persuasiveness.|2_____ While Shalash continues to object to the
Magistrate Judge's reading of Peterson, he adds nothing in his Supplemental Objections which
requires further analysis.
Shalash continues to argue in his current Objections that even if he has procedurally defaulted on
his sufficiency of the evidence claim, his default is excused by his 1*71 actual innocence. While
recognizing that new evidence of actual innocence can excuse a procedural default under Schlup
v. Delo. 513 U.S. 298. 115 S. Ct. 851.130 L. Ed. 2d 808 (1995), the Report noted that the only
new evidence of actual innocence was the affidavits of his two co-defendants, one of whom is
the mother of his children, recanting their trial testimony. Recantation does not come within the
types of new evidence accepted by the Sixth Circuit. See Souter v. Jones, 395 F.3d 577, 59.0 (6th
Cir. 20051. cited in the Report at PagelD 1203.

26

The original Objections criticized the Report for "summarily dismissing] the recanting affidavits
without citing any law which supports the Magistrate's contention that the affidavits are
unreliable." (ECF No. 21, PagelD 1227). But as just noted, the Report cites Souter which
quotes Schlup on the types of new evidence which are reliable. Id. The Supplemental Report also
cites other case law suggesting "extreme suspicion" of affidavits recanting trial testimony,
particularly Davis v. Bradshaw. 900 F.3d 315 (6th Cir. 2018). Shalash again objects, asserting
that without tie testimony of the co-defendants, Shalash could not be placed at the scene of any
of the alleged|3
j robberies." (Current Objections, ECF No. 26, PagelD 1258.) Of course with
the confessing testimony of all the co-defendants, a prosecutor would f *81 have been gilding the
lilly to introduce more evidence of Shalash's presence. The fact that he did not hardly proves he
could not.
Both the Report and Supplemental Report concluded that even if the procedural default of the
sufficiency claim were put to one side, Shalash would not be entitled to relief on the merits of
that claim. The Supplemental Objections agree that the law applying Jackson v. Virginia, 443
U.S. 307. 99 S. Ct. 2781.61 L. Ed. 2d 560 (1979). is accurately stated, but assert "[t]he
Magistrate does very little analysis or discussion in the Supplemental R&R when determining
ground one should be dismissed on the merits." (Current Objections, ECF No. 26, 1259.) The
Objections then discuss the evidence against Shalash and discuss why it is not credible. Id. at
PagelD 1259-60. Petitioner concludes that "the jury could not have convicted without making
inferences and such inferences are improper if they are 'so unsupportable as to fall below the
threshold of bare rationality.'" Id., quoting Coleman v. Johnson, 566 U.S. 650, 656, 132 S, Ct
2060. 182 L. Ed. 2d 978 (20121. In Coleman, however, the Supreme Court unanimously reversed
a Third Circuit grant of the writ on an insufficiency of the evidence claim. The evidence here is
much stronger than the evidence found sufficient in Coleman.
On habeas review, our task is not to analyze 1*91 the evidence de novo, but rather to defer first
to the trial jury and then to the state appellate court. Tucker v. Palmer, 541 F.3d 652 (6th Cir.
20081: accord Davis v. Lafler. 658 F.3d 525. 531 (6th Cir. 2011 )(en banc); Parker v. Matthews,,
567 U.S. 37. 43. 132 S. Ct. 2148. 183 L. Ed. 2d 32 (2012). The Report quotes at length the First
District's opinion finding sufficient evidence (ECF No. 18, PagelD 1197-99). The appellate court
relied on the testimony of co-conspirators Neitz and Pfalz, but also noted the conviction was
supported by surveillance video, by testimony from employees of the four banks robbed, and by
testimony of an eyewitness who saw the three in a white van near one of the robbed locations a
couple of hours before the robbery. State v. Shalash, 2014-0hio-5006 at 1HT 41-42. This analysis
is a completely reasonable application of Jackson.
It is therefore again respectfully recommended that Petitioner's Objections in Ground One should
be overruled.
Ground Two: Prosecutorial Misconduct
In his Second Ground for Relief, Shalash claims he was denied a fair trial by repeated acts of
prosecutorial misconduct. Respondent asserted this claim was procedurally defaulted by trial
27

counsel's failure to make a contemporary objection to the allegedly improper comments and the
Report agreed. The Report concluded this ground for relief was procedurally defaulted by failure
to make a contemporaneous objection 1*101 (ECF No. 18, PagelD 1206-08).
In his First Objections, Shalash claimed he had raised ineffective assistance of trial counsel to
excuse that default. The Supplemental Report found this ineffective assistance of trial counsel
claim had not been properly presented to the state courts. The Current Objections add nothing on
this point (Objections, ECF No. 26, PagelD 1261).
Although the Report did not discuss the merits of the Second Ground, the Supplemental Report
concluded that the First District's plain error review of this claim was entitled to deference. That
decision is as follows:
[*P45] A prosecuting attorney has wide latitude to summarize the evidence and zealously
advocate the state's position during closing argument. See State v. Richey, 64 Ohio St.3d 353,
362. 1992 Ohio 44. 595 N.E.2d 915 09921. The propriety of a specific remark by a prosecutor
must not be judged in isolation, but in light of the tenor and context of the entire closing
argument. See State v. Slaele. 65 Ohio St.3d 597. 607, 605 N.E.2d 916 (1992). Improper remarks
during closing argument are grounds for reversal when the remarks serve to deny the defendant a
fair trial. See State v. Maurer. 15 Ohio St.3d 239. 266, 15 Ohio B. 379, 473 N.E.2d 768 (1984).
[*P46] As Shalash admits, he did not object to any of the prosecutor's comments during closing
argument. He, therefore, has waived all but plain error. See State v. D'Ambrosio, 73 Ohio St,3_d
141, 143-44. 1995 Ohio 129. 652 N.E.2d 710 (1995). Based upon our review [*111 of the
record, we cannot conclude that the prosecutor's comments during closing argument rose to the
level of plain error.
[*P47] The prosecutor's statements extensively summarizing the evidence against Shalash were
not improper. The prosecutor's comments focusing on the "scary nature" of the robberies were
based upon testimony from bank employees that they had been threatened with a gun, and their
fear that Pfalz could have fatally shot them had he chosen to do so. Likewise, the prosecutor's
statement that the robberies were the result of a "heroin-induced frenzy," was based upon
testimony from Neitz and Pfalz that they had committed the robberies to feed their heroin habit,
and that they had robbed the banks while "high" on heroin.
[*P48] Shalash next argues that the prosecutor committed misconduct when he repeatedly made
inflammatory remarks about Shalash's religion. He points to three references to religion in the
state's closing argument. The first reference occurred when the prosecuting attorney stated that
Shalash and Neitz had been married at a mosque in Clifton. But nothing about this statement
would serve to inflame the jury's passions. The second reference occurred during [*12| the
prosecutor's discussion of Neitz's and Pfalz's credibility, when he said,
Is it common sense? Is it believable? Do you believe that a Muslim wife is going to somehow be
driving around town with an outsider, Pfalz, a stranger to the family, robbing banks, and the
husband has been with him just moments before and somehow he leaves the picture with the kids
in the van?
28

The third reference occurred during the rebuttal portion of the state's closing argument when the
prosecutor stated,
Are you kidding me? Give me a break. And a Muslim wife on top of that. In that culture the
women aren't even supposed to be out without a male relative and we got her robbing banks with
anon- male relative with the kids in the truck. Give me a break. Give me a break.
[*P49] Although the comments were arguably inappropriate, they were not so inflammatory that
we can conclude that Shalash's convictions resulted from passion and prejudice instead of the
state's proof of his guilt. The state produced overwhelming evidence of Shalash's guilt, and none
of the cited comments were so prejudicial or outcome determinative as to constitute plain error
and to deny Shalash a fair trial.
[*P50] Finally, Shalash argues that 1*131 the prosecuting attorney improperly vouched for the
credibility of the school nurse when he said, "Obviously she's not going to lie to you." It is
improper for an attorney to express a personal belief or opinion as to the credibility of a
witness. State v. Williams. 79 Ohio St.3d 1. 12, 1997 Ohio 407, 679 N.E.2d 646 (1997J- Here, the
prosecutor did not improperly vouch for the nurse's credibility as a witness. He merely argued
that she was a reliable witness and that she lacked any motive to lie. Therefore, we overrule
Shalash's second assignment of error.
State v. Shalash. 2014-0hio-5006 fist Dist. Nov. 12, 2014). The Magistrate Judge agrees with
the First District that the prosecutor's arguments about inferring behavior from religious
identification were improper, but unlikely to have outweighed "the overwhelming evidence of
Shalash's guilt" in producing a verdict. The prosecutor's comment about the school nurse's
testimony was not improper at all as it did not constitute vouching.
The assertedly improper comments on religious identification that are at issue were all made
during closing argument and were unobjected to. This Ground for Relief is therefore
procedurally defaulted and the First District's rejection of the claim on the merits is not
objectively unreasonable.

Ground Three: Incomplete Jury Instructions
[*141 In this Third Ground for Relief, Shalash claims the trial judge did not instruct the jury that
the required standard of proof on the firearm specification was proof beyond a reasonable doubt.
The First District found this claim defaulted for lack of a contemporaneous objection. Shalash,,
2014-0hio-5006. Iff 51-56. The Report recommended upholding the procedural default over
Shalash's actual innocence claim for the reasons set forth as to Ground One. In the alternative,
the Report recommended deference to the First District's plain error review on this question as
well (ECF No. 18, PagelD 1216).
With respect to the Third Ground, Shalash also argued that the jury instruction error was a
"structural error" which is not lost by procedural default. The Report rejected this argument,
29

stating, "[n]or has he cited any authority for the proposition that a 'structural error’ cannot be
forfeited by failure to make a contemporaneous objection." (ECF No. 18, PagelD 1213.) In his
Objections, Shalash claims he did cite authority for that proposition and repeats citations from
his Traverse including Arizona v. Fulminante. 499 U.S. 279. 111 S. Ct. 1246, 113 L.,Ed. 2d 302
0991). and Rose v. Clark. 478 U.S. 570. 106 S. Ct. 3101. 92 L. Ed. 2d 460 (1986).
The Supplemental Report concluded Shalash's counsel misread those cases which basically hold
structural errors are not subject to 1*151 harmlessness analysis and not that a structural error is
immune to procedural default. The Current Objections rely on prior argument as to procedural
default (Objections, ECF No. 26, PagelD 1263).
As to the merits of Ground Three, the Report notes that the definition of reasonable doubt given
by the trial court was completely consistent with Sullivan v. Louisiana, 508 U.S. 275, 113 S. Ct.
2078. 124 L. F,d. 2d 182 (T993). Here again Shalash relies on hits prior argument on the merits.

Ground Four: Denial of Post-Conviction Petition without a Hearing
In his Fourth Ground for Relief, Shalash claims his rights to effective assistance of counsel,
guaranteed by the Sixth Amendment, and due process of law, guaranteed by the Fourteenth
Amendment, were violated when his petition for post-conviction relief was denied without an
evidentiary hearing.
The Report recommended denying this ground for relief because Shalash had not raised it as a
constitutional question on direct appeal and thereby failed to fairly present it to the state court,
instead, he raised it as an abuse of discretion claim (ECF No. 18, PagelD 1216-17). The Report
also recommended denying the claim on the merits because no Supreme Court precedent clearly
establishes a right to an evidentiary hearing in state post-conviction proceedings. Id. f*16J_ at
PagelD 1218.
Shalash objected that the Magistrate Judge raised procedural default sua sponte, that it had not
been raised by Respondent (Objections, ECF No. 1231-32). The Supplemental Report noted the
truth of this assertion, but cited Sixth Circuit law permitting a court's raising the defense sua
sponte.
Shalash now objects that raising the defense sua sponte "is frowned upon by Sixth Circuit
precedent." (Objections, ECF No. 26, PagelD 1264, citing Gatewood v. Sloan, No. l:16-cv-334,
2017 U.S. Dist. LEXIS 222579. *14. fN.D. Ohio Oct. 30, 2017): Flood v. Phillips, 90 F. App’x
108. 113-114.16th Cir. 2004)1. Gatewood is, of course, not Sixth Circuit precedent, but the
opinion of a valued and known colleague, The Honorable William Baughman. Judge Baughman
does not say that raising the defense sua sponte is "frowned upon." Rather he said that a
procedural default may be bypassed by the federal habeas court if the underlying claim may be
resolved against the petitioner on the merits" and then chose to decide the merits question
directly. Gatewood at * 14.

30

Flood is a Sixth Circuit decision, but it is expressly non-precedential because it is unpublished.
The Floodconri agreed with the district court that Flood's claims (other than prosecutorial
misconduct) were procedurally defaulted but nevertheless considered the claims [ 17] sua
sponte on the merits "because the state did not assert procedural default as an affirmative defense
in its responsive pleadings ...90 F. App'x at 115.
Both Gatewood and Flood treat procedural default as a defense which district courts can
raise sua sponte, but which they need not raise. Neither of them purports to overruled the
published Sixth Circuit precedent permitting the raising of the defense sua sponte, Sowell y,
Bradshaw. 372 F.3d 821. 830 t6th Cir. 2004): Lorraine v. Coyle, 291 F.3d 416 (6th Cir. 2002)Q§,
2254 capital case); White v. Mitchell. 431 F.3d 517, 524 (6th Cir. 2005)(§ 2254 capital
case); Ehv v. United States. 205 F.3d 882 (6th Cir. 2000)(§ 2255case). And as the Supreme
Court noted in Daw. McDonoueh. 547 U.S. 198, 206-07, 126 S. Ct. 1675, 164 L. Ed._2d 376
f20061 the Courts of Appeals have unanimously held, in appropriate circumstances, that courts
on their own initiative may raise a petitioner's procedural default. It was not an abuse of
discretion for the Magistrate Judge to raise the procedural default defense to Ground Four.
Shalash offers no additional argument as to why that defense was incorrectly decided as to
Ground Four or on the merits of Ground Four.

Conclusion
Having reconsidered the case pursuant to the Recommittal Order, the Magistrate Judge again
respectfully recommends that the Petition be dismissed with prejudice. Because reasonable
jurists would not disagree, with this conclusion, Petitioner should be denied a certificate of
appealability and the Court 1*181 should certify to the Sixth Circuit that any appeal would be
objectively frivolous and therefore should not be permitted to proceed in forma pauperis.
July 22, 2019.
Is/ Michael R. Merz
United States Magistrate Judge

31

APPENDIX D.

UNITED STATES DISTICT
COURT MAGISTRATE
OPINION
l*1 SUPPLEMENTAL

Shalash v. Gray, 2019 U.S. Dist. LEXIS 100848
Copy Citation
United States District Court for the Southern District of Ohio, Western Division
June 17, 2019, Decided; June 17, 2019, Filed
Case No. l:18-cv-333

Opinion
SUPPLEMENTAL REPORT AND RECOMMENDATIONS
This habeas corpus case, brought by Petitioner Ahmad Shalash with the assistance of counsel, is
before the Court on Petitioner's Objections (ECF No. 21) to the Magistrate Judge's Report and
Recommendations which recommended dismissal (the "Report," ECF No. 18). Judge Black has
recommitted the case to the Magistrate Judge for reconsideration in light of the Objections
(Recommittal Order, ECF No. 22).
The Petition pleads four grounds for relief and Petitioner objects to the Report's conclusions as to
each one. They are considered here seriatim.

Ground One: Sufficiency and Weight of the Evidence
In his First Ground for Relief, Shalash asserts his conviction is not supported by sufficient
evidence and is against the manifest weight of the evidence. The Report recommended
dismissing the manifest weight claim as 1*21 not cognizable in habeas corpus (ECF No. 18,
PagelD 1200). Petitioner does not object to that conclusion.
The Report concluded the sufficiency of the evidence claim was procedurally defaulted because,
although it was argued unsuccessfully in the Ohio First District Court of Appeals, it was not
fairly presented thereafter to the Supreme Court of Ohio (ECF No. 18, PagelD 1201). In his
Reply, Petitioner conceded he did not present insufficiency of the evidence as a proposition of
law on his Supreme Court appeal, but noted his comment on how little evidence there was in his
general argument for discretionary review (ECF No. 15, PagelD 1171). The question, then, is
whether a general argument of the sort Shalash made in his Memorandum in Support of
Jurisdiction is sufficient to fairly present an issue, particularly when an appellant is represented
by counsel. 1

33

The Report concludes the sufficiency issues was not fairly presented. In the Memorandum in
Support of Jurisdiction, Shalash's counsel never made the explicit claim the evidence was
insufficient, never asserted the First District was in error for rejecting this assignment, and never
cited any of the relevant Supreme Court precedent, Jackson v. Virginia, 443 U.S. 307, 99 S. Ct
2781.61 L. Ed. 2d 560 (T979). 1*31 and its progeny.
To show the general argument was enough, Petitioner relied on Peterson v. Miller, No. l:16-cv509. 2017 U.S. Dist. LEXIS 215391 (N.D. Ohio Dec. 7, 2017). The Report
distinguishes Peterson in that the Northern District was construing a pro se pleading which is
entitled to liberal construction under Supreme Court precedent (Report, ECF No. 18, PagelD
1202, citing Estelle v. Gamble. 429 U.S. 97. 106. 97 S. Ct. 285. 50 L. Ed. 2d 251 (1976). Even
in Peterson the court refused to find a liberally construed proposition of law raised a federal
constitutional question.
The Objections disagree with the Report's reading of Peterson (ECF No. 21, PagelD 1226).
Having re-examined Peterson, the Magistrate Judge agrees it can be read as finding Peterson
preserved a sufficiency of the evidence claim in the Ohio Supreme Court by the words he
used, pro se, in the relevant propositions of law. Magistrate Judge Greenberg wrote.
Aside from a few references to "Fair Trial," "Due Process," and "Equal Protection, (Doc. No.
13-1, Exh. 17 at 242), Peterson did not couch the legal arguments he made in his jurisdictional
memorandum to the Ohio Supreme Court in constitutional terms. Nor did he cite to any
provision of the Constitution or any federal or state-court case applying federal constitutional
law to support them. 1*41 On the other hand, again liberally construing his state-court pleading,
Peterson did present factual arguments that would advance a federal sufficiency-of -the-evidence
claim, such as alleging a lack of physical evidence linking him to the crimes. The Court finds,
therefore, that Peterson fairly presented this claim to Ohio courts, and it is preserved for federal
habeas review.
2017 U.S. Dist. LEXIS 215391 at *46. Shalash's counsel says Peterson is not limited to pro
se litigants. But it is only pro se litigants who are entitled to the liberal construction
the Peterson court said it was giving to the pro se Memorandum in Support of Jurisdiction.
Pleadings prepared by licensed attorneys are not entitled to that "liberal construction."
In addition, the words the Peterson court was construing are different from the words involved
here. In Peterson the word "insufficient" was used in the second proposition of law and the
words "without [any] facts of [sic] law" were used in the first proposition in the Ohio Supreme
Court. Here there are no words adverting to the sufficiency of the evidence in any of the
propositions of law, prepared by counsel, that were filed in the Supreme Court of Ohio.
Putting these distinctions aside. r*51 the Magistrate Judge also notes that the Peterson decision
is not controlling authority, but rather the decision of a sister court, considered only for its
persuasiveness.^

34

Shalash argues that even if he has procedurally defaulted on his sufficiency of the evidence
claim, his default is excused by his actual innocence. While recognizing that new evidence of
actual innocence can excuse a procedural default under Schlupv. Delo, 513 U.S. 298, 115 S. Ct.
851. 130 L. F,d. 2d 808 119951, the Report noted that the only new evidence of actual innocence
was the affidavits of his two codefendants, one of whom is the mother of his children, recanting
their trial testimony. Recantation does not come within the types of new evidence accepted by
the Sixth Circuit. See Souter v. Jones, 395 F,3d 577, 590 f6th Cir. 2005), cited in the Report at
PagelD 1203.
The Objections criticize the Report for "summarily dismiss[ing] the recanting affidavits without
citing any law which supports the Magistrate's contention that the affidavits are unreliable.
(ECF No. 21, PagelD 1227). But as just noted, the Report cites Souter which quotes Schlup on
the types of new evidence which are reliable. Id.
Courts in general are strongly skeptical of affidavits recanting sworn trial testimony. "Recanting
affidavits and witnesses are 1*61 viewed with extreme suspicion." United States v. Willis,257
F.3d 636. 645 f6th Cir. 2001): United States v. Chambers. 944 F.2d 1253, 1264 (6th Cir.
1991); see also United States v. Lewis. 338 F.2d 137,139 (6th Cir. 1964). Even if accepted,
recantation of trial testimony is generally not sufficient to grant habeas relief absent
constitutional error. Welsh v. Lafler, 444 Fed. App'x 844, 850 (6th Cir. 2011). See general
discussion to the same effect in Davis v. Bradshaw, 900 F.3d 315 (6th Cir. 2018).
Even if the procedural default of the sufficiency claim were put to one side, Shalash would not
be entitled to relief on the merits of that claim. In order for a conviction to be constitutionally
sound, every element of the crime must be proved beyond a reasonable doubt. In re Wins hip, 397
IJ.S. 358. 364. 90 S. Ct. 1068. 25 L. Ed. 2d 368 (1970).
[T]he relevant question is whether, after viewing the evidence in the light most favorable to the
prosecution, any rational trier of fact could have found the essential elements of the crime
beyond a reasonable doubt.... This familiar standard gives full play to the responsibility of the
trier of fact fairly to resolve conflicts in the testimony, to weigh the evidence and to draw
reasonable inferences from basic facts to ultimate facts.
Jackson, 443 U.S. at 319; United States v. Paise, 470 F.3d 603, 608 (6th Cir. 2006); United
States V. Somerset. 2007 IJ.S. Dist. LEXIS 76699 * 4-5 (S.D. Ohio Oct. 12, 2007). This rule was
recognized in Ohio law at State v. Jenks. 61 Ohio St. 3d 259, 574 N.E.2d 492 (19911 Of course,
it is state law which determines the elements of offenses; but once the state has adopted the
elements, it must then prove each of them beyond a reasonable doubt. In re Winship, 397 U.S. at
361.
In cases such as Petitioner's challenging 1*71 the sufficiency of the evidence and filed after
enactment of the Antiterrorism and Effective Death Penalty Act of 1996 (Pub. L. No 104-132,
110 Stat. 1214Xthe "AEDPA"), two levels of deference to state decisions are required:
In an appeal from a denial of habeas relief, in which a petitioner challenges the constitutional
sufficiency of the evidence used to convict him, we are thus bound by two layers of deference to
35

groups who might view facts differently than we would. First, as in all sufficiency-of-theevidence challenges, we must determine whether, viewing the trial testimony and exhibits in the
light most favorable to the prosecution, any rational trier of fact could have found the essential
elements of the crime beyond a reasonable doubt. See Jackson v. Virginia, 443 U.S. 307, 319, 99
S.Ct. 2781. 61 T,-F,d.2d 560 (1979). In doing so, we do not reweigh the evidence, re-evaluate the
credibility of witnesses, or substitute our judgment for that of the jury. See United States v.
Hilliard. 11 F.3d 618. 620 16th Cir. 1993). Thus, even though we might have not voted to
convict a defendant had we participated injury deliberations, we must uphold the jury verdict if
any rational trier of fact could have found the defendant guilty after resolving all disputes in
favor of the prosecution. Second, even were we to conclude that a rational trier of fact
could 1*81 not have found a petitioner guilty beyond a reasonable doubt, on habeas review, we
must still defer to the state appellate court's sufficiency determination as long as it is not
unreasonable. See 28 U.S.C. § 2254(d)(2).
Brown v. Konteh. 567 F.3d 191.205 16th Cir. 20091. In a sufficiency of the evidence habeas
corpus case, deference should be given to the trier-of-fact's verdict under Jackson and then to the
appellate court's consideration of that verdict, as commanded by the AEDPA. Tucker v. PalmerA
541 F.3d 652. 656 16th Cir. 2008): accord Davis v. Lafler, 658 F.3d 525, 531 (6th Cir. 201QO
banc); Parker v. Matthews. 567 U.S. 37. 43. 132 S. Ct. 2148, 183 L. Ed. 2d 32 (2012). Notably,
"a court may sustain a conviction based upon nothing more than circumstantial
evidence." Stewart v. Wolfenbareer, 595 F.3d 647, 656 (6th Cir. 201 Of
We have made clear that Jackson claims face a high bar in federal habeas proceedings because
they are subject to two layers of judicial deference. First, on direct appeal, "it is the responsibility
of the jury - not the court - to decide what conclusions should be drawn from evidence admitted
at trial. A reviewing court may set aside the jury's verdict on the ground of insufficient evidence
only if no rational trier of fact could have agreed with the jury." Cavazos v. Smith, 565 U.S. 1, 2,
132 S. Ct. 2. 181 L. Ed. 2d 311. 313 (2011) (per curiam). And second, on habeas review, "a
federal court may not overturn a state court decision rejecting a sufficiency of the evidence
challenge simply because the federal court disagrees with 1*91 the state court. The federal court
instead may do so only if the state court decision was 'objectively
unreasonable.'" Ibid, (quoting Renico v. Lett. 559 U.S. 766, T773], 130 S.Ct. 1855, 176 L.Ed.2d
678 1201 OF).
Coleman v. Johnson. 566 U.S. 650. 651. 132 S. Ct. 2060, 182 L. Ed. 2d 978, (2012)(per
curiam); Parker v. Matthews. 567 U.S. 37, 43, 132 S. Ct. 2148, 183 L. Ed. 2d 32 (2012) (per
curiam).
The Report quotes at length the First District's opinion finding sufficient evidence (ECF No. 18,
PagelD 1197-99). The appellate court relied on the testimony of co-conspirators Neitz and Pfalz,
but also noted it was supported by surveillance video, by testimony from employees of the four
banks robbed, and by testimony of an eyewitness who saw the three in a white van near one of
the robbed locations a couple of hours before the robbery. State v. Shalash. 2014-0hio-5006_at
41-42. This analysis is a completely reasonable application of Jackson.
In sum, Petitioner's Objections on the sufficiency of the evidence claim should be overruled.
36

Ground Two: Prosecutorial Misconduct
In his Second Ground for Relief, Shalash claims he was denied a fair trial by repeated acts of
prosecutorial misconduct. Respondent asserted this claim was procedurally defaulted by trial
counsel's failure to object to the allegedly improper comments. The Report concluded this
ground for relief was procedurally defaulted by failure to make a contemporaneous objection
(ECFNo. 18, PagelD 1206-08).
[*1Q1 In his Objections, Shalash recounts that he admitted at every stage in the state courts that
his trial attorney had not made a contemporaneous objection, but asserted this was ineffective
assistance of trial counsel. The Report noted Shalash did not raise as an assignment of error that
he received ineffective assistance of trial counsel in this failure to object and that his entire
argument on this point was, "Furthermore, Mr. Shalash submits that he received the ineffective
assistance of counsel when his trial counsel failed to object to these clearly prejudicial instances
of prosecutorial misconduct." (Report, ECF No. 18, PagelD 1209, quoting Appellant s Brief,
State Court Record ECF No. 10, Ex. 10, PagelD 101.) Noting that any claim of ineffective
assistance of trial counsel as an excuse for procedural default must be fairly presented to the state
courts, the Report concluded this one sentence did not amount to fair presentation and the failure
to make a contemporaneous objection had not been excused.
Shalash objects by reciting the four ways accepted for fair presentation by the Sixth Circuit
(Objections, ECF No. 21, PagelD 1229, quoting Clinkscale v. Carter, 375 F.3d 430 (6th Cm
20041:
Additionally, a petitioner must have "'fairly 1*111 presented' the substance of each of his federal
constitutional claims to the state courts . . . ." Hannah v. Conley, 49 F.3d 1193, 1196 (6th Cir.
19951 (citations omitted). See also O'Sullivan, 526 U.S. at 844 (section 2254fc) requires only
that state prisoners give state courts a fair opportunity to act on their claims ) (emphasis in
original); Manning. 912 F.2d at 881 ("The exhaustion requirement is satisfied when the highest
court in the state in which the petitioner was convicted has been given a foil and fair opportunity
to rule on the petitioner's claims."). As we have explained:
A petitioner can take four actions in its brief which are significant to the determination as to
whether a claim has been fairly presented: (1) reliance upon federal cases employing
constitutional analysis; (2) reliance upon state cases employing federal constitutional analysis;
(3) phrasing the claim in terms of constitutional law or in terms sufficiently particular to allege a
denial of a specific constitutional right; or (4) alleging facts well within the mainstream of
constitutional law."
Newton 349 F.3d at 877. See also Levine v. Torvik, 986 F.2d 1506. 1516 (6th Cir.), cert.
Homed 509 U.S. 907. 125 L. F,d. 2d 694, 113 S. Ct. 3001 (1993) ("A petitioner 'fairly presents’
his claim to the state courts by citing a provision of the Constitution, federal decisions using
constitutional analysis, or state decisions employing constitutional analysis [*12j in similar fact
patterns.").
37

Clinkscale. 375 F.3d at 437-38. Clinkscale had made a claim of ineffective assistance of trial
counsel in the Ohio Court of Appeals. Id at 438. Shalash does not assert he made a claim that
his attorney was ineffective for not objecting to the prosecutorial comments. Instead, he says he
used the "clearly constitutional terms 'ineffective assistance of counsel,' a commonly known and
specific constitutional right in both his direct appeal brief to the First District Court of Appeals
and his Memorandum in Support of Jurisdiction to the Ohio Supreme Court. (Objections, ECF
No. 21,PageID 1229.)
The Report rejected this argument, noting
A constitutional claim cannot be preserved for habeas review by reciting talismanic words — an
actual argument must be made. Merely using talismanic constitutional phrases like fair trial or
"due process of law" does not constitute raising a federal constitutional issue. Slaughter v
Parker. 450 F.3d 224. 236 (6th Cir. 2006); Franklin v. Rose, 811 F.2d 322, 326 (6th Cir.
1987), "A lawyer need not develop a constitutional argument at length, but he must make one;
the words 'due process' are not an argument." Rissins v. McGinnis, 50 F.3d 492, 494 (7th Cjr.
1995). The same must be said of "ineffective assistance."
(ECF No. 18, PagelD 1209-10.)
Examining again the Appellant's Brief on direct appeal, the Magistrate Judge
finds he did
not raise ineffective assistance of trial counsel as an assignment of error (State Court Record,
ECF No. 10, PagelD 87, etseq.). His only mention of the Sixth Amendment, the constitutional
provision that guarantees effective assistance, is in his argument about jury instructions, a
different provision of the Sixth Amendment. Id. at PagelD 104. On further appeal, Shalash raised
three propositions of law, but none of them asserts ineffective assistance of trial counsel. As on
direct appeal, he mentions in the body of his argument that it was ineffective assistance to fail to
object, but in neither instance did he cite any law in support of that assertion. The First District
certainly did not consider itself faced with a claim of ineffective assistance of trial counsel.
Indeed, it enforced the procedural default of failing to make a contemporaneous objection by
reviewing the prosecutorial misconduct claim only for plain error.
The Magistrate Judge remains persuaded Shalash made no claim of ineffective assistance of trial
counsel that gave the First District a fair opportunity to decide that question. But, as with the
First Objection, if we put the procedural default to one side, Shalash is not entitled [*14]_ to
relief on the merits of his prosecutorial misconduct claim because the First District's plain error
review is entitled to deference under 28 U.S.C. $ 2254(d)(1). The opinion of a state court on
plain error review is still entitled to AEDPA deference if the federal court reaches the merits
despite the procedural default. Fleming v. Metrish, 556 F.3d 520, 532 (6th Cir. 2009); Kittkav.._
Franks. 539 Fed. Anp'x 668. 672 16th Cir. 2013k Bond v. McOuieean, 506 Fed. App'x 493, 498
n. 2 f6th Cir. 2013); Stoietz v. Ishee. 2014 U.S. Dist. LEXIS 137501 *231 (S.D. Ohio Sept. 24,
2014).
The First District decided the prosecutorial misconduct claim on plain error review as follows:

38

[*P45] A prosecuting attorney has wide latitude to summarize the evidence and zealously
advocate the state's position during closing argument. See State v. Richey, 64 Ohio St.3d 351,
362. 1992 Ohio 44. 595 N.K.2d 915 11992). The propriety of a specific remark by a prosecutor
must not be judged in isolation, but in light of the tenor and context of the entire closing
argument. See State v. Slade. 65 Ohio St.3d 597. 607. 605 N.E.2d 916 (1992). Improper remarks
during closing argument are grounds for reversal when the remarks serve to deny the defendant a
fair trial. See State v. Maurer. 15 Ohio St.3d 239, 266, 15 Ohio B. 379, 473 N.E.2d 768 (1984).
[*P46] As Shalash admits, he did not object to any of the prosecutor's comments during closing
argument. He, therefore, has waived all but plain error. See State v. D'Ambrosio. 73 Ohio St.3d
141. 143-44. 1995 Ohio 129. 652 N.E.2d 710 (1995). Based upon our review of the record, we
cannot conclude that the prosecutor's comments during closing argument rose to the level of
plain error.
[*P47] The prosecutor's statements extensively summarizing 1*151 the evidence against Shalash
were not improper. The prosecutor's comments focusing on the "scary nature" of the robberies
were based upon testimony from bank employees that they had been threatened with a gun, and
their fear that Pfalz could have fatally shot them had he chosen to do so. Likewise, the
prosecutor's statement that the robberies were the result of a "heroin-induced frenzy, was based
upon testimony from Neitz and Pfalz that they had committed the robberies to feed their heroin
habit, and that they had robbed the banks while "high" on heroin.
[*P48] Shalash next argues that the prosecutor committed misconduct when he repeatedly made
inflammatory remarks about Shalash's religion. He points to three references to religion in the
state's closing argument. The first reference occurred when the prosecuting attorney stated that
Shalash and Neitz had been married at a mosque in Clifton. But nothing about this statement
would serve to inflame the jury's passions. The second reference occurred during the prosecutor's
discussion of Neitz's and Pfalz's credibility, when he said,
Is it common sense? Is it believable? Do you believe that a Muslim wife is going to somehow be
driving around 1*161 town with an outsider, Pfalz, a stranger to the family, robbing banks, and
the husband has been with him just moments before and somehow he leaves the picture with the
kids in the van?
The third reference occurred during the rebuttal portion of the state s closing argument when the
prosecutor stated,
Are you kidding me? Give me a break. And a Muslim wife on top of that. In that culture the
women aren't even supposed to be out without a male relative and we got her robbing banks with
anon- male relative with the kids in the truck. Give me a break. Give me a break.
[*P49] Although the comments were arguably inappropriate, they were not so inflammatory that
we can conclude that Shalash's convictions resulted from passion and prejudice instead of the
state's proof of his guilt. The state produced overwhelming evidence of Shalash's guilt, and none
of the cited comments were so prejudicial or outcome determinative as to constitute plain error
and to deny Shalash a fair trial.
39

[*P50] Finally, Shalash argues that the prosecuting attorney improperly vouched for the
credibility of the school nurse when he said, "Obviously she's not going to lie to you." It is
improper for an attorney to express 1*171 a personal belief or opinion as to the credibility of a
witness. State v. Williams. 79 Ohio St.3d 1-12. 1997 Ohio 407. 679 N.E.2d 646 (19.97). Here, the
prosecutor did not improperly vouch for the nurse's credibility as a witness. He merely argued
that she was a reliable witness and that she lacked any motive to lie. Therefore, we overrule
Shalash's second assignment of error.
State v. Shalash. 2014-0hio-5006 (1st Dist. Nov. 12. 2014).
The Sixth Circuit has articulated the relevant standard for habeas claims of prosecutorial
misconduct:
On habeas review, claims of prosecutorial misconduct are reviewed deferentially. Darden v..
Wainwrisht. 477 U.S. 168. 181. 106 S. Ct. 2464. 91 L. Ed. 2d 144 (1986). To be cognizable, the
misconduct must have "'so infected the trial with unfairness as to make the resulting conviction a
denial of due process.'" Id. (citation omitted). Even if the prosecutor's conduct was improper or
even "universally condemned," id., we can provide relief only if the statements were so flagrant
as to render the entire trial fundamentally unfair. Once we find that a statement is improper, four
factors are considered in determining whether the impropriety is flagrant: (1) the likelihood that
the remarks would mislead the jury or prejudice the accused, (2) whether the remarks were
isolated or extensive, (3) whether the remarks were deliberately or accidentally presented to the
jury, and 1*181 (4) whether other evidence against the defendant was substantial. See Boyle v.
Million. 201 F.3d 711. 717 t6th Cir. 2000). Under [the] AEDPA, this bar is heightened by the
deference we give to the . . . [Ohio] Supreme Court's determination of. .. [Petitioner's]
prosecutorial-misconduct claims. See Macias v. Makowski, 291 F.3d 447, 453-54.(6th Cir.
2002)("If this court were hearing the case on direct appeal, we might have concluded that the
prosecutor's comments violated Macias's due process rights. But this case is before us on a
petition for a writ of habeas corpus. So the relevant question is not whether the state court s
decision was wrong, but whether it was an unreasonable application of clearly established federal
law.").
Bowlins v. Parker. 344 F.3d 487. 512-13 (6th Cir. 2003).
On habeas review, "the relevant question is whether the prosecutor’s comments 'so infected the
trial with unfairness as to make the conviction a denial of due process.'" Darden v. WainwrishL
All U.S. 168. 181. 106 S.Ct. 2464, 91 L.Ed.2d 144 U9861 (quoting Donnelly v. DeChristoforo,
416 TJ.S. 637. 643. 94 S. Ct. 1868.40 L. Ed. 2d 431 (1974)). "Even if the prosecutor's conduct
was improper or even universally condemned, we can provide relief only if the statements were
so flagrant as to render the entire trial fundamentally unfair." Bowlins v. Parker, 344 F.3d 48.A
512 (6th Cir. 2003). Yet reversal is required if the prosecutor's misconduct is "so pronounced and
persistent that it permeates the entire atmosphere of the trial or so gross as probably to prejudice
the defendant." 1*191 Pritchett v. Pitcher. 117 F.3d 959. 964 (6th Cir. 1997); see also Gall w
Parker 231 F.3d 265-311 16th Cir. 2000). overruled on other grounds by, Bowling v. Parkerx
344 F.3d 487. 501 n.3 t6th Cir. 2003).

40

Bates v. Bell. 402 F.3d 635. 640-41 (6th Cir. 2005).
Although then-Judge Fischer[|_____ did not cite any federal case law in his decision, the
precedent cited in J_45 generally adopts the federal standards. In his Reply, Shalash argued the
merits of this claim as if habeas review were de novo and omitted any citation to relevant United
States Supreme Court authority (ECF No. 15, PagelD 1180-82). But, as noted above, our review
is deferential under 28 I J.S.C. $ 2254(d)(1) and only clearly established Supreme Court
precedent can be a predicate for habeas relief.
The Magistrate Judge concludes that the First District's decision is not an objectively
unreasonable application of the standards adopted by the Supreme Court. Ground Two should
therefore be dismissed on the merits as well as for procedural default.

Ground Three: Incomplete Jury Instructions
In this Third Ground for Relief, Shalash claims the trial judge did not instruct the jury that the
required standard of proof on the firearm specification was proof beyond a reasonable doubt. The
First District found this claim defaulted for lack of a contemporaneous objection. Shalash, 201,4-_
Ohio-5006, f^j 51 -56. The Report recommends upholding the procedural default over Shalash's
actual innocence claim for the 1*201 reasons set forth as to Ground One. In the alternative, the
Report recommends deference to the First District's plain error review on this question as well
(ECF No. 18, PagelD 1216).
With respect to the Third Ground, Shalash also argued that the jury instruction error was a
"structural error" which is not lost by procedural default. The Report rejected this argument,
stating, "[n]or has he cited any authority for the proposition that a 'structural error' cannot be
forfeited by failure to make a contemporaneous objection." (ECF No. 18, PagelD 1213.) In his
Objections, Shalash claims he did cite authority for that proposition and repeats citations from
his Traverse including Arizona v. Fulminante, 499 U.S. 279, 111 S. Ct. 1246, 113 L. Ed. 2d 302
(1991). and Rose v. Clark, 478 U.S. 570. 106 S. Ct. 3101. 92 L. Ed. 2d 460 (1986).
Shalash's position is simply a misreading of these cases, The distinction made in Fulminante is
between structural errors, which are not subject to harmless error analysis, and other
constitutional errors at trial, which are assessed as to whether they were harmful or
not. Fulminante does not discuss procedural default in any way. The same is true of Rose.
As to the merits of Ground Three, the Report notes that the definition of reasonable doubt given
by the trial court was completely consistent with Sullivan v. Louisiana, 508 U.S. 275, 113 S. Ct.
2078. 124 L. Ed. 2d 182 (1993). Indeed. 1*211 it is not the content of the definition about which
Shalash complains, but that it was not repeated in conjunction with the firearm specification. The
First District's decision on the merits, which expressly recognized Sullivan as the controlling
precedent, was not an objectively unreasonable application of Sullivan.

41

Ground Four: Denial of Post-Conviction Petition without a Hearing
In his Fourth Ground for Relief, Shalash claims his rights to effective assistance of counsel,
guaranteed by the Sixth Amendment, and due process of law, guaranteed by the Fourteenth
Amendment, were violated when his petition for post-conviction relief was denied without an
evidentiary hearing.
The Report recommended denying this ground for relief because Shalash had not raised it as a
constitutional question on direct appeal and thereby failed to fairly present it; instead, he raised it
as an abuse of discretion claim (ECF No. 18, PagelD 1216-17). The Report also recommended
denying the claim on the merits because no Supreme Court precedent clearly establishes a right
to an evidentiary hearing in state post-conviction proceedings. Id. at PagelD 1218.
Shalash objects that the Magistrate Judge raised procedural default sua sponte, that it
had 1*221 not been raised by Respondent (Objections, ECF No. 1231-32). Shalash is correct that
Respondent defended Ground Four on the merits and the procedural default matter was
raised sua sponte by the Magistrate Judge. The Sixth Circuit, however, has held it is not
inappropriate for the Court to raise a procedural default defense sua sponte. Sowell v. Bradshaw*
372 F.3d 821. 830 (6th Cir. 2004): Lorraine v. Covie. 291 F.3d 416 16th Cir. 2002)(§
2254 capital case); White v. Mitchell. 431 F.3d 517. 524 (6th Cir. 2005)(capital case); Elzy_\k
United States. 205 F.3d 882 16th Cir. 2000YS 2255 case). See also, Day v. McDonough, 547 UJL
198. 206-07. 126 S. Ct. 1675. 164 L. Ed. 2d 376 12006) (stating that "[wjhile the issue remains
open in this Court, see Trest v. Cain„ 522 U.S. 87, 90, 118 S. Ct. 478, 139 L. Ed. 2d 444 (1997),
the Courts of Appeals have unanimously held that, in appropriate circumstances, courts, on their
own initiative, may raise a petitioner's procedural default," citing cases in all but the D.C. Circuit
Court).
The only excusing cause suggested for this procedural default is Shalash's asserted actual
innocence. The insufficiency of the actual innocence argument is discussed under Ground One
above.
As part of his Fourth Ground for Relief, Shalash claims he received ineffective assistance of trial
counsel when his trial attorney failed to subpoena two witnesses, one of whom would allegedly
have provided an alibi, and failed to investigate Shalash's claim that the gun alleged to have been
used in the robberies in 2012 had been confiscated 1*231 in 2011. The trial judge found the
supporting affidavits marginal at best. Shalash had made a "shotgun" allegation of ineffective
assistance of trial counsel and had not provided affidavits from the supposed alibi witnesses.

Conclusion
Having reconsidered the case pursuant to the Recommittal Order, the Magistrate Judge again
respectfully recommends that the Petition be dismissed with prejudice. Because reasonable
42

jurists would not disagree with this conclusion, Petitioner should be denied a certificate of
appealability and the Court should certify to the Sixth Circuit that any appeal would be
objectively frivolous and therefore should not be permitted to proceed in forma pauperis.
June 17, 2019.
s/ Michael R. Merz
United States Magistrate Judge

43

APPENDIX E.

UNITED STATES DISTICT
COURT MAGISTRATE
OPINION

Ahmad Shalash v. Gray, 2019 U.S. Dist. LEXIS 69180
Copy Citation
United States District Court for the Southern District of Ohio, Western Division
April 23, 2019, Decided; April 24, 2019, Filed
Case No. l:18-cv-333

Opinion
REPORT AND RECOMMENDATIONS
Petitioner Ahmad Shalash brought this habeas corpus action with the assistance of counsel to
obtain relief from his convictions for robbery and aggravated robbery in the Hamilton County
Court of Common Pleas. The case is before the Court for decision on the Petition (ECF No. 1),
the State Court Record (ECF No. 10), the Return of Writ (ECF No. 11), and Petitioner's Reply.
Although originally filed at the Columbus seat of court, the case was transferred to the Western
Division at Cincinnati in accordance with the habeas venue rule, S. D. Ohio Civ. R. 82.1(f). The
Magistrate Judge reference in the case has recently been transferred to the undersigned to help
balance the Magistrate Judge workload in the District.

Litigation History
Shalash was indicted by a Hamilton County, Ohio, grand jury under two separate case numbers
for his involvement in four 1*21 separate bank robberies. A trial jury, which heard both cases
together, convicted him of three counts of robbery and two counts of aggravated robbery in one
case and one count of robbery in the second case. He was sentenced to an aggregate term of
imprisonment of forty-four years and appealed to the First District Court of Appeals which
affirmed. State v. Shalash. 1st Dist. Hamilton Nos. C-130748, 130749, 2014-0hio-5006 (Nov.
12. 2014). appellate jurisdiction declined, 142 Ohio St. 3d 1517. 2015-Qhio-2341, 33 N.E.3d 65
t2015! ("Shalash 7").
While the appeal was pending, Shalash filed a petition for post-conviction relief under OMp
Revised Code § 2953.21 which the trial court denied. Shalash again appealed to the First District,
asserting as his single assignment of error that the trial court had erred in denying his post­
conviction petition without a hearing. The First District affirmed. State v. Shalash, 1st Dist.
Hamilton No. C-150614. 2016 Ohio Ann. LEXIS 4105 (Oct. 7, 2016), appellate jurisdiction
declined 149 Ohio St. 3d 1420. 2017-Qhio-4038. 75 N.E.3d237 (2017) ("Shalash IT).

45

, pleading the following grounds for relief:

Shalash then filed his Petition in this Court 1

Ground One: "The evidence was insufficient to convict Mr. Shalash, and the manifest weight of
the evidence did not support the trial court's conviction in violation of the due process clause of
the Fourteenth Amendment."
Supporting Fact(s): 1. "The State presented exhaustive evidence regarding a series of robberies
that 1*31 had occurred from early September to late October, 2012, yet provided no direct
evidence that Mr. Shalash was involved other than the suspect testimony of his two co­
defendants."
Ground Two: "Mr. Shalash was denied a fair trial when he was subjected to repeated instances
of prosecutorial misconduct during his trial."
Supporting Fact(s): 1. "After giving an extensive presentation of undisputed evidence none of
which pointed to Mr. Shalash's involvement in the robberies, outside of the testimony of his co­
defendants, the State, in closing argument, resorted to inflammatory tactics vilifying Mr.
Shalash, inciting fear, referencing Mr. Shalash's religion, and vouching for the credibility of
witnesses.
Ground Three: "Mr. Shalash was denied a fair trial when the trial court failed to instruct the
jury that the firearm specifications must have been proven 'beyond a reasonable doubt.'"
Supporting Fact(s): "Trial court failed to instruct jury on the standard of proof for the firearm
specifications in Mr. Shalash's indictment. The trial court did not instruct the jury that Mr.
Shalash must be found guilty of the specifications beyond a reasonable doubt."
Ground Four: "Mr. Shalash was denied his right 1*41 to effective assistance of counsel and due
process when the trial court denied his Petition for Post-Conviction Relief without a hearing"
where he submitted evidence outside the trial record which supported his claims of ineffective
assistance of counsel and affidavits of his co-defendants recanting their trial testimony.
Supporting Fact(s): "Mr. Shalash's conviction was based on little to no direct evidence of his
involvement in a series of robberies except for the suspect testimony of his co-defendants who
both submitted affidavits recanting their testimony."
"Mr. Shalash's post-conviction petition was supported by two affidavits from Jennifer Nietz, his
wife and co-defendant, and one affidavit from Jake Pfalz, his other co-defendant wherein they
both recanted their trial testimony."
(Petition, ECF No. 1, PagelD 5, 7-8, 10,16-19.)

Analysis

46

Ground One: Conviction on Insufficient Evidence and Against the Manifest Weight of the
Evidence
In his First Ground for Relief, Shalash asserts his conviction is not supported by sufficient
evidence and is against the manifest weight of the evidence. Shalash combined these two claims
in his First Assignment on Direct Appeal and the First District [*51 decided them as follows.
Sufficiency and Weight of the Evidence
{f 36} In his first assignment of error, Shalash argues that his convictions for robbery,
aggravated robbery, and the accompanying firearm specifications were supported by insufficient
evidence and were contrary to the manifest weight of the evidence.
37} To reverse a conviction for insufficient evidence, the reviewing court must be persuaded,
after viewing the evidence in a light most favorable to the prosecution, that no rational trier of
fact could have found the essential elements of the crime proven beyond a reasonable
doubt. State v. Thomvkins. 78 Ohio St.3d 380. 386, 1997 Ohio 52, 678 N.E.2d 541 (1997).- To
reverse a conviction as against the manifest weight of the evidence, the reviewing court must
weigh the evidence and all reasonable inferences, consider the credibility of the witnesses, and
conclude that in resolving conflicts in the evidence, the trier of fact clearly lost its way and
created a manifest miscarriage of justice. Id. at 387.
{f 38} The state argued that Shalash was guilty as either a principal or as a complicitor to the
four bank robberies. Complicity is defined as when a person "acting with the kind of culpability
required for the commission of an offense * * * aid[s] or abets another 1*61 in committing the
offense." R.C. 2923.03CA¥2j. To support a conviction for complicity by aiding and abetting, the
state must show that the defendant assisted, encouraged, cooperated with, advised, or incited the
principal in the commission of the crime and that the defendant shared the criminal intent of the
principal. State v. Johnson. 93 Ohio St. 3d 240, 754 N.E.2d 796, 2001 -Ohio-1336 (200_1_),
syllabus. Aiding and abetting can be inferred by presence, companionship, and conduct before
and after the offense is committed. Id. at 243-245.
39} Shalash was charged with robbery under R.C. 2911.02(A)(2). In order to prove the
robbery counts, the state was required to prove that Shalash or his accomplice, in committing a
theft offense, inflicted, attempted to inflict, or threatened to inflict physical harm on another. He
was also charged with aggravated robbery under R.C. 2911.0HA)(T). To convict Shalash of the
aggravated-robbery counts, the state was required to prove that Shalash or his accomplice, in
committing a theft offense, had a deadly weapon on or about his person or under his control and
either displayed the weapon, brandished it, indicated that he possessed it, or used it. To establish
the three-year firearm specification, the state was required to prove that Shalash or his
accomplice had a firearm on or about his 1*71 person or under his control while committing the
offenses and displayed it, brandished it, indicated that he possessed it, or used it to facilitate the
offenses. See R.C. 2941.145.
40} Shalash primarily argues the state failed to prove his involvement in the offenses. He
contends that Neitz's and Pfalz’s credibility was undermined by the state's promises of leniency,
47

and by conflicts in their testimony. He further argues that the state failed to present any physical
evidence directly linking him to the offenses.
41} But based upon our review of the evidence, we conclude the jury could have found that
Shalash had participated in the robberies as either a principal or as an accomplice. Neitz and
Pfalz testified that Shalash had conspired with them to rob the four banks to feed their heroin
habits. Neitz's role was to. "case" the banks, Pfalz's role was to rob the banks, and Shalash's role
was to supply the disguises and the gun and to drive the getaway van. Neitz and Pfalz described
the four bank robberies in detail. Pfalz testified that he had threatened to use a gun and that he
had displayed a gun at the Cheviot Savings and First Financial Banks.
{f 42} Neitz’s and Pfalz's testimony was supported 1*81 by surveillance video from the four
banks, surveillance video from St. James Elementary School near the Cheviot Savings Bank, and
by surveillance video from a UDF and Dairy Mart near the First Financial Bank. Their testimony
was also consistent with the testimony of the four banks' employees, and with Lanter's testimony
that she had seen Pfalz, Neitz, and Shalash in a white van outside the St. James School, a couple
of hours before the Cheviot Savings Bank had been robbed. Neitz and Pfalz testified that the
mon ey from each robbery had been divided among Pfalz, Neitz, and Shalash. Thus, a rational
jury could find that Shalash had actively participated in the offenses.
{f 43} Shalash also argues that the j ury's verdict was against the manifest weight of the evidence.
He argues that neither Neitz nor Pfalz were credible given that they had admitted to either being
less than truthful on prior occasions or had demonstrated an inability to testify consistently under
oath at trial, and they had agreed to testify against him for leniency in their own cases. But the
jury was in the best position to evaluate their credibility and to determine the weight to be
afforded their testimony. Given that 1*91 the totality of the evidence established that Shalash had
aided and abetted Neitz and Pfalz in the four offenses, and that Shalash has not demonstrated any
basis for disturbing the jury's determination, we cannot conclude that Shalash's convictions were
contrary to the manifest weight of the evidence. See Thompkins, 78 Ohio St.3d at 387, 678
N.E.2d 541. We, therefore, overrule his first assignment of error.
Shalash I. 2014-0hio-5006.
In State v. Thompkins. 78 Ohio St. 3d 380, 1997- Ohio 52. 678 N.E.2d 541 (1997), the Ohio
Supreme Court reaffirmed the important distinction between appellate review for insufficiency
of the evidence and review on the claim that the conviction is against the manifest weight of the
evidence. It held:
In essence, sufficiency is a test of adequacy. Whether the evidence is legally sufficient to sustain
a verdict is a question of law. State v. Robinson (1955), 162 Ohio St. 486, 55 O.O. 388, 124
N.E.2d 148. In addition, a conviction based on legally insufficient evidence constitutes a denial
of due process. Tibbs v. Florida (1982), 457 U.S. 31.45. 102 S.Ct. 22.11, 2220, 72 L.Ed.2d 652,
663, ritina .larkxnn v Virginia (1979\ 443 U.S. 307. 99 S.Ct. 2781, 61 L.Ed.2d 560. Although a

court of appeals may determine that a judgment of a trial court is sustained by sufficient
evidence that court may nevertheless conclude that the judgment is against the weight of the
evidence. Robinson, supra. 162 Ohio St. at 487. 55 O.O. at 388-389, 124 N.E.2d at 149. Weight
48

of the evidence concerns "the inclination of the greater amount of credible evidence, offered in a
trial, to support one side of the issue rather than 1*101 the other. It indicates clearly to the jury
that the party having the burden of proof will be entitled to their verdict, if, on weighing the
evidence in their minds, they shall find the greater amount of credible evidence sustains the issue
which is to be established before them. Weight is not a question of mathematics, but depends on
its effect in inducing belief." (Emphasis added.)
When a court of appeals reverses a judgment of a trial court on the basis that the verdict is
against the weight of the evidence, the appellate court sits as a '"thirteenth juror'" and disagrees
with the factfinder's resolution of the conflicting testimony. Tibbs, 457 U.S. at 42, 102 S.Ct. at
2218. 72 L.Ed.2d at 661. See, also, State v. Martin (list Distil983\ 20 Ohio App. 3d 172, 175,
20 Ohio B. 215. 219. 485 N.E.2d 717. 720-721 ("The court, reviewing the entire record, weighs
the evidence and all reasonable inferences, considers the credibility of witnesses and determines
whether in resolving conflicts in the evidence, the jury clearly lost its way and created such a
manifest miscarriage of justice that the conviction must be reversed and a new trial ordered. The
discretionary power to grant a new trial should be exercised only in the exceptional case in which
the evidence weighs heavily against the conviction.").
78 Ohio St. 3d at 387. In Martin, 1st Dist, Judge 1*111 Robert Black contrasted the manifest
weight of the evidence claim:
In considering the claim that the conviction was against the manifest weight of the evidence, the
test is much broader. The court, reviewing the entire record, weighs the evidence and all
reasonable inferences, considers the credibility of the witnesses and determines whether in
resolving conflicts in the evidence, the jury clearly lost its way and created such a manifest
miscarriage of justice that the conviction must be reversed and a new trial ordered. .. .
20 Ohio App. 3d at 172. |3 of the syllabus. The consequences of the distinction are important for
a criminal defendant. The State may retry a case reversed on the manifest weight of the evidence;
retrial of a conviction reversed for insufficiency of the evidence is barred by the Double
Jeopardy Clause. Tibbs v. Florida, 457 U.S. 31. 40-41, 102 S. Ct. 2211, 72 L. Ed, 2d 652 (1982).
A manifest weight of the evidence claim is not a federal constitutional claim and is therefore not
cognizable in habeas corpus. Johnson v. Havener, 534 F.2d 1232. 1234 (6th Cir. 1986). An
allegation that a verdict was entered upon insufficient evidence, on the other hand, states a claim
under the Due Process Clause of the Fourteenth Amendment to the United States
Constitution. Jackson v. Virginia, 443 U.S. 307, 99 S. Ct. 2781, 61 L. Ed. 2d 560 (1979), In re
Winshin. 397 U.S. 358. 90 S. Ct. 1068. 25 E. Ed. 2d 368 (1970); Johnson v. Coyle, 200 F.3d 987,
991 (6th Cir. 20001: Raphv v. Sawders. 894 F.2d 792. 794 (6th Cir. 1990) (en banc). In order for
a conviction to be constitutionally sound, every element of the crime must be proved beyond a
reasonable doubt. In re Winship, 397 U.S. at 364.
[T]he relevant question 1*121 is whether, after viewing the evidence in the light most favorable
to the prosecution, any rational trier of fact could have found the e of fact fairly to resolve
conflicts in the testimony, to weigh the evidence an essential elements of the crime beyond a

49

reasonable doubt.... This familiar standard gives full play to the responsibility of the trier to
draw reasonable inferences from basic facts to ultimate facts.
Jackson. 443 U.S. at 319; United States v. Paise. 470 F.3d 603, 608 (6th Cir. 2006); United
States v. Somerset. No. 3:03-po-2. 2007 U.S. Dist. LEXIS 76699 (S.D. Ohio Oct. 12,
2QQ7) (Rice, J.). This rule was recognized in Ohio law at State v. Jenks, 61 Ohio St. 3d 259, 574
N.E.2d 492 (T991). Of course, it is state law which determines the elements of offenses; but once
the state has adopted the elements, it must then prove each of them beyond a reasonable
doubt. In re Winship. supra.
Because of this distinction, a habeas corpus court cannot decide on the merits a manifest weight
claim. To put it another way, whether a verdict is against the manifest weight is a question of
state law and habeas relief is available only for federal constitutional violations. 28 U.S.C. §
2254(a): Wilson v. Corcoran. 562 U.S. 1. 131 S. Ct. 13, 178 L. Ed. 2d 276 (20,10); LewisjK
Jeffers. 497 U.S. 764. 780. TIPS. Ct. 3092. Ill L. Ed. 2d 606 (1990); Smith v. Phillips, 455 UJL
209. 102 S. Ct. 940. 71 I.. Ed. 2d 78 (1982). Barclay v. Florida, 463 U.S. 939, 103 S. Ct. 341jL
77 T. Ed. 2d 1134(1983).
Respondent asserts that merits review of the sufficiency of the evidence claim is also barred by
Petitioner's failure to fairly present that claim to the Supreme Court of Ohio (Return, ECF No.
11, PagelD 1125). While [*131 conceding that he did not "present sufficiency of the evidence as
a 'proposition of law' in his Memorandum in Support of Jurisdiction," he asserts he did argue the
evidence was insufficient in his general argument for discretionary review (Reply, ECF No. 15,
PagelD 1171).
Upon examination of the Memorandum in Support of Jurisdiction (State Court Record, ECF No.
10, Ex. 15, PagelD 155 et seq.), the Magistrate Judge notes that none of the three propositions of
law deals with the sufficiency or weight of the evidence. The phrase "decidedly little
evidence[,]" id. at PagelD 158, is used to describe the evidence at trial, but there is no legal
argument at all about the applicability of Jackson, the relevant United States Supreme Court
precedent, or indeed any case law related to this issue.
The Magistrate Judge concludes that Shalash did not fairly present his sufficiency of the
evidence claim to the Supreme Court of Ohio. His complaint that there was "decidedly little
evidence" does not assert that the First District erred in overruling his First Assignment of
Error. As an appellate court, inundated with thousands of possible appeals a year, the Supreme
Court of Ohio cannot be expected to 1*141 comb the record on appeal looking for issues that are
not clearly presented. To hold that this issue was fairly presented would essentially wipe out the
requirement that a habeas petitioner must complete a full round of state court review. O'Sullivan
v. BoerckeL 57.fi U.S. 878. 848. 119 S.Ct. 1728,144 L. Ed. 2d 1 (1999).
To combat this conclusion, Petitioner relies on the analysis in Peterson v..Miller, No. l:16-cyi
509. 2017 U.S. Dist. LEXIS 215391 (N.D. Ohio Dec. 7. 2017), to argue for "liberal construction"
of his Supreme Court Memorandum (Traverse, ECF No. 15, PagelD 1172). In Peterson,
Magistrate Judge Greenberg liberally construed Peterson's pro se propositions of law in the Ohio
Supreme Court as raising sufficiency of the evidence claims. Id. at * 44. In general, the filings
50

ofpro se litigants are to be liberally construed. Estelle v. Gamble, 429 U.S. 97, 106, 97 S. Ct,
285. 50 L. Ed. 2d 251 (19761. But Shalash, unlike Peterson, did not appear pro se in the Supreme
Court of Ohio, but was represented by counsel. And even in Peterson the Magistrate Judge was
unwilling to find the liberally-construed propositions of law raised a federal constitutional
question. Peterson supports the proposition that a federal constitutional claim must at least be
stated in a proposition of law in the Memorandum in Support of Jurisdiction; an oblique
reference to the weakness of the evidence is insufficient.
Alternatively. 1*151 Shalash seeks to excuse any procedural default of this claim by asserting he
is actually innocent of these crimes. Adequate proof of actual innocence will excuse a procedural
default and allow a habeas court to consider a claim on the merits. Schlup v. Delo, 513 U.S. 298,
319.115 S. Ct. 851. 1301- Kd. 2d 808 fl995k The Sixth Circuit has set the following standard
for proving actual innocence:
[I]f a habeas petitioner "presents evidence of innocence so strong that a court cannot have
confidence in the outcome of the trial unless the court is also satisfied that the trial was free of
nonharmless constitutional error, the petitioner should be allowed to pass through the gateway
and argue the merits of his underlying claims." Schlupv. Delo, 513 U.S. 298, 316, 115 S. Ct
851. 130 L. Ed. 2d 808 (T995J. Thus, the threshold inquiry is whether "new facts raise[]
sufficient doubt about [the petitioner's] guilt to undermine confidence in the result of the
trial." Id at 317. To establish actual innocence, "a petitioner must show that it is more likely than
not that no reasonable juror would have found petitioner guilty beyond a reasonable
doubt." Id. at 327. The Court has noted that "actual innocence means factual innocence, not mere
legal insufficiency." Bouslev v. United States. 523 U.S. 614. 623. 140 L. Ed. 2d 828, 118 S. Ct
1604 (T998). "To be credible, such a claim requires petitioner to support his allegations of
constitutional error 1*161 with new reliable evidence --whether it be exculpatory scientific
evidence, trustworthy eyewitness accounts, or critical physical evidence —that was not presented
at trial" Schlun. 513 U.S. at 324. The Court counseled however, that the actual innocence
exception should "remain rare" and "only be applied in the 'extraordinary case.'" Id. at.321.
Souter v. Jones. 395 F.3d 577. 590 (6th Cir. 2005). As new evidence Shalash relies on the
affidavits of his co-defendants Jennifer Neitz (Shalash's wife and mother of three of his children)
and Jake Pfalz recanting their trial testimony. This is simply not "new reliable evidence" within
the meaning of Schlup. Shalash himself implicitly characterizes these witnesses as unreliable by
accusing them of perjuring themselves at trial (Traverse, ECF No .15, PagelD 1169).
The insufficient evidence portion of Ground One is procedurally defaulted, and that default is not
excused by Shalash's actual innocence. That portion of Ground One should therefore be
dismissed as defaulted. The manifest weight portion of Ground One is not cognizable in habeas
corpus and should be dismissed on that basis.

Ground Two: Prosecutorial Misconduct

51

In his Second Ground for Relief, Shalash claims he was denied a fair trial by repeated acts of
prosecutorial f*171 misconduct. Shalash raised prosecutorial misconduct as his Second
Assignment of Error on direct appeal and the First District decided it as follows:
Prosecutorial Misconduct
44} In his second assignment of error, Shalash argues that multiple instances of prosecutorial
misconduct denied him a fair trial. Shalash argues the prosecuting attorney committed
misconduct during closing argument when he presented extensive evidence of the robberies,
focused on the scary nature of the crimes, argued that the crimes had been committed during a
"heroin-induced frenzy," made inflammatory remarks about Shalash's religion, and improperly
vouched for the credibility of a witness.
flf 45} A prosecuting attorney has wide latitude to summarize the evidence and zealously
advocate the state's position during closing argument. See State v. Richey, 64 Ohio St.3d 353,
367. 1992 Ohio 44. 595 N.E.2d 915 119921. The propriety of a specific remark by a prosecutor
must not be judged in isolation, but in light of the tenor and context of the entire closing
argument. See State v. Slazle. 65 Ohio St.3d 597. 607, 605 N.E.2d 916 (1992). Improper remarks
during closing argument are grounds for reversal when the remarks serve to deny the defendant a
fair trial. See State v. Maurer. 15 Ohio St.3d 239, 266, 15 Ohio B. 379, 473 N,E.2d 768 (1984).
{f 46} As Shalash admits, he did not object to any of the prosecutor's comments during
closing 1*181 argument. He, therefore, has waived all but plain error. See State v. D'Ambrosia,
73 Ohio St.3d 141. 143-44. 1995 Ohio 129. 652 N.E.2d 710 (1995). Based upon our review of
the record, we cannot conclude that the prosecutor's comments during closing argument rose to
the level of plain error.
{f 47} The prosecutor's statements extensively summarizing the evidence against Shalash were
not improper. The prosecutor's comments focusing on the "scary nature" of the robberies were
based upon testimony from bank employees that they had been threatened with a gun, and their
fear that Pfalz could have fatally shot them had he chosen to do so. Likewise, the prosecutor's
statement that the robberies were the result of a "heroin-induced frenzy," was based upon
testimony from Neitz and Pfalz that they had committed the robberies to feed their heroin habit,
and that they had robbed the banks while "high" on heroin.
flf 48} Shalash next argues that the prosecutor committed misconduct when he repeatedly made
inflammatory remarks about Shalash's religion. He points to three references to religion in the
state's closing argument. The first reference occurred when the prosecuting attorney stated that
Shalash and Neitz had been married at a mosque in Clifton. But nothing about this
statement 1*191 would serve to inflame the jury's passions. The second reference occurred
during the prosecutor's discussion of Neitz's and Pfalz's credibility, when he said,
Is it common sense? Is it believable? Do you believe that a Muslim wife is going to somehow be
driving around town with an outsider, Pfalz, a stranger to the family, robbing banks, and the
husband has been with him just moments before and somehow he leaves the picture with the kids
in the van?
52

The third reference occurred during the rebuttal portion of the state s closing argument when the
prosecutor stated,
Are you kidding me? Give me a break. And a Muslim wife on top of that. In that culture the
women aren't even supposed to be out without a male relative and we got her robbing banks with
a non-male relative with the kids in the truck. Give me a break. Give me a break.
49} Although the comments were arguably inappropriate, they were not so inflammatory that
we can conclude that Shalash's convictions resulted from passion and prejudice instead of the
state's proof of his guilt. The state produced overwhelming evidence of Shalash's guilt, and none
of the cited comments were so prejudicial or outcome determinative as to constitute 1*201 plain
error and to deny Shalash a fair trial.
{f 50} Finally, Shalash argues that the prosecuting attorney improperly vouched for the
credibility of the school nurse when he said, "Obviously she's not going to lie to you." It is
improper for an attorney to express a personal belief or opinion as to the credibility of a
witness. State v. Williams. 79 Ohio St.3d 1. 12. 1997 Ohio 407. 679 N.E.2d 646 0997). Here, the
prosecutor did not improperly vouch for the nurse's credibility as a witness. He merely argued
that she was a reliable witness and that she lacked any motive to lie. Therefore, we overrule
Shalash's second assignment of error.
State v. Shalash. 2014~0hio-5006.
Respondent asserts that merits review of this claim is barred by Shalash's procedural default in
that he made no objections to the prosecutor's comments in closing. (Return, ECF No. 11,
PagelD 1125-26).
The procedural default doctrine in habeas corpus is described by the Supreme Court as follows:
We now make it explicit: in all cases in which a state prisoner has defaulted his federal claims in
state court pursuant to an adequate and independent state procedural rule, federal habeas review
of the claims is barred unless the prisoner can demonstrate cause of the default and actual
prejudice as a result of the alleged violation 1*211 of federal law; or demonstrate that failure to
consider the claims will result in a fundamental miscarriage of justice.
Coleman v. Thompson. 501 U.S. 722. 750, 111 S. Ct. 2546, 115 L. Ed. 2d..640 (1991); see
also Simmon v. Jones. 238 F.3d 399. 406 16th Cir. 2000). That is, a petitioner may not raise on
federal habeas a federal constitutional rights claim he could not raise in state court because of
procedural default. Ensle v. Isaac, 456 U.S. 107, 110, 102 S. Ct. 1558, 71 L. Ed. 2d 783
(1982); Wainwrieht v. Svkes. 433 U.S. 72. 97 S. Ct. 2497, 53 L. Ed. 2d 594 (1977). "Absent
cause and prejudice, a federal habeas petitioner who fails to comply with a State s rules of
procedure waives his right to federal habeas corpus review. Boyle v. Million, 201 F.3d 7.11, 716
t6th Cir. 20001 (internal quotation marks and citation omitted); Murray v. Carrier, 477 U.S. 47JL
485. 106 S. Ct 2639. 91 L. Ed. 2d 397 (1986): Enele. 456 U.S. at 110; Wainwrieht, 433 U.S. at
87.

53

[A] federal court may not review federal claims that were procedurally defaulted in state court—
that is, claims that the state court denied based on an adequate and independent state procedural
rule. E.g., Beard v. Kindler. 558 IJ.S. 53. 55, 130 S. Ct. 612. 175 L. Ed. 2d 417 (2009). This is an
important "corollary" to the exhaustion requirement. Dretke v. Haley, 541 U.S. 386, 392, 124 S.
Ct. 1847. 158 L. Ed. 2d 659 (20041. "Just as in those cases in which a state prisoner fails to
exhaust state remedies, a habeas petitioner who has failed to meet the State s procedural
requirements for presenting his federal claims has deprived the state courts of an opportunity to
address" the merits of "those claims in the first instance." Coleman, 501 U.S., at 731-732, 111 „S.
Ct. 2546. 115 L. Ed. 2d 640. The procedural default doctrine thus advances the same comity,
finality, and federalism interests advanced 1*221 by the exhaustion doctrine. See McCleskey
Zant. 499 U.S. 467. 493. Ill S. Ct. 1454. 113 L. Ed. 2d 517(1991).
Davila v. Davis. 137 S. Ct. 2058. 2064, 198 L. Ed. 2d 603 (2017).
The Sixth Circuit Court of Appeals requires a four-part analysis when the State alleges a habeas
claim is precluded by procedural default. Guilmette v. Howes, 624 F.3d 286, 290 (6th Cir.
2010) (en banc); Elev v. Baelev. 604 F.3d 958. 965 (6th Cir. 2010); Reynolds v. Berry, 146 F.3d
345. 347-48 t6th Cir. 1998). citing Maupin v. Smith. 785 F.2d 135. 138 (6th Cir. 1986);
accord Jacobs v. Mohr. 265 F.3d 407. 417 (6th Cir. 2001); Lott v. Coyle, 261 F.3d 594, 601-02
f6th Cir. 2001).
First the court must determine that there is a state procedural rule that is applicable to the
petitioner's claim and that the petitioner failed to comply with the rule.

Second, the court must decide whether the state courts actually enforced the state procedural
sanction, citing County Court of Ulster County v. Allen, 442 U.S. 140, 149, 99 S.Ct. 2213, 60
T.Ed.2d 111 (T979).
Third, the court must decide whether the state procedural forfeiture is an "adequate and
independent" state ground on which the state can rely to foreclose review of a federal
constitutional claim.
Once the court determines that a state procedural rule was not complied with and that the rule
was an adequate and independent state ground, then the petitioner must demonstrate
under Sykes that there was "cause" for him to not follow the procedural rule and that he was
actually prejudiced by the alleged constitutional error.
Mamin, 785 F.2d at 138; accord Hartman v. Basley, 492 F.3d 347, 357 (6th Cir.
2007). quoting Monzo v. Edwards. 281 F.3d 568. 576 (6th Cir. 2002). A habeas petitioner can
overcome a procedural default by showing cause for the default and prejudice from the asserted
error. Atkins v. Holloway. 792 F.3d 654. 657 (6th Cir. 2015).
Ohio has a relevant procedural rule. 1*231 to wit, that a litigant must make a contemporaneous
objection to error occurring in the trial court so that the error can be corrected, if possible, in the
54

trial court. State v. Glaros. 170 Ohio St. 471. 166 N.E.2d 379 (I960), paragraph one of the
syllabus; see also State v. Mason, 82 Ohio St. 3d 144, 162, 1998- Ohio 370, 694 N.E.2d 932
(1998V The First District enforced that rule by reviewing only for plain error. An Ohio state
appellate court's review for plain error is enforcement, not waiver, of a procedural
default. Woeenstahl v. Mitchell. 668 F.3d 307, 337 (6th Cir. 2012), citing Keith v. Mitchell, 455
F.3d 662. 673 (6th Cir. 20061: Jells v. Mitchell. 538 F.3d 478. 511 (6th Cir. 2008); Lundgren v
Mitchell. 440 F.3d 754. 765 (6th Cir. 2006V White v. Mitchell 431 F.3d 517, 525 (6th Cjr.
20Q5V Biros v. Baelev. 422 F.3d 379. 387 (6th Cir. 2005); Hinkle v. Randle, 271 F.3d 239, 244
(6th Cir. 2001). citine Seymour v. Walker. 224 F.3d 542, 557 (6th Cir. 2000) (plain error review
does not constitute a waiver of procedural default).
The contemporaneous objection rule is an adequate and independent state ground of
decision. Wozenstahl. 668 F.3d at 334; Goodwin v. Johnson, 632 F.3d 301, 315 (6th Cir.
2011); Smith v. Bradshaw. 591 F.3d 517. 522 (6th Cir. 2010); Nields v. Bradshaw, 482 F.3d 442,
451 (6th Cir. 2007); Biros. 422 F.3d at 387; Mason v. Mitchell. 320 F.3d 604 (6th Cir. 2003),
citing Hinkle. 271 F.3d at 244; Scott v. Mitchell 209 F.3d 854. 867-68 (6th Cir.
2000), citing Enele. 456 U.S. at 124-29. S
To overcome this procedural default, Shalash asserts it was ineffective assistance of trial counsel
to fail to object. In order to rely on ineffective assistance of trial counsel to excuse a procedural
default, a petitioner must present the ineffective assistance claim to the state courts for
adjudication in the ordinary fashion those courts have prescribed for such claims. Edwards„v
Carpenter. 529 U.S. 446. 120 S. Ct. 1587. 146 L. Ed. 2d 518 (2000). In other words, ineffective
assistance of trial counsel will not serve as cause if that claim is itself procedurally defaulted.
Because failure to make objections to portions of a closing argument is an [*241 omission that
appears on the face of the appellate record, Ohio law requires that it be presented on direct
appeal or be later barred by res judicata. State v. Perry, 10 Ohio St. 2d 175, 226 N.E.2d 104
(1967).
Shalash objects that he did not procedurally default his claim of ineffective assistance of trial
counsel in this regard because he raised it both in the First District and on further appeal to the
Supreme Court of Ohio ((Reply, ECF No. 15, PagelD 1179, citing Appellant's Brief (State Court
Record, ECF No. 10, Ex. 10, and Memorandum in Support of Jurisdiction, Id. at Ex. 15)).
Petitioner did not raise ineffective assistance of trial counsel as an assignment of error on direct
appeal, although he did accuse his attorney of ineffective assistance for not objecting
(Appellant's Brief, State Court Record, ECF No. 10, Ex. 10, PagelD 101). However, his entire
argument consists of: "Furthermore, Mr. Shalash submits that he received the ineffective
assistance of counsel when his trial counsel failed to object to these clearly prejudicial instances
of prosecutorial misconduct." Id. That is a purely conclusory claim. No authority is cited for the
proposition that failure to object to any of the alleged instances of prosecutorial misconduct
is 1*251 deficient performance. Like Shalash's reliance on the First Ground for Relief on the
notion that stating there was "decidedly little evidence" suffices to preserve a sufficiency of the
evidence claim, his argument here is unpersuasive. A constitutional claim cannot be preserved
for habeas review by reciting talismanic words — an actual argument must be made. Merely
55

using talismanic constitutional phrases like "fair trial" or "due process of law does not constitute
raising a federal constitutional issue. Slaughter v. Parker, 450 F.3d 224, 236 (6th Cir,
2006): Franklin v. Rose. 811 F.2d 322. 326 (6th Cir. 1987). "A lawyer need not develop a
constitutional argument at length, but he must make one; the words due process are not an
argument." Riggins v. McGinnis. 50 F.3d 492. 494 (7th Cir. 1995). The same must be said of
"ineffective assistance."
As with Ground One, merits review of Shalash's Second Ground for Relief is barred by his
failure to make a contemporaneous objection.

Ground Three: Incomplete Jury Instructions on the Firearm Specification
In this Third Ground for Relief, Shalash claims the trial judge did not instruct the jury that the
required standard of proof on the firearm specification was proof beyond a reasonable doubt.
Petitioner raised this issue as his Third Assignment of Error on direct appeal and the First
District decided 1*261 it as follows:
Jury Instruction on the Firearm Specifications
51} In his third assignment of error, Shalash maintains the trial court erred by failing to
separately instruct the jury that the state had to prove the firearm specifications beyond a
reasonable doubt.
52} Shalash did not object to any of the jury instructions at trial. He argues, nonetheless, that
under the United States Supreme Court's decision in Sullivan v. Louisiana, 508 U.S. 275, 281,
113 S.Ct. 2078. 124 L.Ed.2d 18211993). the trial court's failure to give this instruction is a
"structural error" requiring automatic reversal. The state argues, on the other hand, that the trial
court's failure to instruct the jury is a trial error amenable to a "plain error" analysis. See States
Blankenship. 102 Ohio Ann.3d 534. 546. 657 N.E.2d 559 (12th Dist.1995); State v. Norman, 1st
Dist. Hamilton No. C-920202. 1993 Ohio Ann. LEXIS 133. *8-9 (Jan. 20, 1993).
53} After reviewing the case law and the record, we agree with the state that a plain-error
analysis applies. The structural error at issue in Sullivan was the denial of the right to trial by
jury by giving a defective reasonable doubt instruction. Sullivan at 279. The instruction the trial
court gave to the jury suggested that the jury had to have a higher degree of doubt than is
required for acquittal under the reasonable-doubt standard. Id. at 276-277. The Sullivan court
held that a "beyond-a-reasonable-doubt instruction" that misdescribes the 1*271 burden of proof
requires per se reversal. Id. at 281.
54} Here, however, the trial court properly instructed the jury on the reasonable-doubt
standard at multiple times during the jury charge. At the beginning of the jury charge, the trial
court stated:

56

[tjhere is no requirement that the defendant present any evidence. The duty of proof rests entirely
with the state of Ohio. The defendant must be acquitted unless the state produces evidence which
convinces you beyond a reasonable doubt of every essential element of the crime charged in the
indictment. Reasonable doubt. Reasonable doubt is present when the jurors after they have
carefully considered and compared all the evidence cannot say they are firmly convinced of the
truth of the charge. It is a doubt based on reason and common sense. Reasonable doubt is not
mere possible human doubt because everything relating to human affairs or depending on moral
evidence is open to some possible or imaginary doubt. Proof beyond a reasonable doubt is proof
of such character that an ordinary person would be willing to rely and act upon it in the most
important of his or her own affairs.
At the end of each count of the indictment, the trial court instructed 1*281 the jury that the state
was required to prove the elements of the offense listed in that count of the indictment beyond a
reasonable doubt.
{f 55} The trial court specifically instructed the jury that he aggravated-robbery charges in
counts 3 and 5 of the indictment included the necessity of finding that Shalash, while committing
the robbery, or immediately fleeing thereafter, "had a deadly weapon on or about his person, or
under his control, and displayed, brandished, indicated possession or used the deadly weapon, to
wit: a firearm." The court also instructed the jury that it specify on counts 3 and 5 whether it
found that Shalash "did have on or about his person, or under his control, a firearm, while
committing the offense of aggravated robbery."
flf 56} When taken together, these jury instructions satisfied the requirement of instructing the
jury that the firearm specifications had to be proven beyond a reasonable doubt. Therefore, the
trial court did not commit plain error by failing to separately instruct the jury that the state had to
prove the firearm specifications beyond a reasonable doubt. See Blankenship, 102 Ohio App.3d
at 546. 657 N.E.2d 559: State v. Norman. 1st Dist. Hamilton No. C-920202. 1993 Ohio App.
LEXIS 133. at *8-9: State v. Dubose. 7th Dist. Mahoning No. 00-CA-60, 2002-0hio-3020,12035: State v. Penson. 2d Dist. Montgomery No. 9193, 1990 Ohio App. LEXIS 732,.*_32 (Feb. 26,
1990): State v. Small. 8th Dist. Cuyahoga No. 68167, 1995 Ohio App. LEXIS 4844, *19-20
fNov. 2. 1995). We, therefore, overrule Shalash's third assignment of error and affirm 1*291 the
judgment of the trial court.
Shalash I.
Respondent asserts this Third Ground for Relief is procedurally defaulted for the same reason as
Ground Two: failure to make a contemporaneous objection (Return of Writ, ECF No. 11, PagelD
1126). As noted above with respect to Ground Two, state court review for plain error is an
enforcement of the contemporaneous objection rule which is itself an adequate and independent
state procedural ground of decision.
Shalash admits the procedural default but says it is excused because "he will suffer a miscarriage
of justice if he is unable to bring this claim on the merits as the defective jury instruction created
a structural error ..." (Reply, ECF No. 15, PagelD 1183). This argument confuses two different
strains of habeas corpus doctrine. When an error is properly characterized as structural, that
57

means_ it is per se harmful, that the courts do not evaluate it for harmlessness as is true of other
constitutional errors. So, for example, an error under Faretta v. California, 422 U.S. 806, 812z
13. 95 S. Ct. 2525. 45 L. Ed. 2d 562 (1975), denying a criminal defendant the rights of self­
representation, is structural McKaskle v. Wiggins, 465 U.S. 168, 177 n. 8, 104 S. Ct. 944, 79 L,
F,d. 2d 122 (19841. in that it affects the entire trial proceeding. The same thing is true
of Batson violations, Snyder v. Louisiana. 552 U.S. 472. 478, 128 S. Ct. 1203, 170 L. Ed. 2d 175
(20081. judicial bias or complete 1*301 denial of counsel, Johnson v. United States, 520 UJL
461. 468-69. 117 S. Ct. 1544. 137 L. Ed. 2d 718 H9971 (citations omitted) or racial
discrimination in the selection of a grand jury. Vasquez v. Hillery, 474 U.S. 254,. 106 S. Ct. 6.17,
88 L. Ed. 2d 598 09861.
On the other hand, the "miscarriage of justice" exception to procedural default is available only
on adequate proof of actual innocence. Calderon v. Thompson, 523 U.S. 538, 557-58, 118 S. Ct.
1489. 140 L. Ed. 2d 728 H9981 (holding that "avoiding a miscarriage of justice as defined by our
habeas corpus jurisprudence" requires "a strong showing of actual innocence").
As noted above, Shalash has not produced proof of actual innocence which satisfies
the Schlup gateway requirement. Nor has he cited any authority for the proposition that a
"structural error" cannot be forfeited by failure to make a contemporaneous objection.
Even though the First District decided the Third Assignment of Error on plain error review, its
decision is still entitled to AEDPA deference. Fleminz v. Metrish. 556 F.3d 520. 532 (6th Cir.
20091: Kittka v. Franks. 539 F. App'x 668. 672 (6th Cir. 20131; Bond v. McQuiggan, 506 Fed
Annx. 493. 498 n. 2 16th Cir. 20131: Stoietz v. Ishee. No. 2:04-cv-263. 2014 U.S. Dist. LEXIS
137501 *231 (S.D. Ohio Sent. 24. 20141 (Frost, J.). That is, the decision must be deferred to
unless it is contrary to or an objectively unreasonable application of clearly established Supreme
Court precedent. 28 U.S.C. § 2254fdl(Tl: Harrineton v. Richter, 562 U.S. 86, 100, 131 S, Ct
770. 178 L. Ed. 2d 624 120111: Brown v. Pavton, 544 U.S. 133. 140. 125 S. Ct. 1432. 161 L. Ed.
2d 334 620051: Bellv. Cone. 535 U.S. 685. 693-94, 122 S. Ct. 1843, 152 L. Ed. 2d 9j4
(20021; Williams (Terry) v. Taylor. 529 U.S. 362, 379, 120 S. Ct. 1495, 146 L. Ed. 2d 389
(20001.
The First District recognized that the controlling Supreme Court precedent is Sullivanjk
Louisiana. 508 IJ.S. 275. 113 S. Ct. 2078. 124 L. Ed. 2d 182 (1993). Shalash 7, 201„4-0hio-5006,
at Ilf 52-53. In Sullivan, the Court found that the complained-of instruction was "essentially
identical to the one held unconstitutional 1*311 in Cage v. Louisiana . . .." 508 U.S. at 277,
citing 498 U.S. 39. Ill S. Ct. 328. 112 L. Ed. 2d 339 09901 (per curiam), overruled on other
grounds in Estelle. 502 U.S. at 72 n.4. Justice Scalia noted that the requirement of proof beyond
a reasonable doubt, "which was adhered to by virtually all common-law jurisdictions," was
required in both federal and state courts. Id. at 278, citing In re Winship, 397 U.S. 358, 90 S. Ct.
1068, 25 T - Ed. 2d 368 119701. The instruction given in both Sullivan and Cage read:
"If you entertain a reasonable doubt as to any fact or element necessary to constitute the
defendant's guilt, it is your duty to give him the benefit of that doubt and return a verdict of not
guilty. Even where the evidence demonstrates a probability of guilt, if it does not establish such
guilt beyond a reasonable doubt, you must acquit the accused. This doubt, however, must be a
58

reasonable one; that is one that is founded upon a real tangible substantial basis and not upon
mere caprice and conjecture. It must be such doubt as would give rise to a grave uncertainty,
raised in your mind by reasons of the unsatisfactory character of the evidence or lack thereof. A
reasonable doubt is not a mere possible doubt. It is an actual substantial doubt. It is a doubt that
a reasonable man can seriously entertain. What is required is not an absolute or
mathematical 1*321 certainty, but a moral certainty." 554 So. 2d 39, 41 (La. 1989} (emphasis
added).
Cage. 498 U.S. at 40. The Court rejected this instruction because it overstated the amount of
doubt the jury must have by equating "reasonable doubt" with "grave uncertainty" and "actual
substantial doubt." Id. at 41.
The First District reasonably interpreted Sullivan as proscribing a "defective reasonable doubt
instruction." Shalash I. 2014-0hio-5006 at If 53. citing 508 U.S. at 279. In contrast to Sullivan,
the First District found that the trial court here "instructed the jury on the reasonable doubt
standard multiple times during the jury charge." Id. at U 54. The definition of reasonable doubt
used by the trial court was
Reasonable doubt is present when the jurors after they have carefully considered and compared
all the evidence cannot say they are firmly convinced of the truth of the charge. It is a doubt
based on reason and common sense. Reasonable doubt is not mere possible human doubt
because everything relating to human affairs or depending on moral evidence is open to some
possible or imaginary doubt. Proof beyond a reasonable doubt is proof of such character that an
ordinary person would be willing to rely and act upon it in the most important of his or her own
affairs.
Id
This definition of reasonable 1*331 doubt closely follows the model in Ohio Jury Instructions.
"Reasonable doubt" is present when the jurors, after they have carefully considered and
compared all the evidence, cannot say they are firmly convinced of the truth of the charge. It is a
doubt based on reason and common sense. "Reasonable doubt" is not mere possible doubt,
because everything relating to human affairs or depending on moral evidence is open to some
possible or imaginary doubt. "Proof beyond a reasonable doubt" is proof of such character that
an ordinary person would be willing to rely and act upon it in the most important of the person's
own affairs.
2 OJI-CR 405.07. This definition is prescribed by statute in Ohio. Ohio Revised Code §
2901.05(E).
The Sixth Circuit held recently that "[a] reasonable-doubt instruction will be problematic only if
there is a reasonable likelihood that the jury understood the instructions to allow conviction
based on proof insufficient to meet the Winship standard[,]" but stress[ed] that departures from
pattern instructions regarding the reasonable-doubt standard tend only to muddy the waters
further. "At worst such variations may be prejudicial to a defendant; at best they add needlessly
59

to the work of appellate [*341 courts while being of no real benefit to the jury. United States y.
Rios. 830 F.3d 403. 433. 434 t6th Cir. 2016) (internal quotation marks and citations omitted).
Petitioner's complaint is not about the content of the trial court s reasonable doubt instruction,
but about the trial judge's failure to repeat it again in connection with the firearm specification.
During the course of the jury charge, Hon. Charles J. Kubicki, Jr., the trial judge, told the jurors
that, when considering direct and circumstantial evidence together, they had to satisfy jurors of
the "defendant's guilt beyond a reasonable doubt." (Transcript, State Court Record, ECF No. 104, PagelD 1046.) He repeated that language in detailing that the State had to prove whatever was
in the indictment beyond a reasonable doubt. Id. at 1049. He repeated it again in describing the
presumption of innocence. Id. He expressly told the jury that "[t]he defendant must be acquitted
unless the States produces evidence which convinces you beyond a reasonable doubt of every
essential element of the crime charged in the indictment." Id. This appears just before the
definition of reasonable doubt quoted above. Then, the requirement of a finding of guilt beyond a
reasonable doubt was repeated each time the r*351 judge read the elements of the individual
crimes.
In applying Sullivan, the First District expressly considered the instructions as a whole and found
them adequate. Shalash I. 2014-Qhio-5006. at IT 56. That was not contrary to nor an objectively
unreasonable application of Sullivan. Therefore, if the Court should reject the procedural default
defense on Ground Three, it should conclude Shalash is not entitled to relief on the merits.

Ground Four: Denial of the Post-Conviction Petition Without a Hearing Violates Shalash's
Rights to Effective Assistance of Counsel and Due Process of Law
In his Fourth Ground for Relief, Shalash claims his rights to effective assistance of counsel,
guaranteed by the Sixth Amendment, and due process of law, guaranteed by the Fourteenth
Amendment.
On appeal from denial of his petition for post-conviction, Shalash's sole assignment of error read
"The trial court abused its discretion when it denied Mr. Shalash's post-conviction motion to
vacate|2____i without holding a hearing." (Appellant's Brief, State Court Record, ECF No. 10,
PagelD 383). No claim is made in the body of the Brief that failure to hold a hearing was a
violation of either the Sixth Amendment or the Fourteenth. Indeed, the only federal decision
cited is Strickland v. Washington. 466 U.S. 668, 104 S. Ct. 2052, 80 L. Ed. 2d.674 (1984), for the
underlying standard 1*361 of ineffective assistance of trial counsel. Thus, the First District did
not review the constitutional claims made in the Fourth Ground for Relief violations of
the Sixth and Fourteenth Amendments by denying a hearing — because those claims were not
fairly presented to it.
The claim that was presented on appeal — that the trial judge abused his discretion in denying
the petition without a hearing — does not state a claim cognizable in habeas. Abuse of discretion
60

is not a denial of due process. Sinistai v. Burt. 66 F.3d 804, 807-08 (6th Cir. 1995}. Put another
way, this Court cannot review whether the First District correctly applied Ohio law on when a
post-conviction petition may be dismissed without a hearing. State v. Calhoun, 86 Ohio St. 3d
279. 1999- Ohio 102. 714 N.E.2d 905 (1999).
In addition to applying Calhoun, the First District also decided that Shalash had presented
insufficient evidence to warrant relief. It noted that actual innocence, attempted to be shown by
the recanting affidavits, is not a basis for a constitutional claim. Shalash II, 2016 Ohio Apjx
LEXIS 4105. at * 2.. The deficiencies in the recantation affidavits provided an adequate basis
for rejecting them. Id. Finally, the evidence offered in support of the ineffective assistance of
trial counsel claim, even if accepted, did not show the result of the trial was likely to have been
different. Id. at *3.
In arguing 1*371 Ground Four in the Reply/Traverse, Shalash makes the plain claim that denying
his post-conviction petition without a hearing denied him due process of law (ECF No. 15,
PagelD 1185). No constitutional claim to this effect was fairly presented to the First District. But
e ven if we were to liberally construe the post-conviction appeal as if it had presented such a
claim, it would be without merit: no decision of the United States Supreme Court recognizes a
due process right to an evidentiary hearing on a post-conviction petition. Shalash cites no case
law purportedly making such a holding and none is known to the Court.
In sum, Shalash's Fourth Ground is procedural ly defaulted for lack of fair presentation to the
state courts. In the alternative, it is without merit because (1) there is no constitutional guarantee
of an evidentiary hearing in post-conviction and (2) the First District's decisions on the
underlying constitutional claims are neither contrary to nor an objectively un reasonable
application of clearly established Supreme Court precedent.

Conclusion
In accordance with the foregoing analysis, it is respectfully recommended that the Petition herein
be dismissed with prejudice. 1*381 Because reasonable jurists would not disagree with this
conclusion, Petitioner should be denied a certificate of appealability and the Court should certify
to the Sixth Circuit that any appeal would be objectively frivolous and therefore should not be
permitted to proceed in forma pauperis.
April 23,2019.
/s/ Michael R. Merz
United States Magistrate Judge

61

APPENDIX F.

OHIO COURT OF
APPEALS
OPINION
DIRECT APPEAL

State v. Shalash, 2014-0hio-5006
Copy Citation
Court of Appeals of Ohio, First Appellate District, Hamilton County
November 12, 2014, Date of Judgment Entry on Appeal
APPEAL NOS. C-130748, C-130749

Syllabus
Defendant's convictions for two counts of robbery and two counts of aggravated robbery in
conjunction with thefts at four banking institutions were neither based on legally insufficient
evidence nor contrary to the manifest weight of the evidence, where the state presented
testimony from two codefendants that the defendant had aided and abetted them in the
commission of the offenses by providing a gun and disguises and acting as the getaway driver,
and their testimony was corroborated by testimony of the bank employees and surveillance video
from the banks and surrounding businesses.
The prosecuting attorney did not commit misconduct during closing argument when he
commented on the extensive evidence of the robberies, focused on the scary nature of the crimes,
argued that the crimes had been committed during a "heroin-induced frenzy," and commented on
the credibility of a state's witness, because the comments were based upon the evidence
presented at trial, and while the prosecuting attorney's comments about [**2]„ the defendant's
religion were arguably inappropriate, they were not so prejudicial or outcome determinative as to
constitute plain error and deny the defendant a fair trial.
The trial court's failure to specifically instruct the jury that the state had to prove the firearm
specifications beyond a reasonable doubt was not a structural error requiring immediate reversal,
but a trial error subject to a plain-error standard of review where the defendant had failed to
object to the lack of such an instruction and where the trial court had properly instructed the jury
on the reasonable-doubt standard and specifically instructed the jury with respect to the
aggravated-robbery offenses that the defendant must have had a deadly weapon on or about his
person or under his control while committing the offenses.

Counsel: Joseph T. Deters, Hamilton County Prosecuting Attorney, and Judith Anton Lapp,
Assistant Prosecuting Attorney, for Plaintiff-Appellee.
Blake P. Somers LLC, Blake P. Somers and Sarah Mosher, for Defendant-Appellant.
Judges: FISCHER, Judge. CUNNINGHAM, P.J, and DEWINE, J., concur.
63

Opinion by: FISCHER

Opinion
Fischer, Judge.
[*PH Defendant-appellant Ahmad Shalash was charged with four counts of robbery and two
counts of aggravated 1**31 robbery stemming from his involvement in four separate bank
robberies. The aggravated-robbery counts included both one-year and three-year firearm
specifications. A jury found Shalash guilty of all six counts and the accompanying specifications.
The trial court sentenced Shalash to 44 years in prison.
f*P21 In this appeal, Shalash argues that (1) his convictions are not supported by the sufficiency
and the weight of the evidence; (2) multiple instances of prosecutorial misconduct during closing
arguments denied him a fair trial; and (3) the trial court erred in failing to specifically instruct the
jury that the state had to prove the firearm specifications beyond a reasonable doubt. Finding
none of Shalash's arguments meritorious, we affirm the trial court's judgment.

The Charges against Shalash and the State's Evidence at Trial
T*P31 Shalash was charged in two separate indictments with robbery and aggravated robbery in
connection with four bank robberies that had occurred over a six-week period from September 7,
2012, to October 22, 2012. In the case numbered B-1207436-B, the Hamilton County grand jury
indicted Shalash on three counts of robbery and two counts of aggravated robbery. The
robbery [**41 charge in count 1 concerned a theft at the Fifth Third Bank on Harrison Avenue.
The aggravated-robbery charge in count 3 and the robbery charge in count 4 concerned a theft at
the Cheviot Savings Bank. The aggravated-robbery and robbery charges in counts 5 and 6
concerned a theft at the First Financial Bank in Deer Park. The aggravated-robbery charges in
counts 3 and 5 were accompanied by one-year and three-year firearm specifications. Shalash was
also indicted in the case numbered B-1208349, for one count of robbery in connection with a
theft at the Emery Federal Credit Union. The following is a summary of the evidence presented
at Shalash's trial with respect to each of the charges.

Fifth Third Bank
[*P41 On September 7, 2012, around 5:00 p.m., Teresa Heilman, Valerie Turchinn, and Debbie
Merkel were working at the Fifth Third Bank on Harrison Avenue in Cheviot when a man
wearing a baseball hat, sunglasses, and gloves entered the bank. The man was carrying a long
white bag and yelled, "Give me all your money. This isn't a joke. I've got a gun." The man used
his hand to block his face. He then threw the bag at Heilman, who grabbed money from a cash
64

drawer and put it in the bag. She also f**51 placed some $100 bills on top of the bag. The man
snatched the bag and ran out of the bank. Heilman hit the alarm button and locked the doors.
Some of the $100 bills fell on the bank floor. Heilman testified that $860 was missing from her
cash drawer. The three women's descriptions of the robbery was consistent with video of the
robbery taken from the bank's surveillance system that was played during the trial.
f*P51 Minutes after the robbery, Cheviot police officer James Dietrich arrived at the scene. He
saw several $100 bills on the ground. He took written statements from the three bank employees
and photographed the scene. Officer Jeff Patton arrived shortly thereafter with a K-9, Charlie.
Charlie tracked the scent of the robber to the street. Officer Patton testified that the robber had
likely entered a vehicle and fled from the scene.

Emery Federal Credit Union
[*P6]^ On October 11, 2012, around 10:22 a.m., Sharon Haney, Ken Jones, and Stephanie Ash
. were working at the Emery Federal Credit Union when a man entered the front door of the bank,
yelling. The man was wearing a hoodie, a bandana over his nose, and gloves. He walked to
Haney's window, told her he had a gun, and demanded that she give [**6].him the money in her
cash drawer. The man told Ash and Jones to get down on the floor or he would shoot them.
f*P71 The man passed a bag to Haney and told her to give him all of the $100 and $50 bills.
She opened her drawer, gave him the bills, and handed the bag back to him. The man then
handed the bag back to Haney and demanded that she give him all the money in the drawer.
Haney took the bag and gave him the remaining cash in the drawer. Haney gave the robber
approximately $13,000. The man then fled from the bank. Haney testified that the man had
placed a gloved hand over his mouth during the robbery.
[*P81 Ash testified that a day or two prior to the robbery a woman had entered the bank and had
asked for information on opening an account. The day of the robbery, this same woman had
entered the bank prior to the robbery and had spoken with another bank employee. Ash's, Jones's,
and Haney's testimony was consistent with surveillance video of the robbery and surveillance
video taken the day prior to the robbery.
f*P91 Officer Mark Peters testified that he had responded to a robbery at the Emery Federal
Credit Union. When he arrived at the bank, uniformed officers were already there. He
interviewed r**71 the bank employees and reviewed video from the bank's surveillance system.
During his investigation, he had contacted the Green Township and Cheviot police. They had
provided with him the names of two possible suspects, one of whom was Jennifer Neitz. When
he returned to the Emery Federal Credit Union with a photograph of Neitz, the bank employees
recognized her as having entered the bank both the day prior to and the day of the robbery. By
working with the two police agencies, Officer Peters testified he had developed a pattern for the
bank robberies.

65

Cheviot Savings Bank
r*P101 On October 19, 2012, around 4:30 p.m., Sheila Linemann and Maureen Monahan were
working at the Cheviot Savings Bank when a man walked through the front door and yelled,
"This is a robbery." The man was wearing blue jeans, a dark hooded sweatshirt, a "beanie-type"
hat, a medical mask, sunglasses, and gloves. The man pointed a gun at Monahan, the bank s
manager, who was in her office, and yelled, "Don't move." He then pointed the gun at the drivethrough teller's head, and ordered her not to move. The man then ran up to Linemann's teller
window, handed her a dingy pillowcase, and told her he wanted "large bills."
Tinemann f**81 gave the man $400 from her cash drawer.
r*Plll When Monahan moved, he pointed the gun at her again and said, "Don't move." Then
he pointed the gun at the drive-through teller and Linemann and yelled, "More, I want more."
When Linneman told the man that she didn't have any more money, he bolted through the door.
Linemann activated the bank's alarm system. The police arrived five minutes later.
f*P121 Monahan testified that although the robbery lasted 45 seconds, it seemed like forever.
She was very scared and thought that the robber "was going to blow her brains out." Monahan
testified that the bank's surveillance system had captured a white van leaving the parking lot of
the bank 20 seconds after the robbery had occurred. She further testified that prior to the robbery,
a woman had come to the bank inquiring about opening a business checking account. The
woman had come into her office, but she had appeared nervous and would not sit down. She
spoke with the woman for a minute or two before she left the bank.
f*P131 Monahan identified a still photograph from the bank's surveillance system, which
showed her speaking with the woman. Monahan's and Linemann's testimony was consistent with
bank surveillance video [**91 of the robbery. The surveillance video depicted a white van in the
back parking lot of the bank during the robbery.
[*P141 Nancy Wabnitz, a secretary at St. James Elementary School, and Constance Lanter, a
nurse at the school, testified that around 1:15 p.m. on October 19, 2012, a suspicious man had
entered the school and said he was looking for his brother. When the name the man gave
Wabnitz and Lanter did not match the name of any current student at the school, Wabnitz asked
him to leave the building. The man was captured on the school's surveillance video. He was
wearing a gray hooded sweatshirt.
f*pi51 Lanter testified that she followed the man outside the building and watched as he
walked towards a credit union in front of the school. As the man approached the credit union,
Lanter saw a woman walking back and forth behind the credit union. The man and woman both
entered the front passenger side of a white van. Lanter testified that another man was sitting in
the front seat of the van, and a young child was standing between the front seats of the van. The
driver of the van, whom Lanter identified as Shalash, waved at her. Lanter waved back. The van
then pulled out of the parking lot. The van f** 101 had a Florida license plate. Lanter wrote down
the van's license plate number and gave it to the police. She identified both the van and the
66

woman at the credit union from still photographs taken from the surveillance video at the
Cheviot Savings Bank.

First Financial Bank
f*P!61 Andy Kunkel testified that on October 22, 2012, he was working as a teller at the First
Financial Bank in Deer Park, Ohio. He heard a clanking noise on the glass of the bank's front
door around 4:00 p.m., and saw a man enter the bank with a gun. The man pointed the gun at him
and yelled, "Give me the money" before handing him a bag. Kunkel grabbed the money from his
cash drawer and placed it on top of the bag. The man grabbed the cash and started towards the
door. He then came back and grabbed the bag before fleeing from the bank. Kunkel testified that
the robbery lasted roughly 15 seconds, and that video from the bank's surveillance system
accurately depicted the robbery.
f*P171 Kunkel was shown a still photograph from the bank's surveillance system, which
showed Kunkel speaking with a woman prior to the robbery, but Kunkel could not recall talking
to her. Richard Ambrose, a loan originator at the bank, testified that he [**11].. had walked to the
front door of the bank after the robbery had occurred. As he looked out the door, he saw a white
van on the left side of the street pulling out and driving away from the bank.

Police Investigation Leads to Shalash, Neitz, and Pfalz
[*P181 During their investigation of the First Financial Bank robbery, the police obtained
surveillance video from a United Dairy Farmers ("UDF") and a Dairy Mart located near the First
Financial Bank the day the robbery had occurred. Vijay Harsh, the owner of the Dairy Mart,
testified that sometime around 3:00 p.m., two men had exited from a white van, entered the store,
inquired about the price of a package of cigarettes and left. He identified Shalash from still
photographs taken from the store's surveillance system as the man who had exited from the
driver's side of the van and had entered the store. Alicia Banks, the store manager at the UDF,
testified that the store's surveillance video had captured a white van entering the UDF parking lot
at 3:56 p.m. A man in a white t-shirt got out of the van, entered the store, and purchased a
package of cigarettes.
f*P191 Detective Mike Lampe testified that he investigated the robbery at the Cheviot
Savings 1**121 Bank. He responded to the bank the day of the robbery. He was able to develop a
lead in the investigation when surveillance video showed a white van leaving the scene of the
robbery, and a patrol officer had recalled being dispatched to the St. James Elementary School
earlier in the day for a report by a school nurse of a suspicious white van. Detective Lampe
testified that the patrol officer had obtained the van's license plate number from the school nurse.
The van was registered to Neitz. Detective Lampe testified that the van had discoloration and
peeling paint that was visible in the surveillance video taken at the Dairy Mart the day of the

67

First Financial Bank robbery, and in surveillance video taken from a Kroger store the day of the
Cheviot Savings Bank robbery.
[*P2Q1 Detective Lampe testified that through his investigation of Neitz, he became familiar
with Pflaz and Shalash. Pfalz had remained in Ohio following the robberies. He had been
arrested and interviewed by police. Pfalz gave a statement implicating himself, Neitz, and
Shalash in the robberies. Detective Lampe then traveled to North Carolina to interview Neitz and
Shalash, both of whom had been arrested there on unrelated [**131. charges. Shalash invoked
his Miranda rights and chose not to speak with Detective Lampe. Neitz, however, provided him
with a detailed statement admitting her, Shalash's, and Pflaz's involvement in the four robberies.
Detective Lampe denied coercing Neitz, or threatening her in any manner to obtain her
statement. He testified that Neitz's statement was consistent with the surveillance video relating
to each of the four robberies and with Pfalz's statement.

Testimony of Shalash's Codefendants
[*P211 At trial, Neitz testified that she, Shalash, and Pfalz were addicted to heroin. One day as
they were driving around in a white van with Pflaz's mother, Pfalz suggested that they rob a bank
to obtain money to support their heroin habit. They traveled to the Fifth Third Bank on Harrison
Avenue. Neitz walked inside the bank to report how many people were inside. When Neitz
returned, Pfalz jumped out of the van, went inside the bank, and then returned to the van yelling,
"Go, go, go." Once Shalash had driven the van from the area, Neitz became aware that Pfalz had
robbed the bank. According to Neitz, Pfalz had divided the money among him, his mother,
Shalash, and her. Neitz identified herself and Pfalz [**141 from still photographs taken from
Fifth Third Bank's surveillance system just prior to and during the robbery.
[*P22i Neitz testified that on October 10, 2012, Pfalz had contacted Shalash and asked him to
bring a gun with him so they could rob another bank. Neitz testified that she had previously
purchased a gun. It was registered in her name, but the gun belonged to Shalash. Shalash, Neitz,
and their four-year-old son, picked up Pfalz and his mother. As they drove around in the van, the
four adults planned to rob the Emery Federal Credit Union. They agreed that Neitz would enter
the credit union to ensure no customers were inside. While Neitz was inside the bank, Shalash
drove the van around the bank's parking lot to see who was in the area. Just as Pfalz was about to
enter the credit union, a man exited from his car and entered the credit union. When he did not
come out of the credit union, the four decided to abandon their plan to rob the credit union. Neitz
testified that still photographs from the surveillance system at the credit union showed her
walking out of the credit union on October 10, 2012, at 10:59 a.m. According to Neitz, the four
adults agreed that they would return to the [**151 credit union the next day.
F*p231 The following day, Shalash drove back to the credit union. Neitz went inside the credit
union again to "check things out." She identified herself from still photographs taken from
surveillance video at the bank the day of the robbery. Neitz testified that Shalash had driven
around the parking lot to see if a police car had left the area. As Pfalz robbed the credit union,
Shalash circled the parking lot in the van. When Pfalz came out, he jumped in the van with the
68

money. They drove to Pfalz's apartment, which was near the credit union, and divided the money
from the robbery.
f*P241 Neitz testified that although the van was titled in her name, it belonged to Shalash. After
each robbery, Shalash would drive Pfalz to a dumpster, so he could dispose of the clothing used
in the robbery. The third robbery took place on October 19, 2012. That day, Neitz and Shalash
picked up Pfalz and drove around in the van. Neitz testified that they had a gun with them, but it
was not a real gun. Neitz was shown her prior statement to police in which she had said that they
had a real gun with them, which was registered in her name, but that the gun really belonged to
Shalash.
1*P251 Thev ended f** 161 up at a credit union in front of St. James Elementary School. Neitz
went into the credit union and Pfalz went into the school. When Pfalz came out of the school, she
and Pfalz got into the van and left. They decided not to rob the credit union because Shalash was
concerned that people inside the school could identify them. Neitz further testified that they.were
also concerned about the feasibility of robbing the credit union, because the door to the credit
union was secured and had to be opened from the inside. So they drove around in the van for a
coupie of hours, got high from heroin, and discussed robbing another bank. They ended up at the
Cheviot Savings Bank. Neitz went inside the bank to check things out, Pfalz robbed the bank
with the gun and a white bag from the van, and Shalash drove the van away from the bank. Pfalz
came back with $400 that they used to buy "dope."
f*P261 On October 22, 2012, they robbed the First Financial Bank in Deer Park. Neitz testified
that it was Shalash's idea to rob that particular bank, because he owned a building in the area and
had been to the bank once before. They had picked up Pfalz, and were driving around in the van.
Pfalz was nervous and wanted r**171 to get high before the robbery. They did not have any
heroin, so Shalash told her to give Pfalz some of her pills. Neitz gave Pfalz the pills.
1*P271 Prior to robbing the bank, they stopped at two convenience stores to buy cigarettes.
Neitz identified photographs of Shalash and Pfalz leaving the van, entering the convenience
stores, and returning to the van. Following those stops, they traveled to the First Financial Bank.
She entered the bank to see if there were any customers inside. Pfalz went into the bank with a
gun and robbed it. Pfalz came out with money in his pockets, which they divided. They put
Pfalz's clothing and gun in a Kroger bag and threw it in a dumpster in Kentucky.
[*P281 A few days later, Neitz and Shalash drove to North Carolina where they were arrested
on unrelated charges. Neitz spoke with Detective Lampe while she was in custody in North
Carolina. She gave him a statement implicating herself, Pfalz, and Shalash in the four robberies.
She and Shalash were extradited to Ohio two months later. While in jail, she gave another
statement to police. She also wrote Shalash letters trying to reassure him that she was going to
help him. She was scared to tell him that she had spoken [**181 with police. Neitz admitted that
she had testified against Shalash to get a plea deal from the state, but she told the jury that she
had not lied in order to receive better treatment.
[*P291 On cross-examination, Neitz testified that she had been under the influence of drugs
when she had given her first statement, so her statement was inaccurate. Detective Lampe was
69

insinuating that he could get her out of jail, if she would talk to him. Neitz was shown two letters
that she had written to Shalash while in jail. Neitz admitted that in those two letters she had
stated that Shalash had nothing to do with the robberies. On redirect examination, Neitz admitted
that she had not been under the influence of drugs during either statement she had given police,
she had not been coerced to give her statements, and she had lied in her letters when she had
stated that Shalash had not been involved in the robberies.
[*P3Q1 pfalz testified that he was friends with Neitz and Shalash. During the course of their
friendship, they had become addicted to pills and heroin. They started stealing things so they
could continue to buy drugs. In September 2012, they were driving around high when they
decided to rob a bank 1**191 to feed their drug habit. They drove to a Fifth Third Bank. They
decided that Neitz would go into the bank to check things out, Pfalz would rob the bank, and
Shalash would drive the getaway van. Neitz went into the bank. When she came out, she told
him that there were two people in the bank, it was closing time, and they were counting money.
He went into the bank and robbed it. He did not have a gun. He ran to the van, and Shalash drove
off. They split the approximately $900 he stole from the bank, using the money to buy heroin,
gasoline, and cigarettes. He identified still photographs of himself and Neitz in the bank the day
of the robbery.
[*P311 Pfalz testified that by October 10, 2012, they had run out of money and were driving
around broke. They decided to rob the Emery Federal Credit Union because it was close to
Pfalz's grandma's house. They went to the credit union two or three times before they robbed it.
They had planned to rob the credit union on October 10, but an older man had walked into the
credit union and they had decided to abandon their plan. They returned the next day, October 11,
2012, and decided to proceed with the robbery. They agreed that Shalash would drive the
van. 1**201 Neitz would go in the bank and look around, and Pfalz would rob it. Pfalz identified
himself and Neitz in still photographs taken from the bank's surveillance system before and
during the robbery. He testified that he split the money from the robbery with Neitz and Shalash.
Pfalz testified that he wore clothing that belonged to Shalash, and he used pillowcases and a bag
from the van during the robberies. He further testified that he, Neitz, and Shalash wanted to get
high before the robbery.
r*P321 Eight days later, on October 19, 2012, Neitz, Shalash, and Pfalz discussed robbing
another bank. Pfalz testified that they drove to a credit union near a school. Pfalz went into the
school, but he left when he was confronted by school employees. He got back in the van, and
they drove to another bank, Cheviot Savings Bank. Pfalz testified that Neitz had entered the bank
at 3:46 p.m. to "case it." He entered the bank shortly thereafter and robbed it. He admitted that he
had pointed a gun and threatened to shoot the bank employees. He testified the gun was only a
toy, but that he had acted like it was a real gun. He stole $500, and they split the money among
them. Pfalz testified that Shalash drove 1**211 the white van through a Kroger parking lot after
the robbery.
[*P331 Three days later, Pfalz, Neitz, and Shalash robbed the First Financial Bank in Deer Park.
Prior to the robbery, they had stopped at a couple of convenience stores. Pflaz identified himself
and Shalash from still photographs taken from one of the store's surveillance videos. Pfalz
testified that Neitz had "checked out" the bank prior to the robbery, and that he had robbed the
70

bank wearing clothing that Shalash kept in the van. Shalash had spray painted the toy gun he had
brandished during the robbery. Pfalz admitted that during the robbery he had left the bag inside
the bank and had to return to get it. Pfalz testified that he stole $1500, which he split with
Shalash and Neitz.
f*P341 After the robbery, Pfalz threw the clothing and gun into a dumpster in Kentucky. He
decided to stay in Ohio following the robberies so as to not draw suspicion to himself. Pfalz
admitted that he had prior felony convictions for theft and that he had been promised leniency if
he testified against Shalash.

Jury Verdict and Shalash's Sentence
1*P351 The jury found Shalash guilty of all the aggravated-robbery and robbery charges, as
well as the accompanying firearm 1* *221 specifications. The trial court merged the aggravatedrobbery and robbery charges that related to the Cheviot Savings Bank and First Financial Bank.
The court sentenced Shalash to eight years for each of the robbery charges and 11 years for each
of the aggravated-robbery charges, and it ordered that the terms be served consecutively. The
trial court also merged the one-year firearm specifications with the three-year firearm
specifications for each of the aggravated robberies, and ordered that these terms be served
consecutively to each other and to the prison terms for the aggravated-robbery and robbery
offenses, for a total prison term of 44 years.

Sufficiency and Weight of the Evidence
[*P361 In his first assignment of error, Shalash argues that his convictions for robbery,
aggravated robbery, and the accompanying firearm specifications were supported by insufficient
evidence and were contrary to the manifest weight of the evidence.
To reverse a conviction for insufficient evidence, the reviewing court must be
1*P371 HN1
persuaded, after viewing the evidence in a light most favorable to the prosecution, that no
rational trier of fact could have found the essential elements of the crime proven
beyond [**231 a reasonable doubt. State v. Thompkins, 78 Ohio St.3d 380, 386, 1997 Ohio 52,
678 N.E.2d 541 119971. To reverse a conviction as against the manifest weight of the evidence,
the reviewing court must weigh the evidence and all reasonable inferences, consider the
credibility of the witnesses, and conclude that in resolving conflicts in the evidence, the trier of
fact clearly lost its way and created a manifest miscarriage of justice. Id. at 387.
f*P381 The state argued that Shalash was guilty as either a principal or as a complicitor to the
Complicity is defined as when a person "acting with the kind of
four bank robberies. HN2
culpability required for the commission of an offense * * * aid[s] or abets another in committing
the offense." R C. 2923.03tAt('2h To support a conviction for complicity by aiding and abetting,
71

the state must show that the defendant assisted, encouraged, cooperated with, advised, or incited
the principal in the commission of the crime and that the defendant shared the criminal intent of
the principal. State v. Johnson. 93 Ohio St. 3d 240, 754 N.E.2d 796, 2001-Qhio-1336 (2001).,
syllabus. Aiding and abetting can be inferred by presence, companionship, and conduct before
and after the offense is committed. Id. at 243-245.
In order to
1*P391 Shalash was charged with robbery under R.C. 2911.02(A)(2). HN3
prove the robbery counts, the state was required to prove that Shalash or his accomplice, in
committing T**24] a theft offense, inflicted, attempted to inflict, or threatened to inflict physical
harm on another. He was also charged with aggravated robbery under R.C. 2911.01(A)(1). HN4
To convict Shalash of the aggravated-robbery counts, the state was required to prove that
Shalash or his accomplice, in committing a theft offense, had a deadly weapon on or about his
person or under his control and either displayed the weapon, brandished it, indicated that he
possessed it, or used it. To establish the three-year firearm specification, the state was required to
prove that Shalash or his accomplice had a firearm on or about his person or under his control
while committing the offenses and displayed it, brandished it, indicated that he possessed it, or
used it to facilitate the offenses. See R.C. 2941.145.
1*P401 Shalash primarily argues the state failed to prove his involvement in the offenses. He
contends that Neitz's and Pfalz's credibility was undermined by the state's promises of leniency,
and by conflicts in their testimony. He further argues that the state failed to present any physical
evidence directly linking him to the offenses.
1*P411 But based upon our review of the evidence, we conclude the jury could have found that
Shalash had r**251 participated in the robberies as either a principal or as an accomplice. Neitz
and Pfalz testified that Shalash had conspired with them to rob the four banks to feed their heroin
habits. Neitz's role was to "case" the banks, Pfalz's role was to rob the banks, and Shalash's role
was to supply the disguises and the gun and to drive the getaway van. Neitz and Pfalz described
the four bank robberies in detail. Pfalz testified that he had threatened to use a gun and that he
had displayed a gun at the Cheviot Savings and First Financial Banks.
1*P421 Neitz's and Pfalz's testimony was supported by surveillance video from the four banks,
surveillance video from St. James Elementary School near the Cheviot Savings Bank, and by
surveillance video from a UDF and Dairy Mart near the First Financial Bank. Their testimony
was also consistent with the testimony of the four banks' employees, and with Lanter's testimony
that she had seen Pfalz, Neitz, and Shalash in a white van outside the St. James School, a couple
of hours before the Cheviot Savings Bank had been robbed. Neitz and Pfalz testified that the
money from each robbery had been divided among Pfalz, Neitz, and Shalash. Thus, a rational
jury could r**261 find that Shalash had actively participated in the offenses.
1*P431 Shalash also argues that the jury's verdict was against the manifest weight of the
evidence. He argues that neither Neitz nor Pfalz were credible given that they had admitted to
either being less than truthful on prior occasions or had demonstrated an inability to testify
consistently under oath at trial, and they had agreed to testify against him for leniency in their
own cases. But the jury was in the best position to evaluate their credibility and to determine the
72

weight to be afforded their testimony. Given that the totality of the evidence established that
Shalash had aided and abetted Neitz and Pfalz in the four offenses, and that Shalash has not
demonstrated any basis for disturbing the jury's determination, we cannot conclude that Shalash's
convictions were contrary to the manifest weight of the evidence. See Thompkins, 78 Ohio St.3d
at 387. 678 N.E.2d 541. We, therefore, overrule his first assignment of error.

Prosecutorial Misconduct
[*P441 In his second assignment of error, Shalash argues that multiple instances of
prosecutorial misconduct denied him a fair trial. Shalash argues the prosecuting attorney
committed misconduct during closing argument when he presented [**271. extensive evidence of
the robberies, focused on the scary nature of the crimes, argued that the crimes had been
committed during a "heroin-induced frenzy," made inflammatory remarks about Shalash's
religion, and improperly vouched for the credibility of a witness.
__________
1*P451 HNSA prosecuting attorney has wide latitude to summarize the evidence and
zealously advocate the state's position during closing argument. See State v. Richey, 64 Ohio
St.3d 353. 362. 1992 Ohio 44. 595 N.E.2d 915 (19921 The propriety of a specific remark by a
prosecutor must not be judged in isolation, but in light of the tenor and context of the entire
closing argument. See State v. Slagle„ 65 Ohio St.3d 597, 607. 605 N.E.2d 916 (1992),. Improper
remarks during closing argument are grounds for reversal when the remarks serve to deny the
defendant a fair trial. See State v. Maurer. 15 Ohio St.3d 239, 266. 15 Ohio B. 379, 473 N.E.2d
768 119841.
I *P461 As Shalash admits, he did not object to any of the prosecutor's comments during closing
argument. He, therefore, has waived all but plain error. See State v. D'Ambrosio, 73 Ohio St.3d
141. 143-44. 1995 Ohio 129. 652 N.E.2d 710 (1995). Based upon our review of the record, we
cannot conclude that the prosecutor's comments during closing argument rose to the level of
plain error.
f*P471 The prosecutor's statements extensively summarizing the evidence against Shalash were
not improper. The prosecutor's comments focusing on the "scary nature" of the robberies were
based upon testimony from bank r**281 employees that they had been threatened with a gun,
and their fear that Pfalz could have fatally shot them had he chosen to do so. Likewise, the
prosecutor's statement that the robberies were the result of a "heroin-induced frenzy, was based
upon testimony from Neitz and Pfalz that they had committed the robberies to feed their heroin
habit, and that they had robbed the banks while "high" on heroin.
[*P481 Shalash next argues that the prosecutor committed misconduct when he repeatedly made
inflammatory remarks about Shalash's religion. He points to three references to religion in the
state's closing argument. The first reference occurred when the prosecuting attorney stated that
Shalash and Neitz had been married at a mosque in Clifton. But nothing about this statement

73

would serve to inflame the jury's passions. The second reference occurred during the prosecutor s
discussion of Neitz's and Pfalz's credibility, when he said,
Is it common sense? Is it believable? Do you believe that a Muslim wife is going to somehow be
driving around town with an outsider, Pfalz, a stranger to the family, robbing banks, and the
husband has been with him just moments before and somehow he leaves the picture [**29]_ with
the kids in the van?
The third reference occurred during the rebuttal portion of the state's closing argument when the
prosecutor stated,
Are you kidding me? Give me a break. And a Muslim wife on top of that. In that culture the
women aren't even supposed to be out without a male relative and we got her robbing banks with
anon- male relative with the kids in the truck. Give me a break. Give me a break.
[*P491 Although the comments were arguably inappropriate, they were not so inflammatory
that we can conclude that Shalash's convictions resulted from passion and prejudice instead of
the state's proof of his guilt. The state produced overwhelming evidence of Shalash's guilt, and
none of the cited comments were so prejudicial or outcome determinative as to constitute plain
error and to deny Shalash a fair trial.
r*P501 Finally, Shalash argues that the prosecuting attorney improperly vouched for the
credibility of the school nurse when he said, "Obviously she's not going to lie to you." HN6
It is improper for an attorney to express a personal belief or opinion as to the credibility of
a witness. State v. Williams. 79 Ohio St.3d 1. 12. 1997 Ohio 407, 679 N.E.2d 646 (1997). Here,
the prosecutor did not improperly vouch for the nurse's credibility as a witness. He merely
argued [**301 that she was a reliable witness and that she lacked any motive to lie. Therefore,
we overrule Shalash's second assignment of error.

Jury Instruction on the Firearm Specifications
[*P5H In his third assignment of error, Shalash maintains the trial court erred by failing to
separately instruct the jury that the state had to prove the firearm specifications beyond a
reasonable doubt.
[*P521 Shalash did not object to any of the jury instructions at trial. He argues, nonetheless, that
under the United States Supreme Court's decision in Sullivan v. Louisiana, 508 U.S. 275, 28L
113 S.Ct. 2078. 124 L.Ed.2d 182 (T993h the trial court's failure to give this instruction is a
"structural error" requiring automatic reversal. The state argues, on the other hand, that the trial
court's failure to instruct the jury is a trial error amenable to a "plain error' analysis. See State v.
Blankenship. 102 Ohio AnnJd 534, 546, 657 N.E.2d 559 (12th Dist.1995}; State v. Norman, 1st
Dist. Hamilton No. C-920202. 1993 Ohio App. LEXIS 133, *8-9 (Jan. 20, 1993)■

74

f*P531 After reviewing the case law and the record, we agree with the state that a plain-error
analysis applies. The structural error at issue in Sullivan was the denial of the right to trial by
jury by giving a defective reasonable doubt instruction. Sullivan at 279. The instruction the trial
court gave to the jury suggested that the jury had to have a higher degree of doubt than is
required for acquittal under the reasonable-doubt 1**311 standard. Id. at 276277. The Sullivan court held that a "beyond-a-reasonable-doubt instruction" that misdescribes the
burden of proof requires per se reversal. Id. at 281.
[*P541 Here, however, the trial court properly instructed the jury on the reasonable-doubt
standard at multiple times during the jury charge. At the beginning of the jury charge, the trial
court stated:
[tjhere is no requirement that the defendant present any evidence. The duty of proof rests entirely
with the state of Ohio. The defendant must be acquitted unless the state produces evidence which
convinces you beyond a reasonable doubt of every essential element of the crime charged in the
indictment.
Reasonable doubt. Reasonable doubt is present when the jurors after they have carefully
considered and compared all the evidence cannot say they are firmly convinced of the truth of
the charge. It is a doubt based on reason and common sense. Reasonable doubt is not mere
possible human doubt because everything relating to human affairs or depending on moral
evidence is open to some possible or imaginary doubt. Proof beyond a reasonable doubt is proof
of such character that an ordinary person would be willing to rely and act upon it in the most
important [**321 of his or her own affairs.
At the end of each count of the indictment, the trial court instructed the jury that the state was
required to prove the elements of the offense listed in that count of the indictment beyond a
reasonable doubt.
f*P551 The trial court specifically instructed the jury that the aggravated-robbery charges in
counts 3 and 5 of the indictment included the necessity of finding that Shalash, while committing
the robbery, or immediately fleeing thereafter, "had a deadly weapon on or about his person, or
under his control, and displayed, brandished, indicated possession or used the deadly weapon, to
wit: a firearm." The court also instructed the jury that it specify on counts 3 and 5 whether it
found that Shalash "did have on or about his person, or under his control, a firearm, while
committing the offense of aggravated robbery."
[*P561 When taken together, these jury instructions satisfied the requirement of instructing the
jury that the firearm specifications had to be proven beyond a reasonable doubt. Therefore, the
trial court did not commit plain error by failing to separately instruct the jury that the state had to
prove the firearm specifications beyond a reasonable doubt. [**331 See Blankenship, 102 Ohio
Ann.3d at 546. 657 N.E.2d 559: State v. Norman. IstDist. Hamilton No. C-920202, 1993 Ohio
App. LEXIS 133. at *8-9; State v. Dubose. 7th Dist. Mahoning No. 00-CA-60, 2002-0hio-3020,
^ 20-35; State v. Penson. 2d Dist. Montgomery No. 9193, 1990 Ohio App. LEXIS 732, *32 (Feb,
26. 1990): State v. Small. 8th Dist. Cuyahoga No. 68167. 1995 Ohio App. LEXIS 4844, *19-20

75

fNov. 2. 1995s). We, therefore, overrule Shalash's third assignment of error and affirm the
judgment of the trial court.
, Judgment affirmed.
Cunningham, P.J, and Dewine, J., concur.

76

APPENDIX G.

OHIO COURT OF
APPEALS
OPINION
POST CONVICTION
APPEAL

State v. Shalash, 2016 Ohio App. LEXIS 4105
Copy Citation
Court of Appeals of Ohio, First Appellate District, Hamilton County
October 7, 2016, Decided
APPEAL NO. C-150614

Opinion
JUDGMENT ENTRY.
We consider this appeal on the accelerated calendar, and this judgment entry is not an opinion of
the court. See Ren.Op.R. 3.1; App.R. 11.1(E); 1 st Dist. Loc.R. 11.1.1.
Petitioner-appellant Ahmad Shalash appeals from the Hamilton County Common Pleas Court s
judgment denying his postconviction petition. We affirm the court's judgment.
Shalash was convicted in 2013 upon jury verdicts finding him guilty on multiple counts of
aggravated robbery and robbery for his part in a series of bank robberies. He unsuccessfully
challenged his convictions in his direct appeal to this court and in a petition under R.C.
2953.21 for postconviction relief, filed with the common pleas court in 2014. See State y,
Shalash. 1st Dist. Hamilton Nos. C-130748 and C-130749. 2014-0hio-5006, appeal not
accepted, 142 Ohio St. 3d 1517. 2015-Qhio-2341. 33 N.E.3d 65. In this appeal, he presents a
single assignment of error, challenging the denial of his postconviction petition without a
hearing. We find no merit to this challenge.
In his petition, Shalash sought relief from his convictions on the grounds that he was actually
innocent, that his trial counsel had been ineffective in investigating his case, and that the
prosecution 1*21 had engaged in misconduct in convincing his two co-indictees to testify against
him. He supported his actual-innocence and prosecutorial-misconduct claims with affidavits of
his co-indictees, recanting their trial testimony implicating him in the robberies. And he
supported his ineffective-counsel claim with a copy of his letter to his postconviction counsel
detailing his trial counsel's alleged deficiencies.
The petition and its supporting evidence, along with the record of the proceedings leading to
Shalash's convictions, did not demonstrate substantive grounds for postconviction
relief. See R.C. 2953.21(C). A claim of actual innocence based on evidence outside the trial
record does not provide a ground for relief, because such a claim does not demonstrate a
constitutional violation in the proceedings leading to the petitioner's conviction. See RX.
2953.21 (Add¥ak State v. Powell. 90 Ohio Apn.3d 260, 264, 629 N.E.2d 13 (1st
78

Dist.1993). Shalash's claim that the prosecution had suborned and elicited perjured testimony
from his co-indictees failed in its central premise, because the common pleas court could not be
said to have abused its discretion in discounting the credibility of their affidavits, see State y..
Calhoun. 86 Ohio St.3d 279. 284-285. 1999 Ohio 102. 714 N.E.2d 905 (19991 and, thus, their
trial testimony was not demonstrated to have been false. See State v. Iacona, 93 Ohio St.3d 83,
97. 2001 Ohio 1292. 752 N.K.2d 937 (2001). Finally. f*31 the evidence offered by Shalash in
support of his ineffective-counsel claim did not demonstrate a reasonable probability that, but for
his trial counsel's alleged deficiencies, the results of Shalash's trial would have been
different. See Strickland v. Washington. 466 U.S. 668. 694,104 S.Ct. 2052, 80 L. Ed. 2d 674
(1984); State v. Bradley. 42 Ohio St.3d 136. 538 N.E.2d 373 (1989).
Because Shalash failed to sustain his burden of submitting evidentiary material setting forth
sufficient operative facts to demonstrate substantive grounds for relief, the common pleas court
properly denied his postconviction petition without an evidentiary hearing. See R.C..
2953.21(C); State v. Pankev. 68 Ohio St.2d 58. 428 N.E.2d 413 (19811: State v. Jackson^64
Ohio St.2d 107. 413 N.E.2d 819 (1980). We, therefore, overrule the assignment of error and
affirm the court's judgment.
A certified copy of this judgment entry is the mandate, which shall be sent to the trial court
under App.R. 27. Costs shall be taxed under App.R. 24Fischer, P.J., Hendon and Mock, JJ.

79

APPENDIX H.

AFFIDAVIT OF
JENNIFER NEITZ

<

80

EXHIBIT

D

X-fNCwOSvvv

aco.

~u y

tci

JiOiCVS.
•e^Q

OAC-s

~ O-AfevMkr.^___

(KNCyOACC? CN

TS>g.Ti fOrOl

&

OXrx V^Cn> -a

Is

c\r-jT\

■P\

SJC&5=>-

oaccxcs

Xcy*-.^ Wc,ii

<N\tc

rw?^?

TM9a

foOCVOXjEOhS.

C Cv

c*g

rfiy-'U'A-T

to

rv-sx.

CK<r _

v>?-vNC?-\Vc^

SaSs,

TvAgyr

QO?_,

■F-i^r\y-'?»T

-tvqrg-

OX'S OWa t,

tOC-v °sv\& > -e^-vjL

^S£^iiS±CS^S^.

-aorx
TT

COftCftPCX\ (TTf-O

<vo>cx

C\S

Vy-v^NESs

T_ lysfcvr

TvX?

gxocv

a^PAftS\X^-VvgS>i

O

Voo! <g>>\ftvy><^

c<\p.

Avffaftv^

~TV\f\T

.SCSaiiES^SSfc

c-oCx

/SttPOIorttl

Ov

__^w>Ofc----- \£l

ftc^xvcvsr

C-iPiTVi

CPU.

VsCsX

T

PP?S

0^SSV.\Cl-S'

-wfit

gsXyCfT

TV\?

30X

'PC)5>rft5N

^QVH.

■ppC-gQ.

■X£2£OSr\£Q>

vxrc-cCvyxrrSi

Qgl\%g,v\
o

(SAP fry-

Cvac\

PP^xvCxBSgC----- VO----SOso&----fti'ft'm

rcrvr

(SAP

CO ivS^vx?

o

i Pyx'S.

W^S,

CCV-.Cn ^-.

•QTCVv T |V>I 9~

OS-

ooiC\o;\(—c\tvx '

■V4>2>.

y

£

icVS

g<x? WigS\C?

SSS?c.rP)<f:vo^...

cs?.-

c^yMaK^

<?£-<?*? Q\<\

Tv v\S _ _Sh£x£&o.—CtAILVaX.

iQ1^

-TVKgsT

■U*aS-.

OrX

V\<XO

•Of- C C-VOT £X<S\ £-

pvrvrs

I"

ilJassKsss^
S 4z
S.§.gBiiS9&Ei__
r-ar'°'^
M
r
B W\.

•■*

09

*/ /.

I

■OrWCiSQ

3SaiS£LC£S----- SiX

Otk^hijlt____

Q-I

F'X-C-vXtMXlrNy-

CNp-ay^
-t-r>icx

\

■r—
11

lCC^\X\
~\T\^.

v’ftvXLA

<fr-gi£XX
~CVc<g.?-.<E

VtSCx

wrCv--.
rrSK-£

TV\C\-T

i mmm
JZrT

xx's

<\^fi\-T>v-r

T?- <VC X'CrvrA

o':i

.. .. .^.'C’.WS.^_\_..Hc'XL-------

<3s?

faO~U

A UavOifX \

-^rvsCxCx

.c££^
.LOt£>£-r-

TT^CC^Sf. r^

-TXAfi^vf-^S-

§ |i
v-tnv>s .

P£j

CT-

XlTVS,
i- J go AC'

XS-XxO.

v CO&\ Tx

PC\cs

vS*—

-yvx^

'faVsQiCi^

TVvX^

SSOxOka

<~Eo\:\P\'JrS <cjA

TO

ChffxPU ,

i '-cxv-xvj^

TV\£.

^■CW'CVS* - *0^^.

C'O.CTNP^

C-t^SSL

TTx

gyx^yY'TT'? O

-rr>

Sm^Lcn’SCiT.

Xov^sru-

\Ci .Q(V^.

V;

II I

-■^S'-c-Or' ■mininm'!

f

DEFENDANT’S
IT

1
I

mmgm

i

■s

i

l^VFTP:

riF OHXD

EXHIBIT

i

o

I

A

C

<&OhrOY—

i

i

i

IfsJeuO

vjAtfynui^I

K)g ^2 J /zC-f&T -£/rsf~~ Livji wt^v
!

Ici^iy____________________________ L&jotiye__icUiSk_QAtJLrfe^Xj ^4
...Jp^rjgvx a. 1__ j^_nc*>.lgA?).e
1

I

©X

i

l

^Q.S). ct-W’Uo
Cse^fnft Njrotofd V\vt-

i

i
i

\^cok> CM usm <£____
1

.S*5_^0S3?3O^5.

__ B.V)S?_J3-__ L^5Lt__X^.fcV.S«A

...... -j-

■■■_ -S-Ol ... ilQlQ..

_____UQXS&ib__ cvt

^?\v^a

xv’cnf

I

CftOtVoW >

TS. W^vb C<CYK^. ..^jVJEQ

Rlj^______

I

I

______ V-O-O-Sl—gjftt^gk ■ T^-yOQ?. ~rt\^.

-^g.

xtg^vc^t_________

____ _________ 'jOftS_^S<LA>_________________________________________________________________

____j>__5£>vss.
_____ 3^±^r».1P_l.<E.'D_;.^\VV!

JSA— 3.0. _ J£=l£_________
S>AVl\<.5_

SJC^vis^s.

QVJ-TOP'vm VC A

~\^> \ OVn______

____ _SHe.U^SV\_Ui6S___________________\^jCLkNJ^P^!ft5>_33A?..3; ev^\C.v.t
—,

--------W>

OS>fcC>

__VL6_._00l._ fit. C^O__0'S.Lv>S.S^__^ITO V> u C VAT ifOCg CO Cl • ^tA.-pp^SH __

____ftS_G>Si^.U_..AV\t..

-------------------------------------------------- --

___ ____.(S)..c?^

AaoO.X..

___ uxt\*x.. Attest tD Xto Kj^.rn'rt.
......... <i*Wbt3 . *'* U^c-

---------- -------

e^Tn

ofoaxL^xto
*>o ..vKvS„-MfirO

vo<W

CO.£~.

!

!

i

_U)ftS__e.XXS.WOXv.^____________________________________________ _______________

(}£) fa X£ax3 VNP^

flVTTtt.

CKfojST'LO 9-j?Cfc>

_<L\tOsx.f^)^.eXA—CjSvgfc.,
!

i

^jCfi Uk__30—CX.J-..IX---- US05>__S»3Aky__?siS.5.\^_oSS»5-5.

:S>.-f^r. ..X-Q__

r^vaua

.^_w.«io_-jt_uoft-s__<^.o.2.sx_\o^^_evi^is:_xu.e_so^sbg.^xs.>^i
:xok&_x^s—xstn:.tcxL\)es__x\fc£a_nft.-^&au!bstt_wft-S.xx*^_pyoi£^
!
_Ui\W

I
I

^VaTaN^S^____

fi vx

e^-_XlttSCQ

Jjoffcb__>oot

‘ry.ftCTkU

-.. '~3]-------

-vVMvOtXLi'O^

Cut^fflL^__etS__X__ MoB$>__V^SiSlZL___

__J>.ftM__->_G.(ON^__COJt£>\_t!)J-»__aS5-__OS^_35£LvDk>S_________

I

,__ (jT) Q>ks,

nv savau^h

^sco^t^r^ x_ vifMQ x^\S\\c_exct>_^S.vrCL_

I
I
I

I

_3.-V0_XHVS.j_3---- ir-AO^VNX-_'SX_t^HS_^OD v^sXS-_XP5k_CA|_.. TQ,._3. %.
:.U>ttflV

h«»o

AjoftArt^p

nfi^Sr^o.^X-

r.ffl.^vtnu^vi

-to

, :l^_..g>3L&j^o&-_

vst-

__________________________

I

I

•WQsgqycNL

mg. TO

_&f^TV...lX.

QOO^T^TL

T. ^\PKS -

—■gsmx^._ .efafttrofe?: tA^sw ihu^SH
-

VJQ6U^ CoQ T^

-J

WlSO<C>

_x65L_y.0-VA>tA£S_._______
J^_X_Vj£\a_jfc?b__3X

x

SL«IVJ^.

s>\O>0-V

ft CWOKt^

ftfJD.

XO_VAXHf)X_.U>i3lS. ^XtOlCX)^

___<rL6.0_t.__,_iO «^32aLL ^Sv6x;te)X65LS_3:^ft3.
____ (J)5S.tXO^t

-jrvfi^JL_,_______________

“xje.S~j.li^«Pj£___X_JJO.£)_S__ 6.StX„TO...

__ fl.Lt_y fls uAt.

wift

£_ _X_0____

^ oott^upis 3<vo &

. ._.Xie>Cxo. .nx xia?,.. . c.o.^S.imd„u^J&L._.sxax.XD ~e,ax... t.i£- .v*jft.S._

_L_.

(cO'VKi \s>

Xo

Taft's., Ri0£>

-fSTi.E^. fi.fe>:0j./OSA_
Si<0-rt-

.'<tX?-:WVs ftuftSV*
-^<L

-CQ 0>&x

6

VOO i\)0 ,>0\U^.

i-----

I

TvAPTSjS

_______________________

... (JOBS .. _Co0.mts__XO._ jfouE^Jr 0^.<viS^_fe!C)l----------------

_{j5)i^su*>u

—^_Qji^_Jii^>JSiacA._rviS3^L^.

_JXA~__ ------------------------------------------------------------------------------------------------------

B(^:^-_o?-_-roi.e^aoS&‘E^tS—^>iD-Jet.eO_c^_^OC^:vXt5-te£-—OX-----I
I

eviTvO uAf^ to__
XOjJXjAA8-^£Xj£.a^.£.S^.^£^r2i_X-JEI.SXiSilS^

I
I

rSL .HftQ, TAV^iCa _Qo>x-i.t-_ _ft_X5xQ
CAU^

f.^ftOtsH

x.u0j^^\^_^O^C_JS.O__S=&-------------

TO. ^ _^_eaVL TO. X£S,TrF.g.^__________________________

i

(jjv)

OCVCnPV.f-rv^^

CSv

THt. ■ryjL\.e--l-----T€X2^_

I

;

3tO:ft-C.c_0:<LaC(.i.S_JX_\VLU5LJ^SS.?l_Xr^_Xtl^_&X-eXJ-!«X^’CS_-_- \
T>\X> <vvsr racftU

t°r

L tTT Ov

u~\es^T

X

f\Ts _SftlO_ jfcl£ B-O^^--------

;

____________________________

jQ^Ds^q^jgs^wt^H- va*\^ C6’OC>\cx<LC^ OS
1

.\\% pio

I

XlU<^

_v<?).6-

not

T<x

roown

^Rsfy^

X.

f)

C%K(yiZ

Qp6go

....-c\:\ «L

______

^>t_c\^><3<Q_JjQ—---------------------

tf_'_4Xaug_______________ r________________________

.(^).IS__ VKftO- ft- C*vfrMc_t__ XO

nIS.n.VU-0

Jv^',01

o<CiS---fYS- ~G„vO^-Sl<L_

____ <c*OT-') 7. -X_ca#>X-_±xsst
CX

TlA^X_______

c.oXv UanO^Qs..

~fST\w>vy. ______ ____

. -^l_______
__LV^il^------

.^m.bJOX___
______

.

—• ——

Stu.532.__^

__

czr.

J0_UL^ lL^ZZ.

>g> <~

LA

,

la

—i:7>

__-4oJ^<_<^ri.ioj2^

ji iA

c*___M 'P^Tr^^TLj^oJ^h^—L±t—^W4J^—~^-Z.—d^2

_esC!_
..~^r^Z_<£az}

<A^y/

*

&uk

4^tS

—-'2-Ot-V---------

X
A*

■

rySSn

{W^gf^.33^-

•

H-ffetif-/--

A®L

APPENDIX I.

AFFIDAVIT OF
JAKE PFALZ

•

i

n

\i x'W\^o_'_cXi

ft-

3=l^zVi.

i

\

i ^~Wl_,

•

i^W.y

yWwAYon

!€>V

' a< mV'

Cv-^j

Co'‘A>/:cV£lV.

SVcVrg^y ;\ V
VW^

-Cage VS__on.

___ SVcA C\<,\a .

i^gAVtj

VVK

cAg. SV

AVlCCvlAw.
tVC

^onT

VvAY-V

V(]

V)e\\CyV^r
\pi?-m.<4

I'viArt

SoV^>Q-s,e< ,

;ls U^.
!i

aj____________ ~i!i
|j tOqC

W-vX\V^

ii

i 'W-

6\CV ^1\ t\^T .

Vg. Wn Vu

J
->
Y<cAu(Lecl.,

iHco/a-

•cmc
:!
;

V-\g „ ^ VcA x
CvWrL
V e.C^N. Y?. ^ ^ 'C-.YA \Ag XtArVU
X
YsAVuAvAS . Avvi
(X'.-'A- Npyv/\.Y.?.f TvUVYA- c^uii.9^

A

V\

ow

AVY. CVV^vA
l-jKoA-

VCjywV.
^Vr\OS<? -

Sxr\c\ckSV. VCi

Sc- -g v<Lc

rA-e,
V^-v>.A£--

C-.V.

VW<U

YAX ■ 0^'iVvvNCvcl■

5

tAt

V\scActSV\

VSN

CcsN^rXi-C'g-S.

!

ii-L.

Vr vVcL- r^V '.i7 - ,-/f\ Vr YiJfvgLi^ (LOlii cl

\j±lS±
I

i

i

jCvCa

^(.cLrvvc

Va

0

■OoAsX

XV dV
tJc* U...

evs v
Vw?

vv.s Aavo^ xa,ia>
"T^Ao/nl.'^

cu

Jpkai

